<html>
<title> - STATUS OF THE DEPARTMENT OF ENERGY PROGRAM TO DEVELOP A PERMANENT GEOLOGIC REPOSITORY AT YUCCA MOUNTAIN, NEVADA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





   STATUS OF THE DEPARTMENT OF ENERGY PROGRAM TO DEVELOP A PERMANENT 
             GEOLOGIC REPOSITORY AT YUCCA MOUNTAIN, NEVADA

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2000

                               __________

                           Serial No. 106-151

                               __________

            Printed for the use of the Committee on Commerce


                    U.S. GOVERNMENT PRINTING OFFICE
65-916CC                    WASHINGTON : 2000





                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
                                     BILL LUTHER, Minnesota
                                     LOIS CAPPS, California

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                    Subcommittee on Energy and Power

                      JOE BARTON, Texas, Chairman

MICHAEL BILIRAKIS, Florida           RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               KAREN McCARTHY, Missouri
  Vice Chairman                      TOM SAWYER, Ohio
STEVE LARGENT, Oklahoma              EDWARD J. MARKEY, Massachusetts
RICHARD BURR, North Carolina         RALPH M. HALL, Texas
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
CHARLIE NORWOOD, Georgia             SHERROD BROWN, Ohio
TOM A. COBURN, Oklahoma              BART GORDON, Tennessee
JAMES E. ROGAN, California           BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ALBERT R. WYNN, Maryland
HEATHER WILSON, New Mexico           TED STRICKLAND, Ohio
JOHN B. SHADEGG, Arizona             PETER DEUTSCH, Florida
CHARLES W. ``CHIP'' PICKERING,       RON KLINK, Pennsylvania
Mississippi                          JOHN D. DINGELL, Michigan,
VITO FOSSELLA, New York                (Ex Officio)
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Berkley, Hon. Shelley, a Representative in Congress from the 
      State of Nevada............................................    10
    Crowley, Kevin D., Staff Director, Board on Radioactive Waste 
      Management.................................................    41
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     8
    Itkin, Ivan, Director of Office of Civilian Radioactive Waste 
      Management, U.S. Department of Energy......................    24
    Knopman, Debra S., Board Member, U.S. Nuclear Waste Technical 
      Review.....................................................    29
    Page, Stephen D., Director, Office of Radiation, U.S. 
      Environmental Protection Agency............................    34
    Paperiello, Carl, Deputy Executive Director, Materials 
      Research and State Programs, Nuclear Regulatory Commission.    20
Material submitted for the record by:
    Cohon, Jared L., Chairman, United States Nuclear Waste 
      Technical Review Board, letter dated August 31, 2000, 
      enclosing response for the record..........................   121
    Colvin, Joe F., President and Chief Executive Officer, 
      Nuclear Energy Institute, prepared statement of............   106
    Crowley, Kevin D., Director, Board on Radioactive Waste 
      Management, letter dated August 18, 2000, enclosing 
      response for the record....................................   103
    Page, Stephen D., Director, Office of Radiation, U.S. 
      Environmental Protection Agency, letter dated September 18, 
      2000, enclosing response for the record....................   127
    Rathbun, Dennis K., Director, Office of Congressional 
      Affairs, Nuclear Regulatory Commission, letter dated August 
      28, 2000, enclosing response for the record................   115

                                 (iii)

  

 
   STATUS OF THE DEPARTMENT OF ENERGY PROGRAM TO DEVELOP A PERMANENT 
             GEOLOGIC REPOSITORY AT YUCCA MOUNTAIN, NEVADA

                              ----------                              


                         FRIDAY, JUNE 23, 2000

                  House of Representatives,
                             Committee on Commerce,
                          Subcommittee on Energy and Power,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2123, Rayburn House Office Building, Hon. Joe Barton 
(chairman) presiding.
    Members present: Representatives Barton, Bilirakis, 
Largent, Burr, Shimkus, Bryant, and Boucher.
    Staff present: Kevin Cook, science advisor; Elizabeth 
Brennan, legislative clerk; and Sue Sheridan, minority counsel.
    Mr. Barton. The Subcommittee on Energy and Power of the 
Commerce Committee hearing on the status of the Department of 
Energy programs to develop a permanent geologic repository at 
Yucca Mountain, Nevada, is underway.
    Today's hearing will address the Department of Energy's 
program to develop an underground repository for the permanent 
disposal of nuclear spent fuel and high level radioactive 
waste. Solving the disposal question is absolutely essential if 
we are to maintain our existing nuclear generating capacity to 
meet the Nation's present and future energy needs. Members of 
the subcommittee are all too aware of how much time and energy 
has been spent wrestling with this issue in recent years. The 
Department of Energy has a clear statutory and contractual 
responsibility to begin accepting spent fuel beginning in 
January 1998, which is a year and a half ago.
    The government's failure to meet that obligation has 
resulted in a growing financial liability that may eventually 
cost the taxpayers tens of billions of dollars. But the 
Department tells us that the earliest the repository will 
actually be ready for operations is in the year 2010. We must 
find a way to take acceptance of spent fuel from the utilities 
and move it to the repository some time sooner than 2010 if at 
all possible. Yet the Clinton administration has resisted all 
efforts to accelerate the acceptance date giving us veto 
threats rather than constructive solutions.
    The focus of today's hearing is not on interim storage nor 
on a take title option or any of the other areas of contention. 
Today, we want to talk about the Department's plan to get the 
repository ready for operation by 2010. We have to find out 
whether that schedule, even though it is 12 years too late, is 
realistic and achievable. To meet that schedule, the Department 
must first complete several near-term milestones.
    Late this year, the Department is to issue a site 
recommendation consideration report followed by final site 
recommendation and a final environmental impact statement next 
summer. These documents are essential, and I want to repeat, 
these documents are essential to support the final selection of 
the Yucca Mountain site; and in turn, the license application 
to the Nuclear Regulatory Commission in the fiscal year 2002.
    All of these steps are on the critical path if the 
repository is to open in 2010. Yet, there are grave concerns 
about the ability of the Department to meet this near-term 
schedule, and therefore, doubts about whether 2010 date is, in 
fact, feasible.
    The first of these concerns deals with the adequacy of 
funding. Secretary Richardson finally admitted to this 
subcommittee last year that the repository will not be built by 
2010 unless there are major changes as to how the program is 
funded. Unfortunately, that admission was followed by a veto 
threat regarding our committee's bill to take the repository 
program off budget to ensure adequate future funding. We are 
still waiting for the administration and the Department to send 
us a constructive proposal on how it intends to resolve the 
long-term funding profile problem.
    Today, however, we also have to address the short-term 
funding situation. The Department did not receive all of the 
funds it has requested for the fiscal year 2000. And it looks 
like the fiscal year 2001 budget appropriation that is pending 
also will be less than the Department's request. We need to 
understand the impact of these near-term funding constraints on 
the ability of the Department to meet its milestones for the 
final environmental impact statement, site recommendation 
requirement, the licensing, and the licensing application, all 
of which are critical steps if the repository is to open on 
time in 2010.
    As chairman of this subcommittee, I am very concerned about 
the Department's recent decision to recompete the management 
operation contract for the civilian radioactive waste 
management program. The contracts that the Department should be 
recompeting, such as the one for the management of the Los 
Alamos National Laboratory, the Department has never completed 
in over 50 years, despite the University of California's 
appalling mismanagement of security matters. But where the 
contractor appears to be performing well, and the program is 
coming up on several key milestones, this Department of Energy 
decides that recompetition is absolutely essential. Go figure.
    I need to be persuaded that the recompetition of the Yucca 
Mountain contract at this juncture is really in the best 
interest of the program. I don't see how the committee can 
tolerate the Department claiming that the transition to a new 
contractor is an excuse for any schedule slippages. Mark my 
words, if they do recompete the contract, I will almost 
guarantee you there is going to be a slippage, and I will also 
guarantee you the Department is going to claim it because of 
the new contractor coming online. I hope that I am not a 
prophet and am proved wrong on that, but I just feel it in my 
bones as I sit here.
    The Nuclear Waste Technical Review Board was established to 
provide independent technical oversight of DOE's work on the 
repository. As DOE approaches these critical program milestones 
in the near future, I would expect that the role of the 
Technical Review Board will become more important than ever 
before. The Board has already surfaced a number of technical 
concerns about the Department's planning and design work. We 
need to understand these concerns better and find out if DOE is 
paying proper attention to the scientific advice that it 
receives from this review board.
    The most complex, but possibly the most important issue 
that we have to address today, is an appropriate radiation 
standard for the repository. The Environmental Protection 
Agency was directed in the Energy Policy Act of 1992 to 
promulgate public health and safety standards to protect 
against release of radioactive materials from the Yucca 
Mountain site. Such standards are to be based on and consistent 
with the findings and recommendations of the National Academy 
of Sciences. Last summer, the EPA finally circulated a draft 
rule which proposed, in addition to an all-pathways individual 
protection standard of 15 millirems, a separate standard for 
the protection of groundwater.
    It is my understanding that the Department of Energy, the 
Nuclear Regulatory Commission, the National Academy of Sciences 
Board on Radioactive Waste Management, all have significant 
disagreements with the EPA over this proposed stand-alone 
separate standard for the protection of groundwater.
    Hopefully, we will be able, after today's hearing, to 
understand the scientific rationale for the need for the 
separate EPA groundwater standard, if there is such a need, and 
specifically, whether the proposed standard is consistent with 
the legislative mandate in the 1992 Act. We also need to 
understand the basis for the concerns that have been expressed 
by the Department of Energy, the Nuclear Regulatory Commission, 
and the National Academy of Sciences about the EPA's proposed 
standard. Selecting the proper standard and doing it in a 
timely manner is essential for the repository project to move 
forward.
    [The prepared statement of Hon. Joe Barton follows:]
Prepared Statement of Hon. Joe Barton, Chairman, Subcommittee on Energy 
                               and Power
    Today's hearing will address the Department of Energy's program to 
develop an underground repository for the permanent disposal of spent 
nuclear fuel and high-level radioactive waste. Solving the disposal 
question is absolutely essential if we are to maintain our existing 
nuclear generating capacity to meet the Nation's present and future 
energy needs. The Members of this Subcommittee are all too aware of how 
much time and energy we have all spent wrestling with this issue in 
recent years.
    The Department has a clear statutory and contractual responsibility 
to begin accepting spent fuel starting in January of 1998. The 
Government's failure to meet that obligation has resulted in a growing 
financial liability that may eventually cost the taxpayers tens of 
billions of dollars. But DOE tells us that the earliest the repository 
will be ready for operations is the year 2010. I continue to believe 
that we must find a way to take acceptance of spent fuel from the 
utilities and move it to the repository site sometime sooner than 2010. 
Yet the Administration has resisted all of our efforts to accelerate 
the acceptance date, giving us veto threats rather than constructive 
solutions.
    However, the focus of today's hearing is not on interim storage, 
nor on take title, nor any of those other areas of contention. Rather, 
we are here today to talk about the Department's plan to get the 
repository ready for operation by 2010. We have to find out whether 
that schedule, even though it is twelve years too late, is realistic 
and achievable. To meet that schedule, the Department must first 
complete several near-term milestones. Late this year, the Department 
is to issue a Site Recommendation Consideration Report, followed by a 
final Site Recommendation and final Environmental Impact Statement next 
summer. These documents are essential to support the final selection of 
the Yucca Mountain site and, in turn, the License Application to the 
Nuclear Regulatory Commission in Fiscal Year 2002.
    All of these steps are on the critical path if the repository is to 
open in 2010. Yet I have concerns about the ability of the Department 
to meet this near-term schedule, and therefore doubts about whether the 
2010 date is feasible.
    The first of these concerns deals with the adequacy of funding. 
Secretary Richardson finally admitted to this Committee last year that 
the repository will not be built by 2010 unless there are major changes 
to how the program is funded. Unfortunately, that was followed by a 
veto threat regarding our Committee's bill to take the repository 
program off-budget to ensure adequate future funding. We are still 
waiting for the Administration and the Department to send us a 
constructive proposal on how it intends to resolve that long-term 
funding shortfall. Today, however, we also have to address the short-
term funding situation. The Department did not receive all of the funds 
it requested in Fiscal Year 2000, and it looks like FY2001 
appropriations will also be less than the Department's request. We need 
to understand the impact of these near-term funding constraints on the 
ability of DOE to meet its milestones for the final EIS, the site 
recommendation, and the license application, all of which are critical 
steps if the repository is to open on time in 2010.
    I am very concerned about the Department's recent decision to re-
compete the M&O contract for the Civilian Radioactive Waste Management 
program. The contracts that DOE should be competing, such as the one 
for the management of Los Alamos National Laboratory, the Department 
has never competed in over 50 years, despite the University of 
California's appalling mismanagement of security matters. But where the 
contractor is performing well and the program is coming up on several 
key milestones, then the Department decides that recompetition is 
absolutely essential. I need to be persuaded that re-competition of the 
Yucca Mountain contract, at this critical juncture, is really in the 
best interests of the program. We absolutely will not tolerate DOE 
claiming that the transition to a new contractor as an excuse for any 
schedule slippages.
    The Nuclear Waste Technical Review Board was established to provide 
independent technical oversight of DOE's work on the repository. As DOE 
approaches these critical program milestones in the near future, I 
would expect that the role of the Technical Review Board will become 
more important than ever before. The Board has already surfaced a 
number of technical concerns with DOE's planning and design work to 
date. We need to understand these concerns better and also find out 
whether DOE is paying proper attention to the scientific advice it 
receives from the Technical Review Board.
    The most complex but possibly the most important issue we have to 
address today is the appropriate radiation standard for the repository. 
The Environmental Protection Agency was directed in the Energy Policy 
Act of 1992 to promulgate public health and safety standards to protect 
against the release of radioactive materials from the Yucca Mountain 
site. Such standards are to be based on and consistent with the 
findings and recommendations of the National Academy of Sciences.
    Last summer, the EPA finally circulated a draft rule last summer 
which proposed, in addition to an ``all-pathways'' individual 
protection standard of 15 millirems, a separate standard for the 
protection of groundwater. I understand that the Department of Energy, 
the Nuclear Regulatory Commission, and the National Academy's Board on 
Radioactive Waste Management all have significant disagreements with 
EPA over this proposed standard. We need to understand the scientific 
rationale for the EPA standard, and specifically whether the proposed 
standard is consistent with the legislative mandate in the 1992 Act. We 
also need to understand the basis for the concerns expressed by the 
DOE, NRC, and the National Academy about EPA's proposed standard. 
Selecting the proper standard, and doing so in a timely manner, is 
essential for the repository project to move forward.
    I welcome my colleagues from the Nevada Congressional delegation 
here today, as well as our distinguished witnesses from the federal 
agencies and independent technical boards. Today's hearing should 
answer the question of whether DOE is on the proper ``glide path'' to 
meet its milestones and open the repository in 2010, or whether the 
Department is flying along on a mere ``wing and a prayer.''

    Mr. Barton. I see that my other colleague from the Nevada 
Congressional delegation is here and I think I am right that we 
have got the entire House delegation.
    Ms. Berkley. Yes.
    Mr. Barton. That is great. I want to welcome Mrs. Berkley 
in addition to Mr. Gibbons. We look forward to their testimony 
as soon as we have our finished opening statements. This is a 
very important oversight hearing for the Yucca Mountain site. 
And it would not be appropriate to do it without having the 
input of our colleagues that represent the great State of 
Nevada in the Congress.
    With that, I would like to turn to my ranking member, 
Congressman Boucher, and for an opening statement.
    Mr. Boucher. Thank you very much, Mr. Chairman. I want to 
commend you for conducting the hearing this morning on the 
status of the Yucca Mountain repository for the disposal of 
spent nuclear fuel and high level radioactive waste. The Energy 
and Power Subcommittee has a long tradition of working on a 
bipartisan basis to address our Nation's energy security in a 
manner that is both serious and thoughtful. Nowhere has that 
bipartisan spirit been more in evidence than in our efforts to 
solve our Nation's nuclear waste problems. And in that 
tradition, I want to say a word of welcome this morning to our 
colleagues from Nevada, Shelly Berkley and Jim Gibbons, who are 
appearing as our first witnesses.
    In the Nuclear Waste Policy Act of 1982, Congress assigned 
to the Federal Government a responsibility for the permanent 
disposal of spent nuclear fuel that is generated as a result of 
commercial research or defense processes. And amendments that 
we adopted to that Act in 1987, the Congress identified Yucca 
Mountain in Nevada as the site to focus upon for the 
construction of the disposal facility.
    Since 1987, the Department of Energy has been conducting 
the site and technical studies that were necessary for the 
design and the construction of the repository. The Yucca 
Mountain facility is scheduled to begin accepting shipments in 
the year 2010. In order for the facility to meet that goal, and 
to be prepared for the acceptance of shipments, the Department 
of Energy must meet two important deadlines next year. The 
first of these is the issuance of the final environmental 
impact statement, and the second is the final site 
recommendation.
    I am highly concerned that recent decreases in the funding 
appropriated by the Congress for DOE's Yucca project will have 
a material adverse affect on the Department's ability to meet 
both the short goal of insuring these important reports, and 
the long-term goal of having the facility ready to accept 
shipments by the year 2010.
    I look forward to hearing this morning from witnesses on 
the status of the project and on the projected ability of the 
Department of Energy to meet both the near-term goal of having 
these reports issued next year and the long-term goal of having 
the facility ready by the year 2010.
    Of even greater concern, although it is not precisely the 
focus of today's hearing, is the adequacy of funding for seeing 
the repository through the construction phase. H.R. 45, which 
the chairman mentioned in his remarks, was reported by this 
committee last year by our full Commerce Committee on a broad 
bipartisan vote of 40 to 6. And it would have taken the nuclear 
waste fund off budget to ensure that that fund, like the 
Highway Trust Fund, can be used for its intended purpose and 
for no other purpose. The Department of Energy has indicated 
that unless Congress restores access to the roughly $9 billion 
in the fund, the program will face major shortfalls within the 
next 3 or 4 years. While it is unlikely that Congress will 
enact legislation addressing the matter this year, I think it 
is imperative that we take up this cause early during the 
course of the next Congress.
    I also want to thank Chairman Barton for inviting the 
Environmental Protection Agency to testify about its pending 
rulemaking on environmental standards for the repository. I 
recognize that the agency is somewhat constrained in the degree 
to which it can answer questions about the direction that the 
final rule is likely to take, since that matter is still under 
active consideration at the EPA. Nevertheless, I think it would 
be useful to hear from EPA about the status of the rule and 
those matters which the agency can address with respect to 
progress toward its completion.
    Mr. Chairman, I commend you for this timely discussion and 
I join with you in looking forward to our witnesses' testimony.
    Mr. Barton. Thank you, Congressman Boucher.
    Mr. Bryant of Tennessee is recognized for an opening 
statement.
    Mr. Bryant. Thank you, Mr. Chairman. I will be very brief 
in recognition of our two outstanding members. Having roomed 
for a couple of years with a former member in your State and 
one who whom I expect will return shortly as a Senator, I 
learned very quickly that the correct pronunciation of the 
State is Nevada. And they are probably too nice to point that 
out to us today.
    Mr. Shimkus. But you are not.
    Mr. Bryant. But I am not. I would point out it is Nevada, I 
believe.
    Mr. Barton. Well, it ain't Texas, so I am not too worried 
about it.
    Mr. Bryant. I would say, again, in deference to our panel, 
and this, our outstanding second panel also, I simply agree 
with what has been said already. I have concerns with this idea 
of rebidding the operation and management recompeting for that 
as well as other issues. I'd like to see us stay on track. And 
with that, I would apologize too. I know we are going to be in 
and out today, many of us have other competing committees and 
appointments. So please, don't take that personally as we come 
and go and with that, I will yield back the balance of my time.
    Mr. Barton. Okay. The gentleman from Illinois, Mr. Shimkus, 
for an opening statement.
    Mr. Shimkus. Thank you, Mr. Chairman. In lieu of time and 
having gone over this now in my 4th year of talking about Yucca 
Mountain and understanding both sides of the issue, I will just 
yield back my time and wait for the panelists.
    Mr. Barton. The ranking member and the chairman have great 
sympathy, since we have been doing this for 14 to 16 years. You 
are a novice, if you have only had to do it for 4 years.
    Mr. Shimkus. But I stop talking and you continue.
    Mr. Barton. Well, that may be the last time you get the 
microphone.
    The gentleman from North Carolina.
    Mr. Burr. I will also say ditto, only to add to it, Mr. 
Chairman, if we don't succeed now, Texas will be the target 
site for this facility. I yield back.
    Ms. Berkley. Perfect.
    Mr. Barton. Give us enough money, we may think about it.
    Mr. Burr. Isn't there a hole already in the ground down 
there?
    Mr. Barton. There is in my district, actually.
    [Additional statements submitted for the record follow:]
    Prepared Statement of Hon. John B. Shadegg, a Representative in 
                   Congress from the State of Arizona
    Chairman Barton, I commend you for continuing the Subcommittee's 
oversight into the issues of nuclear power and waste disposal. Nuclear 
power is a safe and efficient source of energy production which allows 
the generation of vast amounts of electricity while avoiding the air 
quality concerns raised by many other sources of power. Electricity 
consumption is expected to increase at the rate of one to two percent 
per year for the next twenty years and nuclear energy is needed to meet 
this growth without increasing air pollution.
    To ensure the continued viability of nuclear energy in the future 
while dealing with existing waste, it is absolutely essential that we 
put the permanent repository for this waste into operation as soon as 
possible. This is not optional: nuclear waste is currently stored at 
dozens of power plants throughout the United States, and many of these 
plants are running out of storage room.
    The permanent waste repository at Yucca Mountain has been under 
intensive study since 1987 and, by July, 2001, a final recommendation 
on whether to proceed with construction will be delivered to the 
President. Key to the President's decision is the use of sound, 
unbiased science to determine the parameters of the repository.
    Unfortunately, the importance of sound science appears to have 
escaped the Environmental Protection Agency (EPA) in their attempts to 
set radiation standards. There are numerous crucial aspects of these 
standards on which the EPA has failed to follow the science, including 
setting a standard which is lower than national and international 
standards and far below the amount of radiation which the average 
person receives in the course of normal, everyday life.
    Let us examine in greater detail one of the aspects in which the 
EPA has failed to use sound science: the EPA proposal to set a dose-
based standard for radiation exposure. This proposal is in direct 
contradiction to the risk-based standard recommended by the National 
Research Council, an independent, unbiased scientific institution 
affiliated with the National Academy of Sciences. As the National 
Research Council enunciates in its November 26, 1999 letter to EPA 
Administrator Carol Browner:
        ``The Board believes that EPA's rationale for proposing a dose-
        based standard is flawed for the following reasons. EPA's 
        statement in its reason 93 that a `risk-based standard . . . 
        depends upon current knowledge and assumptions about the chance 
        of developing a fatal cancer from a particular exposure level' 
        is incorrect. A risk based standard is not based on scientific 
        assumptions. Instead, it is based on a public-policy 
        determination of acceptable risk levels to individuals or 
        populations . . .'' (Emphasis in original)
    There is a public policy dispute over what role nuclear energy 
should play in the nation's future mix of generation assets. This is a 
legitimate dispute and should proceed openly. What are not legitimate 
are backdoor attempts to foreclose the option of increasing nuclear 
capacity by blocking the safe disposal of existing waste. Permanent 
storage of nuclear waste is an issue which must be decided on the basis 
of sound science, not emotion or a desire to derail debate on the 
larger issue of nuclear power. The EPA should concentrate on the job 
which Congress gave it to perform, the setting of scientifically-based 
standards to allow the safe permanent storage of nuclear waste.
                                 ______
                                 
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Thank you, Mr. Chairman.
    Just two weeks ago, this Subcommittee held a hearing that addressed 
the future of nuclear power. It was clear from that hearing that one of 
the key impediments to nuclear power in this country is the lack of a 
safe, centralized facility for the disposal of spent nuclear fuel.
    DOE was explicitly directed by Congress back in 1982 to develop a 
permanent underground repository and to begin accepting spent nuclear 
fuel by January 31, 1998. In 1987, Congress further directed DOE to 
focus its attention on Yucca Mountain in Nevada as the most promising 
site for the repository. Yet DOE tells us that it is still at least 10 
years away from having a repository.
    The hearing today is to investigate whether DOE is truly on track, 
as it claims it is, to open the repository in 2010. There are technical 
challenges, financial challenges, and contracting challenges that call 
into question DOE's ability to meet this schedule. We also must address 
the fundamental question of the appropriate radiation standard for the 
repository, which the Environmental Protection Agency is preparing to 
issue as a final rule later this summer. The Department of Energy, the 
Nuclear Regulatory Commission, and the National Academy of Sciences all 
have significant disagreements with the standard that EPA is proposing. 
We need to understand the scientific and policy basis for EPA's 
proposed standard and the effect of that standard on the repository 
program.
    Today's hearing will help the Committee understand whether DOE 
really is on the right track to open the repository in 2010, and 
whether all the technical, financial, contracting, and environmental 
pieces are in place to support that schedule. I look forward to the 
testimony of our distinguished witnesses today.
    Thank you, Mr. Chairman. I yield back.

    Mr. Barton. Let's hear from our senior member, Mr. Gibbons, 
for 7 minutes and then we will hear from the junior member, 
Mrs. Berkley, for 7 minutes. Welcome to the subcommittee.

  STATEMENT OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you, Mr. Chairman. And I realize this is 
simply an oversight hearing on the status of Yucca Mountain, 
but I do appreciate the cordial and congenial welcome of the 
committee as well as the interest of the chairman in hearing 
from us on this issue as well. And Mr. Chairman, I would like 
to have a full and complete written copy of my statement 
entered into the record.
    Mr. Barton. Without objection.
    Mr. Gibbons. Mr. Chairman, as you well know, I have, all 
along, adamantly and consistently, opposed any legislation or 
concept that would create or further develop Yucca Mountain as 
areas for nuclear waste in Nevada. Ever since I have been 
elected to Congress, I have consistently voted against the 
annual Energy and Water Development Appropriation Act, which 
annually funds the studies, development and construction of 
Yucca Mountain. And this repository is a travesty and an 
injustice to the citizens and residents of Nevada. It has a 
great potential to destroy the economy and the environmental 
future of our State.
    And long before I came to this House, as you have heard 
already, Yucca Mountain was chosen by Congress to store 
America's high level nuclear waste with the 1987 ``Screw Nevada 
Bill,'' as it was titled and the only issue left, Mr. Chairman, 
today is science. It makes sense that factual standards based 
upon sound science and reason, along with protection and 
welfare of this Nation's citizens, should not be drawn upon 
when we address nuclear waste storage.
    Secretary Richardson himself stated that Yucca Mountain 
site, ``will be based on science, pure science, not politics.''
    I would question the Secretary's statement because of a 
$1.4 million study he commissioned wherein it appears that we 
are attempting to put the square peg in a round hole. A team of 
experts are using this money to determine if tiny fluid 
inclusions which are bubbles in mineral deposits within the 
mountain are the result of hot, rising water which flooded the 
repository in previous eras. If this is the case, Yucca 
Mountain should be disqualified because it will happen again 
and release potentially deadly nuclear waste into the 
environment and cause great harm to the area as well as to any 
base water or aquifer system in the area as well that the 
region and the people depend upon. It now appears, however, 
that Secretary Richardson, in his haste to complete Yucca 
Mountain, will not even wait for his study to be completed 
before he makes his recommendation.
    In February he states, and I quote again, ``I have got a 
lot of good science, I will have sufficient information.'' I 
would ask this committee to talk to the Secretary and ask him 
to take this vital information on fluid inclusion studies into 
his account if we are to truly and factually base Yucca 
Mountain on sound science. Yucca Mountain should be 
disqualified, Mr. Chairman, for at least two other very 
important reasons, one being that rainwater containing the 
isotope chlorine 36, which is less than 50 years old, have been 
detected far below the surface in the underground site. 
Chlorine 36 comes from above-ground nuclear tests that Nevada 
endured during the post-World War II and that timeframe era. 
The Nuclear Waste Policy Act does mandate that because of this 
extremely fast-surface-water-travel-time to the repository, the 
Yucca Mountain site should be disqualified. I am not an 
engineer or a mathematician, but I think you and the members of 
this committee can see the point.
    The second reason for disqualification is the geologic 
barriers of Yucca Mountain will not limit radionuclide 
releases, thereby polluting groundwater supplies that are 
currently used for human consumption and crop irrigation. This 
again meets the condition for disqualification and is a true 
show stopper. It is important, in fact, it is very important to 
ensure that the Department of Energy does not ignore these 
facts or attempt to alter their regulations. This scientific 
approach dictates that DOE disqualified the site, not the 
regulations.
    Members of Congress also need to recognize the fact that 
these studies are credible, and future legislation must address 
these fatal findings. The art of political persuasion has no 
place in this fight. Members of Congress and the DOE must look 
to the hard scientific evidence that proves the site is 
unsuitable.
    Mr. Chairman, I and the rest of Nevada will never 
relinquish our fight against Yucca Mountain. We didn't ask for 
it, and we don't want it, no matter how much money you offer 
us. I will continue to be adamantly opposed to the Energy and 
Water Appropriations Act, which further funds construction and 
study of Yucca Mountain. Recently, the President vetoed Senate 
bill 1287, the Nuclear Waste Policy Amendments Act of 2000, and 
I congratulate him. I plan to contact the President and 
encourage him to further his commitment to protecting the 
citizens of Nevada by vetoing this year's Energy and Water 
Development Appropriations Act.
    With that, Mr. Chairman, I will thank you for your time 
here today, and with the indulgence of the chairman in letting 
our views and the views of Nevada to be aired before your 
committee, I would ask that in light of the fact that I have an 
additional appointment, I know there may be questions of the 
committee, but ask to be excused at this point in time.
    Mr. Barton. Obviously, since we have such power over you, 
if we said no, you could get up and walk out of this room a 
free man.
    Mr. Gibbons. Out of the courtesy of the chairman, I would 
stay if it were requested.
    Mr. Barton. We understand the constraints of the time. We 
are glad for you to be here and put your views on the record, 
because it is a very important issue for your district.
    We'd now like to hear from the gentlelady from Nevada.
    Nevada. That sounds like yankee to me.

     STATEMENT OF HON. SHELLEY BERKLEY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Ms. Berkley. Well, there are a lot of Yankees now in 
Nevada.
    Mr. Barton. Making a lot of money. Your complete statement 
is in the record in its entirety. We would recognize you for 7 
minutes to elaborate on it.
    Ms. Berkley. Thank you, Mr. Chairman, and I'd like to thank 
you and the rest of the members of the committee for affording 
me the opportunity to speak about an issue that affects every 
single person in my district and the entire State of Nevada. 
Oversight of the Department of Energy's Yucca Mountain project 
is crucial to the continued growth and development of my State, 
crucial to the health and well-being of all Nevada families, 
and crucial to the health of our environment. And that is why I 
testify before you today, to share with you my concerns and the 
concerns of my constituents about the status of the Yucca 
Mountain project.
    I understand that the purpose of this hearing today is to 
address the oversight concerns surrounding the Yucca Mountain 
project. I realize the subcommittee is discussing the time 
line, engineering and regulatory aspects of the project, but 
when discussing oversight issues, we must also look at the 
scientific evidence and problems that have been raised 
regarding the suitability of the Yucca Mountain to hold 
radioactive waste.
    On three separate occasions, the State of Nevada has 
demonstrated using DOE's own data that the site should be 
disqualified under both the EPA standard and DOE's own internal 
site screening regulation, and each time the DOE or Congress 
has changed the regulations to ensure that Yucca Mountain would 
not be disqualified, regardless of the health and safety 
consequences to Nevadans. In fact, DOE has found that geology 
at Yucca Mountain is so poor that over 95 percent of the waste 
isolation capability of the proposed site would have to be 
provided by metal waste containers and other so-called 
engineering barriers around the waste with only about 5 percent 
of the site's waste isolation performance, depending on the 
natural conditions. When this project started, the idea was to 
find a place with natural geologic features to contain the 
radiation. Clearly, that standard cannot be met at Yucca 
Mountain.
    Yucca Mountain is located in the young, geologically, area 
with four volcanos within 7 miles of the site. Yucca Mountain 
is surrounded by 34 known earthquake fault lines and has 
experienced over 620 earthquakes in the last 20 years. One of 
these earthquakes measured 5.9 on the Richter scale, and caused 
over a million dollars in damage to DOE's own surface support 
facilities. An aquifer flows beneath Yucca Mountain with water 
moving so rapidly that even with all the engineering barriers, 
radiation will unavoidably escape from the repository and 
contaminate the water flow. As recently as yesterday, it was 
reported again that scientists have found strong evidence that 
the Yucca Mountain repository floor was once flooded with hot 
water and feared that water could rise again. These are the 
real oversight concerns.
    I urge my colleagues to take into consideration the 
alarming scientific evidence when determining the status of the 
Yucca Mountain project. The real question here, are we going to 
continue allowing political expediency to determine our 
Nation's nuclear waste policy or will we listen to the science? 
The Yucca Mountain project is a failed one. We need to invest 
in our future and the future of generations to come, and work 
together to find a responsible and safe solution. And I would 
echo what my distinguished colleague from northern Nevada said, 
not only are there Yucca Mountain appropriations in the Energy 
and Water bill and applaud him for his efforts there, but there 
is also a great deal of Yucca money in the Defense 
appropriation bill as well.
    I thank you for allowing me to testify before the 
subcommittee on this important issue. I would also like to 
submit as part of my testimony a recent article that has 
appeared in the Las Vegas Review Journal and the Las Vegas Sun 
that further detailed the scientific findings that disprove 
Yucca Mountain as a suitable site to hold radioactive waste. 
And I thank the committee very much for their cordial 
acceptance of my testimony.
    [The prepared statement of Hon. Shelley Berkley follows:]
    Prepared Statement of Hon. Shelley Berkley, a Representative in 
                   Congress from the State of Nevada
    I would like to thank Mr. Barton and Mr. Boucher for affording me 
the opportunity to speak about an issue that affects every single 
person in my district, and the entire State of Nevada. Oversight of the 
Department of Energy's Yucca Mountain Project is crucial to the 
continued growth and development of my state, crucial to the health and 
well-being of all Nevada families, and crucial to the health of the 
environment.
    That is why I testify before you today--to share with you my 
concerns, and the concerns of my constituents, about the status of the 
Yucca Mountain Project.
    I understand the purpose of this hearing today is to address the 
oversight concerns surrounding the Yucca Mountain Project. I realize 
the subcommittee is discussing the time line, engineering, and 
regulatory aspects of the project.
    But when discussing oversight issues, we must also look at the 
scientific evidence and problems that have been raised regarding the 
suitability of Yucca Mountain to hold radioactive waste.
    On three separate occasions the State of Nevada has demonstrated, 
using DOE's own data, that the site should be disqualified under both 
the EPA standard and DOE's own internal site screening regulation. And 
each time, the DOE or Congress has changed the regulations to ensure 
that Yucca Mountain would not be disqualified, regardless of the health 
and safety consequences to Nevadans.
    In fact, DOE has found the geology at Yucca Mountain so poor that 
over 95% of the waste isolation capability of the proposed repository 
would have to be provided by metal waste container and other so-called 
engineered barriers around the waste, with only about 5% of the site's 
waste isolation performance depending on the natural conditions. When 
this project started, the idea was find a place with natural geologic 
features to contain the radiation. Clearly, that standard can not be 
met at Yucca Mountain
    Yucca Mountain is located in a young geologically active area, with 
4 volcanoes within 7 miles of the site. Yucca Mountain is surrounded by 
34 known earthquake fault lines, and has experienced over 620 
earthquakes in the last 20 years. One of these earthquakes measured a 
5.9 on the Richter Scale and caused over a million dollars in damage to 
DOE's own surface support facilities.
    An aquifer flows beneath Yucca Mountain, with water moving so 
rapidly that even with all the engineered barriers, radiation will 
unavoidably escape from the repository and contaminate the water flow. 
As recently as yesterday it was reported--again--that scientists have 
found strong evidence that the Yucca Mountain repository floor was once 
flooded with hot water, and fear the water could rise again.
    These are the real oversight concerns. I urge my colleagues to take 
into consideration the alarming scientific evidence when determining 
the status of the Yucca Mountain Project.
    The real question is, are we going to continue allowing political 
expediency to determine our nation's nuclear waste policy--Or, will we 
listen to science.
    The Yucca Mountain Project is a failed one. We need to invest in 
our future, and the future of generations to come, and work together to 
find a responsible and safe solution.
    I thank you for allowing me to testify before the subcommittee on 
this important issue. I would also like to submit as part of my 
testimony recent articles that appeared in the Las Vegas Review Journal 
and the Las Vegas Sun that further detail the scientific findings that 
disprove Yucca Mountain as a suitable site to hold radioactive waste.
                                 ______
                                 

                   [December 1, 1999--Las Vegas Sun]

                  Critics: DOE has changed Yucca rules
                            By Mary Manning
    The Department of Energy offered new rules on the approval of a 
proposed high-level nuclear waste repository site at Yucca Mountain 
Tuesday--rules that were greeted with howls by national and local 
critics who accused the DOE of changing the guidelines to ensure that 
the repository will be built.
    The DOE wants to change siting guidelines issued in 1996 that 
spelled out certain findings that would stop a Yucca Mountain 
repository, such as ground water moving too fast, an earthquake or 
volcanic activity at the mountain.
    Yucca Mountain, 90 miles northwest of Las Vegas, is the sole site 
under study by the DOE for the world's first high-level nuclear waste 
repository. The mountain has not yet passed scientific muster and will 
not be ready to accept 77,000 tons of highly radioactive waste until 
2010 at the earliest.
    The DOE proposes to use complex computer models with whatever 
scientific information it has in hand to prove a repository will work, 
but no single fact should disqualify Yucca Mountain, the new rules say. 
The proposal was published in the Federal Register on Tuesday.
    The DOE's proposal would eliminate individual problems such as 
rapid ground water flow from stopping the DOE from building the 
repository, Nevada's technical coordinator Steve Frishman said.
    ``What they're trying to do is change the law by regulation,'' 
Frishman said. ``It's a simple attempt to avoid the law.''
    Both Sens. Harry Reid and Richard Bryan, D-Nev., denounced the DOE 
guideline.
    In a letter sent to President Clinton today, Bryan said, ``As it 
has become increasingly clear that the Yucca Mountain site cannot meet 
the existing siting guidelines, the DOE has attempted to . . . evaluate 
the suitability of Yucca Mountain based on a single, and far less 
stringent, total system performance assessment.''
    ``Such a change,'' the letter stated, ``would destroy and remaining 
public confidence in the site characterization process and place the 
health and safety of over 1 million Nevadans in serious jeopardy.''
    ``It's more of the same old game-playing,'' Bryan's chief of staff, 
Jan Neal, said this morning. ``The site doesn't meet the criteria so 
instead of disqualifying the site they change the criteria.''
    Reid said he had ``crave concern'' with the DOE's proposal. He 
noted that atomic weapons fallout from Pacific Island nuclear tests 
reached the repository's level 1,000 feet deep inside Yucca in less 
than 40 years.
    ``That characteristic surely violated the earlier criterion that 
such water migration must take more than 1,000 years,'' Reid said.
    ``Generally, the changes cited in your proposed rulemaking do very 
little to dispel the perception that earlier guidelines are being 
abandoned because they would disqualify Yucca Mountain from any further 
consideration as a permanent disposal site,'' Reid wrote in a letter to 
Energy Secretary Bill Richardson.
    ``This is a transparent effort to change the rules of the game in 
the third quarter,'' Reid said. ``It's a rule change that could 
threaten the health and safety of the people of Nevada.''
    Reid and Sen. Richard Bryan, D-Nev., were successful this year in 
forcing Senate Republicans to abandon efforts to store nuclear waste 
temporarily at the Nevada Test Site, a former proving ground for 
nuclear weapons experiments.
    Public Citizen's Mass Energy Project senior policy analyst Amy 
Schollenberger called the DOE proposal ``another blatant attempt to 
ensure that Yucca Mountain is approved as a geologic repository for 
radioactive waste, even though all of the evidence suggests that it 
will endanger the public, the environment and future generations.''
    Public citizen, a nonprofit consumer advocacy group launched by 
Ralph Nader, has been a leading critic of the DOE's attempt to weaken 
safeguards at the site. Shollenberger said if DOE is successful and the 
Nuclear Regulatory Commission, which must license the site, can 
eliminate a ground water radiation limit, the region's aquifer could be 
destroyed.
                                 ______
                                 

               [June 22, 2000--Las Vegas Review-Journal]

              Yucca hot water report could burn Richardson
                            By Keith Rogers
    While Energy Secretary Bill Richardson was treading political hot 
water Wednesday over his agency's handling of a nuclear secrets 
security lapse, scientists studying what some believe is ancient 
evidence of hot water rising within the proposed Yucca Mountain nuclear 
waste site were still at odds over their observations.
    The team of scientists who met Wednesday at the University of 
Nevada, Las Vegas are in the midst of a two-year, $1.4 million study 
led by associate professor Jean Cline. The study should be completed in 
April, she said.
    The team of experts from federal agencies, universities and the 
state--including Yuri Dublyansky, Nevada's consulting geologist from 
the Siberian Branch of the Russian Academy of Sciences--probably won't 
have their conclusions ready for an agency report this year. Richardson 
will use the report when considering whether to recommend Yucca 
Mountain as the place to entomb the nation's high-level radioactive 
wastes.
    Some 77,000 tons of waste--mostly spent fuel pellets encased in 
metal rods from nuclear power reactors--will be destined for a 
repository in the mountain, 100 miles northwest of Las Vegas, by 2010 
if the site is deemed suitable and a repository can be licensed by the 
Nuclear Regulatory Commission.
    Richardson, who called for the UNLV study in 1998, said then that 
his recommendation for the Yucca Mountain site ``will be based on 
science, pure science, not politics.''
    More recently, on a Feb. 11 trip to the agency's Nevada Operations 
Office in Las Vegas, Richardson said he will remain on course to make 
his recommendation this year even though the findings from Cline's 
group probably won't be part of the report he will consider.
    ``I've got a lot of good science. I'll have sufficient 
information,'' he said in February.
    But Nevada officials say Richardson should wait until questions 
about the rising thermal water theory are answered--if they can be 
answered conclusively. Richardson could face legal action from the 
state if he makes a recommendation without knowing the answers.
    At issue are tiny bubbles in mineral deposits from deep within the 
mountain. Scientists want to know whether those bubbles hold fluids 
that show hot water rose in the recent geologic past--1.6 million to 2 
million years ago--and flooded what would be the repository floor.
    If that's the case, state scientists fear it could happen again, 
after waste packages have been put in the mountain, risking a potential 
release of deadly nuclear remnants into the environment.
    Joseph Whelan, a geochemist from the U.S. Geological Survey's 
Denver office, said his associates believe the calcite mineral features 
stem from rain or snowmelt that percolated downward from the rocks 
above the proposed repository site.
    ``If this calcite formed from upwelling water flooding these rocks, 
as has been proposed, then that water would have entirely filled all of 
those fractures and cavities and it would have deposited calcite in 
them all. This is not what we observe,'' he said during a briefing at 
UNLV.
    Dublyansky, who has been gathering samples from the mountain 
independent of the team, said he disagrees with Whelan's statements.
    Cline, however, said the group's results concerning the 
temperatures of the fluids trapped in the minerals ``are very 
consistent with Yuri's. They're also very consistent with Joe Whelan's. 
All three parallel studies are consistent,'' she said.
    The temperatures that were measured average about 122 degrees, but 
a few of the 40 samples that have been analyzed contained fluid that 
was about 176 degrees, or 36 degrees less than the boiling point of 
water.
    Dublyansky believes this bolsters his theory that hot water came 
from below the repository site and not above, as the federal scientists 
contend. But a key element in proving the theory is to determine when 
the minerals were deposited in relation to the mountain's formation 13 
million years ago.
    Cline said the scientists will attempt to age-date the minerals 
through uranium-decay methods using equipment at Canada's Royal Ontario 
Museum Laboratory.
    ``We cannot say whether fluids went up or down, and we probably 
won't be able to say that with any surety at the end of the study,'' 
she said.

    Mr. Barton. Thank you. The Chair is going to recognize 
himself for 5 minutes. We are going to try to get through the 
question period fairly quickly so we can get to our other 
panels. But I think we should ask a few questions. All of the 
problems that you just highlighted in your testimony, those are 
well known to the scientific community and to the technical 
experts. Haven't they all, in various reports, passed the 
scrutiny? I mean, I didn't hear anything new. I understand 
where you are coming from. Look, I am not at all surprised to 
hear what you just said, but haven't all of those been analyzed 
and passed muster in terms of it being safe to put the material 
in Yucca Mountain?
    Ms. Berkley. With all due respect, Chairman Barton, as late 
as yesterday, it was reported in the Las Vegas newspapers that 
the scientists that are continuing these studies have just come 
up with the finding of hot water having flowed under Yucca 
Mountain, not that many years ago in geological years, and have 
a tremendous concern that that water may rise again. So this is 
yet another scientific finding that is as new as 24 hours. So I 
think until the scientific studies are completed, that we 
should not be shipping or even thinking about Yucca Mountain as 
a potential site. But I do think that hole in the ground in 
your district might be a suitable location if they studied that 
as well.
    Mr. Barton. I wouldn't have a problem with that, to be 
honest about it, if it underwent the scrutiny that Yucca 
Mountain has.
    Ms. Berkley. Perhaps we could work on a dual-track 
scientific study.
    Mr. Barton. Well, I could take 10 casinos and a billion 
dollars a year and give you, you know, some old rubber tires or 
something that might be a fair trade.
    Ms. Berkley. My concern, of course, representing Las Vegas, 
which is the major population center in the State of Nevada, 
located only 90 miles away from Yucca Mountain, that if, God 
forbid, there was an accident, there is no amount of money that 
Congress could have given the State of Nevada to compensate for 
the loss of health, loss of health in the environment and the 
loss of our economy and continued growth and prosperity.
    Mr. Barton. I understand your concern. I am not at all 
being frivolous about that. But there has been more scientific 
review of this particular site, and it is under more scrutiny 
by the environmental groups so that, you know, at some point in 
time, at least I think that you do have to make a decision. And 
it certainly appears to me, based on the evidence that the 
decision to build it there, if, in fact, that is what it is, is 
a safe decision. I am not going to say it is a non 
controversial decision.
    The gentleman from Virginia, Mr. Boucher.
    Mr. Boucher. I don't have any questions.
    Mr. Barton. Okay. In order of appearance, the gentleman 
from Illinois.
    Mr. Shimkus. I would just make a point that I have young 
children 7, 5, and 8 months. And there was a very popular show 
that I think about a lot these days, called The Magic School 
Bus. And in one show the Magic School Bus goes from, if you 
believe in evolution, goes back through time through the 
millennium, it really stays in one location, but it goes 
through deserts, through swamplands, through ice age, through, 
you know, through the billions of years that--I am a 
creationist, but if you go to the extent there probably was 
water flowing there a few millennia ago. You know that there 
probably will be water flowing there again a few millennia from 
now.
    But I agree with the chairman, one site is better than over 
60 sites for nuclear storage and the desert is better than the 
temperate zone. Underneath a mountain is better than above 
ground, and a location where there has been nuclear activity is 
better than a place where there has never been. I applaud the 
defense of your constituents. I think the science will bear out 
that this is the best hope for us to move this issue forward. 
And I thank you for your defense of your State and your 
citizens. I really, if you want to add----
    Ms. Berkley. To my distinguished colleague, I had the 
wonderful opportunity to meet your family when they visited Las 
Vegas, and they are worth protecting and defending, just as the 
children that live in any district are. But if I thought for 1 
minute making Yucca Mountain the national repository for 
nuclear waste would solve the nuclear waste problem in this 
country, I would probably be for it. All you are going to be 
doing is create yet another waste site, and once the 100,000 
tons of nuclear waste that is deposited across this country 
gets trucked or taken by rail to Yucca Mountain, it will not 
solve the problem, because nuclear waste will continue to be 
produced as long as we have this type of technology.
    And I would recommend to this Congress that rather than 
spending the billions and billions and billions of dollars that 
it is going to take to ready Yucca Mountain in order to accept 
this nuclear garbage, that we start working on a scientific way 
of solving this problem so that the nuclear waste we produce is 
less toxic, less radioactive, and we have less of a problem in 
this country. Yucca Mountain is not going to make this problem 
go away. It is going to exacerbate it because it is going to 
give me the problem.
    Mr. Shimkus. Just reclaiming my time, we already transport 
high level nuclear waste all over this country, and we have 
done it safely for many, many years. And I think we will 
continue to do so. Having nuclear waste in some of the major 
metropolitan areas of our country, Chicago, Illinois, being an 
example, is more catastrophic than, again, underneath a 
mountain in the desert.
    Now, if we could ship this to Vieques Island and we could 
use Yucca Mountain as a naval training assault area, I may 
support that. But you understand that we have our concerns of 
our constituents as much as you do. And I think Congress has 
spoken and the science will prove it out and we will eventually 
move that. I yield back my time to the chairman.
    Mr. Barton. Thank the gentleman from Illinois. The 
gentleman from North Carolina, Mr. Burr.
    Mr. Burr. Mr. Chairman, I haven't got a question of the 
gentlewoman, I would only make this statement. That this issue 
and probably more than anything else that we have dealt with at 
least in the 6 years that I have been here, displays the great 
difference that exists in the definition of good science. Your 
argument, Mr. Gibbons' argument is very compelling and the test 
that is the State of Nevada does in response to the test that 
the Department of Energy has done and nuclear regulatory--and 
others, we see it again with the EPA's current study and the 
questions that have been raised about that. If we get nothing 
else out of this, then the right definition that everybody can 
use for good science so that we can have an environmental 
policy that produces an outcome versus a continuation of 
complaints about the process, then I believe today we will have 
accomplished a tremendous amount. In the meantime, I think what 
Mr. Shimkus was trying to say is that every State in this 
country, somewhere in that State we have nuclear waste stored. 
Sometimes we make a decision based on what's good for the 
entire country and consolidation of that storage. In this 
particular case seems to be the will of Congress, and my hope 
is though I believe that you will vigorously fight it, and you 
should, that we can have some finality to this and soon.
    Ms. Berkley. Mr. Burr, if I could correct one thing you 
said. There is one State that doesn't have nuclear waste and 
that is the State of Nevada.
    Mr. Burr. The gentlewoman's point is made. I am sure that 
we could find some radioactive areas out there, though. Thank 
you.
    Ms. Berkley. I think what my colleague who spoke before me 
said, the people of the State of Nevada don't want this. They 
have spoken loud and clearly to their representatives in 
Congress and we have an obligation to those families to protect 
them to the best of our ability. And because other Members of 
Congress have a problem regarding nuclear waste in their 
district near their population centers doesn't make it any 
better or easier for us to accept it to alleviate your problem 
in order to exacerbate my own.
    Mr. Barton. Would the gentleman yield? I just want to ask 
when we had an active military testing program for our nuclear 
weapons, wasn't that done in Nevada?
    Ms. Berkley. Of course that was long before I was born.
    Mr. Barton. I understand that. Actually, some tests were 
done as late as the 1980's underground.
    Ms. Berkley. That is correct. No, if I could answer and I 
don't mean this to sound sharp or----
    Mr. Barton. You can be sharp. You have got the right to be 
sharp. I have to be polite, but witnesses can be sharp.
    Ms. Berkley. Well, I would hope to match your politeness, 
and this is said with all due deference and respect, but I grew 
up in Las Vegas, a lot of my friends had pains, particularly 
dads in those days that worked at the Nevada test site. When 
they were told by this Federal Government that it was perfectly 
safe not only to be at the Nevada test site but to participate 
in the both above-ground and underground tests, and all they 
had to do was go home and take a shower and they would be fine. 
Well, I just attended a hearing a couple of months ago in my 
district, where all the Nevada test site workers that are dying 
of cancers and some of the most hideous, heinous cancers that 
you and I have ever seen and hope to God none of us ever 
experience. And this is the same government that is now telling 
the State of Nevada that it is perfectly safe to store 100,000 
tons of nuclear waste under Yucca Mountain. They misled the 
Nevada public and the American public back in the 1950's and 
the 1960's, 1970's and 1980's; I believe the Federal Government 
is misleading us now.
    Mr. Barton. Well, I can't comment on the 1960's and 1970's 
and 1980's, but I can assure the gentlelady from Nevada that 
nobody is misleading anybody in any State of the Union right 
now. That is why we have the technical review board. That is 
why we are doing the environmental impact statement. That is 
why this subcommittee has done a half a dozen hearings on this. 
That is why I met with the county commissioners from your 
district. That is why I met with State representatives and the 
State senators, why I have been out there twice. I think it 
ought to be located at Yucca Mountain. But I don't think we 
ought to mislead anybody. And I don't think that the Clinton 
administration or the Bush administration or the Reagan 
administration or any of the administrations that have been in 
office since the Nuclear Waste Policy Act was passed in 1982 
have done anything but try to be above board, so that there is 
informed consent, at least informed discussion and debate.
    Obviously, there is going to be a difference of opinion in 
democracy about some of these issues, that is why this hearing 
is being held today. This subcommittee is not in the business 
of misleading anybody in the United States of America, any 
constituent of any Congressional district about what the true 
facts are.
    Ms. Berkley. I appreciate that. And I have seen you, I know 
that you have come to Las Vegas because we once shared a plane 
ride together, and I knew that you were going to Las Vegas on 
behalf of Yucca Mountain. I don't think it is an intentional 
misleading, but I don't think anybody, scientists or government 
officials, could guarantee to the people of the State of Nevada 
that this nuclear waste will never have a problem, there will 
be no groundwater problems, there will be no volcanic activity, 
there will be no earthquake activity that would disturb the 
nuclear waste and create a problem.
    And if I thought that anyone could give me that guarantee, 
I would feel a whole lot better about this. But I am not 
talking about the short run, 5, 10, 15, 20 years from now, in 
my lifetime, talking about what may happen 100 years from now, 
and that is a blink of an eye. I don't think I could rest well 
in any grave knowing that I have created this problem for my 
constituents and my children and my children's children if we 
didn't vigorously defend against putting nuclear waste at Yucca 
Mountain. And I know that you understand my position.
    Mr. Barton. I understand that. The gentleman from Oklahoma.
    Mr. Largent. Ms. Berkley, I'd just like to ask you, can you 
give us some examples of guarantees that you could make for 100 
years from today?
    Ms. Berkley. That is exactly my point, Mr. Largent. Exactly 
my point.
    Mr. Largent. So we should do nothing ever, because you 
can't guarantee anything.
    Ms. Berkley. No, of course not. What I think we should be 
doing----
    Mr. Largent. That is my point. My point is you can't 
guarantee anything 100 years from now. But that doesn't mean 
that we should do nothing today because we can't guarantee 
something 100 or 1,000 years from now. I'd like to ask you this 
question, and that is this, simply, a not-in-my-back-yard, or 
do you just totally oppose all nuclear activity?
    Ms. Berkley. Oh, no, not at all.
    Mr. Largent. We should have nuclear activity in terms of 
generation of electricity?
    Ms. Berkley. What I think the solution is----
    Mr. Largent. Let me ask this question first. Do you support 
nuclear energy production of electricity?
    Ms. Berkley. If, in fact, we could find a way of disposing 
with the by-product of nuclear energy, I would not be opposed 
to its creation. Prior to Congress, in a past life I was in-
house counsel for Southwest Gas Corporation. I have an energy 
law background. So this is an area that I know a little bit 
about. Now, I am not opposed to nuclear. What I am opposed to 
is this country hasn't come up with a policy of dealing with 
the nuclear waste other than dumping it in the ground. What I 
would--I mean, this is a great country. This is an 
extraordinary country. And we are at the beginning of a new 
millennium and the dawning of the 21st century. Certainly there 
will be scientific breakthroughs in the next several years that 
will afford us an opportunity of handling this very dangerous 
by-product of nuclear energy in a more efficient safer way. I 
don't believe dumping it in the Nevada Desert is going to be 
the ultimate solution. Let us take the billions of dollars, 
extend the areas that the nuclear waste is being stored at at 
the nuclear repositories now, do dry-cask storing, which is 
adequate for the next century, and during that time, let us use 
these billions and billions of dollars and come up with a 
scientific way of rendering this stuff less toxic, less 
harmful, less dangerous. I would be all in favor of that, 
because we still don't have a good nuclear energy policy in 
this country.
    Mr. Largent. First of all, if you do know anything about 
this issue, and I assume you do, then you know that we don't 
have the capacity to go another century with storing it in 
onsite facilities. I mean, that just simply cannot happen. What 
I would say to you is that do you believe that there is a 
scientific solution that is out there that would guarantee us 
100 years from now that there won't be a problem with it? Is 
there a scientific solution that would meet the demands and the 
hurdles that you are placing on Yucca Mountain?
    Ms. Berkley. I am a great optimist, and I believe in this 
country. If we could put a man on the moon with a concerted 
effort of a 10-year plan, then if we put our minds together and 
put the scientific minds working on this and make this a 
national priority, we could come up with a solution of 
rendering the toxic weight less dangerous, less toxic and more 
safe so that we wouldn't have to keep relying on burying it 
under the ground.
    What happens when Yucca Mountain is full and we keep 
producing this nuclear waste? What is the next State that is 
going to be assaulted with this? And how many more years are 
you, Congress, going to be considering the next national 
repository? Yucca Mountain is another temporary solution. We 
still will not have gotten to the major problem. And what 
happens when it is filled up? Where do we go from there? Is it 
Texas next? Is it Oregon, Washington? I mean, which one of us 
wants to accept this stuff? None of us.
    So let's roll up our sleeves, work together in a bipartisan 
way, and figure out what we are going to do to render this 
stuff less toxic and dangerous for all of us, for my sake as 
well as yours. I don't want to leave it in anybody's district. 
And I don't want to take it in mine.
    Mr. Largent. You can filibuster in the Senate. My question 
was do you believe that there is a technological solution out 
there?
    Ms. Berkley. Yes, I do.
    Mr. Largent. That will guarantee us that 100 years after 
implementing this solution, that they can guarantee you that 
there won't be any problems whatsoever?
    Ms. Berkley. The scientific solution may not be discovered 
at this moment, but I believe it can be.
    Mr. Largent. It is just a yes-or-no question.
    Ms. Berkley. I think it is more complicated than a yes or 
no. If you ask me does a scientist have a solution today as of 
June 23, that I cannot answer. Do I think that if we spend--
take the billions of dollars that we are using now to ready 
Yucca Mountain and invest it in scientific studies, I do 
believe that we can come up with an answer. I do believe in our 
scientists and I do believe in America.
    Mr. Largent. Mr. Chairman, I yield back. I will just say 
that I think that some of our best and brightest have come up 
with a solution. It is Yucca Mountain. I hope we can do better 
in the future as well. But at this point in time, I think we 
have invested a lot of time. This committee has spent a lot of 
time, and I yield back.
    Mr. Barton. Well, before we let the gentlewoman go, we want 
her to know that the subcommittee goes on record as we support 
America also. Let's end this on a positive note that we can 
agree on that.
    Ms. Berkley. Well, I have to thank all of you. This is the 
first time in the entire 18 months that I have served in 
Congress that I have ever had the pleasure of being grilled by 
an entire subcommittee.
    Mr. Barton. Grilled? You haven't seen grilled. Wait until 
next week when Secretary Richardson is here. You will see 
grilled.
    Ms. Berkley. I look forward to the opportunity of watching 
somebody else in this seat. Thank you very much.
    Mr. Barton. Come back next week. Thank you.
    Let's hear from our second panel now, if they will come 
forward. We have Dr. Ivan Itkin, who is the director of the 
Office of Civilian Radioactive Waste Management at the 
Department of Energy, and I have had the privilege of meeting 
Dr. Itkin in my office. He is a distinguished gentleman who 
volunteered for that job, which shows how much he loves his 
country that he took that position.
    We have Mr. Carl Paperiello, who is the deputy executive 
director for Materials Research and State Programs for the 
Nuclear Regulatory Commission. We have Mr. Steve Page, director 
of the Office of Radiation for the Environmental Protection 
Agency. We have Dr. Debra Knopman, who is a board member of the 
Nuclear Waste Technical Review Board.
    Last but not least, we have Dr. Kevin Crowley, who is the 
staff director of the Board of Radioactive Waste Management for 
the National Research Council. Welcome, lady and gentlemen. 
Your testimony is in the record in its entirety. We will start 
with Mr. Paperiello and ask you to summarize in 7 minutes, and 
we will go right on down the line. Welcome to the subcommittee.

   STATEMENTS OF CARL PAPERIELLO, DEPUTY EXECUTIVE DIRECTOR, 
   MATERIALS RESEARCH AND STATE PROGRAMS, NUCLEAR REGULATORY 
    COMMISSION; IVAN ITKIN, DIRECTOR OF OFFICE OF CIVILIAN 
RADIOACTIVE WASTE MANAGEMENT, U.S. DEPARTMENT OF ENERGY; DEBRA 
S. KNOPMAN, BOARD MEMBER, U.S. NUCLEAR WASTE TECHNICAL REVIEW; 
     STEPHEN D. PAGE, DIRECTOR, OFFICE OF RADIATION, U.S. 
 ENVIRONMENTAL PROTECTION AGENCY; AND KEVIN D. CROWLEY, STAFF 
        DIRECTOR, BOARD ON RADIOACTIVE WASTE MANAGEMENT

    Mr. Paperiello. Mr. Chairman, members of the committee, the 
staff of the NRC is pleased to testify about our regulatory 
oversight of the management and disposal of high level 
radioactive waste and spent nuclear fuel. Among the subjects I 
will discuss today is the status of our review of DOE's program 
to characterize the Yucca Mountain site as a potential 
geological repository and our progress in establishing site-
specific licensing requirements for the proposed repository.
    The Commission continues to believe that a permanent 
geologic depository is the appropriate mechanism for the United 
States to ultimately manage spent fuel and other highly 
radioactive wastes.
    The program remains on course consistent with our 
responsibilities under the Nuclear Waste Policy Act of 1982 and 
the Energy Policy Act of 1992. We are in the middle of an 
important transition. The staff is moving from the prelicense 
consultative role defined for the NRC in the statute to its 
role as regulator and licensing authority as we prepare for 
possible submittal of a DOE license application. And I will 
note a number of the important milestones and activities that 
comprise our program during this transition.
    On February 22nd of last year, the commission published a 
proposed regulation 10 CFR part 63 for public comment. This is 
a site-specific--we have a high-level waste rule. This is a 
site-specific rule for Yucca Mountain based on our experiences 
to that date on studying the mountain.
    As soon as we proposed our regulations, we embarked on a 
series of public meetings to encourage involvement by members 
of the public most affected by the decisions we face in 
establishing our final rule for Yucca Mountain. From these 
meetings, together with written submittals, we received more 
than 900 comments for proposed criteria. The NRC staff has 
carefully considered and analyzed these comments and has 
incorporated many of them in a draft final rule that the 
commissioners now have before them.
    Later last year, after the comment period for the NRC's 
proposed regulations closed, the EPA proposed standards in 40 
CFR 197 for Yucca Mountain. The NRC has provided extensive 
comments on the EPA proposal. The NRC has identified serious 
concerns with the proposed standards that if unchanged in the 
final standards, will increase significantly the complexity of 
the NRC's licensing process without commensurate increase in 
the protection of public health and safety in the environment.
    That being said, however, we have made clear in our 
proposed rules that once final EPA standards for Yucca Mountain 
are in place, the NRC will amend its regulations as needed to 
confirm to the final standards as required by law.
    In July of last year, the DOE published for public comment 
its draft environmental impact statement for proposed Yucca 
Mountain repository, and the NRC provided detailed comments on 
the DEIS in February of this year. On May 4 of this year, DOE 
forwarded its revised siting guidelines at 10 CFR 963 to NRC 
for concurrence. We expect that the Commission will reach 
concurrence finding on DOE's draft guidelines later this year. 
We suspect that DOE will prepare to issue a site recommendation 
in July of 2001.
    Before then, the NRC expected to review a proposed DOE 
recommendation and provide comments as required by statute on 
sufficiency of DOE site characterization and waste form 
proposal.
    If DOE makes a recommendation on the Yucca Mountain site, 
and if the President and the Congress affirm that 
recommendation, the DOE will then apply to the NRC for a 
license to construct a repository. The NRC has 3 years to 
determine whether to approve or deny the application, except 
that the Commission may extend the deadline by not more than 1 
year. Through early NRC staff identification and clarification 
of key technical safety issues, we are optimistic that we will 
be prepared to complete this demanding and first-of-a-kind 
review in the time allotted. Consistent with this objective, we 
have completed rulemaking to establish a licensing support 
network using Web-based technology to promote access to 
documents and thereby hasten review of the license application.
    I would like now to turn to the subject of DOE's quality 
assurance activities involving Yucca Mountain. DOE has 
experienced problems in the past in carrying out its QA 
program. In general, DOE has done an acceptable job in 
uncovering its own quality assurance problems, but has been 
less successful in taking prompt corrective action and 
preventing recurring problems. I am pleased to be able to say 
that recent DOE actions have improved the picture considerably 
in this area. However, the task is not complete and reflecting 
the need for continued vigilance, we have strengthened our 
oversight of DOE's quality assurance activities.
    In conclusion, it is important to stress that DOE bears the 
responsibility for demonstrating that licensing and 
certification requirements are met to protect public health and 
safety and the environment. The Commission independently must 
assess and find that such a demonstration has been made before 
we can issue a license for any geological repository. Among 
other things, completion of NRC's review of a potential license 
application depends on the timely establishment of 
scientifically sound standards and regulations, the receipt of 
a high quality license application from DOE, and sufficient 
resources for the agency to maintain its independent technical 
review capability.
    I want to thank you for the opportunity to review the 
status of the NRC's high level waste regulatory program and 
will gladly answer any questions that you have.
    [The prepared statement of Carl J. Paperiello follows:]
Prepared Statement of Carl J. Paperiello, Deputy Executive Director for 
   Materials, Research, and State Programs, U.S. Nuclear Regulatory 
                               Commission
Overview
    Mr. Chairman, members of the Subcommittee, the staff of the Nuclear 
Regulatory Commission (NRC) is pleased to testify about our regulatory 
oversight of the management and disposal of high-level radioactive 
waste and spent nuclear fuel. Among the subjects I will discuss today 
are the status of our review of the Department of Energy's (DOE's) 
program to characterize the Yucca Mountain Site as a potential 
geological repository and our progress in establishing site-specific 
licensing requirements for the proposed repository.
    The Commission continues to believe that a permanent geologic 
repository is the appropriate mechanism for the United States to 
ultimately manage spent fuel and other high-level radioactive waste. We 
believe the public health and safety, the environment, and the common 
defense and security will be protected best by the development of a 
comprehensive system for the management and disposal of high-level 
radioactive waste, that includes storage, transportation and deep 
underground disposal. In our view, a deep geologic repository is a 
sound and technically feasible solution to the problem of final 
disposition of spent nuclear fuel and other high-level radioactive 
wastes.
Status of NRC's HLW Regulatory Program
    The NRC's High-level Waste (HLW) regulatory program remains on 
course, consistent with our responsibilities under the Nuclear Waste 
Policy Act of 1982, as amended, and the Energy Policy Act of 1992. This 
legislation specifies an integrated approach and a long-range plan for 
storage, transport, and disposal of spent nuclear fuel and HLW. It 
prescribes the respective roles and responsibilities of the NRC, the 
DOE and the U.S. Environmental Protection Agency (EPA) in the nation's 
HLW program. The Congress assigned NRC extensive prelicensing 
responsibilities and the regulatory authority to issue a license, if 
appropriate, only after deciding whether a DOE license application for 
a geologic repository at Yucca Mountain, Nevada, complies with 
applicable standards and regulations.
    The NRC staff is in the midst of an important transition--from the 
prelicensing, consultative role defined for NRC in statute, which has 
been our emphasis to date, to the role as regulator and licensing 
authority, as we prepare for a possible submittal of a DOE license 
application. In my testimony today, I will highlight a number of the 
important milestones and activities that comprise our program during 
this important transition. Among these are: (1) establishment of a 
regulatory framework; (2) comment on the DOE's draft Environmental 
Impact Statement (EIS) for a proposed repository at Yucca Mountain; (3) 
review and, if appropriate, concur in the revised DOE siting 
guidelines; (4) comment on a DOE site recommendation, should the DOE 
elect to pursue development of a repository at Yucca Mountain; and (5) 
if a license application is received, preparation for making a 
licensing determination in the time allotted by statute. In addition, I 
would like to say a few words about NRC's oversight of the DOE's 
quality assurance activities and provide a brief update of our 
transportation safety activities.
Establishment of a Regulatory Framework
    We take seriously our obligations to provide a regulatory framework 
for the possible licensing of a geologic repository at Yucca Mountain; 
and to consult with the DOE and other stakeholders, including the 
Nevada public, in advance of any license application should one be 
received. We plan to have risk-informed regulations specific for Yucca 
Mountain in place by the end of this year. Under the Energy Policy Act 
of 1992, the Commission must modify, if needed, its regulations to be 
consistent with final EPA standards within a year of their issuance. 
Because in 1998 we expected only a very short period in which to issue 
final implementing regulations after final EPA standards are issued, 
the Commission initiated its own rulemaking in parallel with that of 
the EPA in formulating its standards. The NRC was concerned about its 
responsibility to make public, as soon as possible, how we plan to 
implement the health-based standards called for by the Congress. In our 
view, prompt, public access to our regulatory intentions was necessary, 
not only to enable the DOE to begin preparing a possible license 
application but, just as importantly, to allow for timely and 
meaningful public involvement in the development of our implementing 
regulations. After EPA issues final standards, we will act promptly to 
prepare needed conforming revisions, if any.
    On February 22 of last year, the Commission published proposed 
regulations at 10 CFR Part 63 for public comment. As soon as we 
proposed our regulations, the NRC staff embarked on a series of public 
meetings to encourage involvement by members of the public most 
affected by the decisions we face in publishing final regulations for 
Yucca Mountain. From these meetings, together with written submittals, 
we received more than 900 comments on our proposed criteria. The NRC 
staff has carefully considered, and analyzed these comments, and has 
incorporated many of them in a draft final rule that the Commissioners 
now have before them.
    Later last year, after the comment period for NRC's proposed 
regulations closed, the EPA proposed standards at 40 CFR 197 for Yucca 
Mountain. The NRC has provided extensive comments on the EPA proposal. 
The NRC has identified serious concerns with the proposed standards 
that, if unchanged in the final standards, will increase significantly 
the complexity of the NRC's licensing process without commensurate 
increase in the protection of public health and safety and the 
environment. That being said, however, we made clear in our proposed 
rule, that after final EPA standards for Yucca Mountain are in place, 
the NRC will amend its regulations, as needed, to conform to the final 
standards, as required by law.
NRC Reviews of DOE's Draft EIS, Siting Guidelines and Site 
        Recommendation
    In July of last year, the DOE published, for public comment, its 
draft Environmental Impact Statement (DEIS) for a proposed Yucca 
Mountain repository. The NRC provided detailed comments on the DEIS in 
February 2000. The NRC comments identified several broad issues and a 
number of specific topical areas that the DOE should address to make 
the final EIS complete. The DOE is now completing its final EIS which 
must, eventually, accompany DOE's license application to construct a 
HLW repository. The NRC is required, by law, to adopt, to the extent 
practicable, the final DOE EIS. On May 4, 2000, the DOE forwarded its 
revised siting guidelines at 10 CFR Part 963 for NRC review and 
concurrence. The DOE proposes to use the revised guidelines to review 
and evaluate Yucca Mountain for recommendation as a potential 
repository site. We expect that the Commission will reach a concurrence 
finding on DOE's draft final guidelines later this year.
    If the DOE elects to pursue development of Yucca Mountain as a 
repository, we expect the DOE will prepare to issue a site 
recommendation in July of 2001. Before then, the NRC expects to review 
a proposed DOE recommendation and provide comments, as required by 
statute, on the sufficiency of DOE's site characterization and waste 
form proposal. The NRC expects that it will take six months to complete 
the necessary review of any site recommendation, and provide comments.
Preparation for Making a Licensing Decision
    As part of our overall prelicensing strategy, we continue to focus 
our review on the nine key technical issues that are most important to 
repository safety and, therefore, to licensing. Since we redirected and 
streamlined our program several years ago, the NRC staff has completed 
a number of significant reports on the status of resolution, at the 
staff level, of each of the nine key issues. Now, we are applying the 
experience gained in preparing these reports to the development of a 
Yucca Mountain review plan that will eventually guide our review of a 
license application. As this development progresses, we also continue 
to conduct public technical exchanges between members of the NRC and 
DOE technical staffs and with NRC's Advisory Committee on Nuclear 
Waste.
    If DOE makes a recommendation on the Yucca Mountain site, and if 
the President and Congress affirm that recommendation, the DOE will 
then apply to the NRC for a license to construct a repository. The NRC 
has three years to determine whether to approve or deny the 
application, except that the Commission may extend the deadline by not 
more than one year. Through early NRC staff identification and 
clarification of key safety issues, we are optimistic that we will be 
prepared to complete this demanding and first-of-a-kind review in the 
time allotted. Consistent with this objective, we have completed a 
rulemaking to establish a Licensing Support Network, using web-based 
technology to promote access to supporting documents and, thereby, 
hasten review of the license application. A further rulemaking with 
regard to the Licensing Support Network is now in preparation.
Quality Assurance
    I would now like to turn to the subject of the DOE quality 
assurance activities involving Yucca Mountain. DOE has experienced 
problems in carrying out its quality assurance program. In general, the 
DOE has done an acceptable job in uncovering its own quality assurance 
problems. However, it has been less successful in taking prompt 
corrective actions and preventing recurring problems. I am pleased to 
be able to say that recent DOE actions have improved the picture 
considerably in this area. However, the task is not complete and, 
reflecting the need for continued vigilance, we have strengthened our 
oversight of DOE's quality assurance activities.
Safety of Packages for Spent Fuel and HLW Transport
    In addition to our oversight responsibilities for any potential 
geologic repository, the NRC is charged with certifying the safety of 
the packages used to transport spent nuclear fuel and high level waste. 
NRC continues to support the requirement that waste shippers use NRC-
certified packages for transport of spent fuel and high-level waste. In 
the past year, NRC has reviewed and approved three dual-purpose cask 
systems for storage and transport. We are also reviewing four more 
dual-purpose cask system designs.
    The shipment of spent nuclear fuel in NRC-approved transportation 
containers continues to have an unparalleled record of success from a 
safety perspective. To date, there has not been a release of 
radioactive material from an accident involving an NRC-approved spent 
fuel transportation container. In March 2000, NRC completed a safety 
study on spent fuel shipment risks. This study found the risks 
associated with transport of spent nuclear fuel by truck or train are 
even lower than earlier risk estimates. NRC held a series of meetings 
in 1999 to interact with interested stakeholders in a public forum to 
discuss the issues related to spent fuel transport. The NRC has more 
meetings planned for later this year.
Conclusion
    It is important to stress that the DOE bears the responsibility for 
demonstrating that licensing and certification requirements are met to 
protect public health and safety and the environment. The Commission 
independently must assess and find that such a demonstration has been 
made before we can issue a license for any geologic repository. Among 
other things, completion of NRC's review of a potential license 
application depends upon: the timely establishment of scientifically-
sound standards and regulations; the receipt of a high-quality license 
application from the DOE; and sufficient resources for the NRC to 
maintain its independent technical review capability. I want to thank 
you for the opportunity to review the status of NRC's HLW regulatory 
program, and will gladly answer any questions you may have.

    Mr. Barton. Thank you, Doctor. We would now like to hear 
from Dr. Itkin, and your statement is in the record. We 
recognize you for 7 minutes. Welcome to the subcommittee.

                     STATEMENT OF IVAN ITKIN

    Mr. Itkin. Thank you, Mr. Chairman and members of the 
subcommittee. I am Ivan Itkin, Director of the Department of 
Energy's Office of Civilian Radioactive Waste Management.
    I appreciate the opportunity to provide an update on the 
status of our program and to address the issues of concern to 
the committee. Over the past few years, the Department has made 
significant progress toward a recommendation on the permanent 
solution for spent nuclear fuel and high level radioactive 
waste.
    We are on schedule to make a decision in 2001 on whether or 
not to recommend the Yucca Mountain site as a repository. With 
sufficient appropriations, and if the site is suitable for 
recommendation and is designated so by the Congress, we are on 
schedule to begin emplacement of the waste in 2010.
    Let me again emphasize that the overriding goal of the 
Federal Government's high level radioactive waste management 
policy is the establishment of a permanent geologic repository. 
Permanent geologic disposal not only addresses the management 
of spent nuclear fuel from commercial electric power 
generation, but is also essential to advancing our 
nonproliferation goals. The repository will secure highly 
enriched spent nuclear fuel from foreign and domestic research 
reactors and surplus plutonium from dismantled nuclear weapons. 
A repository is necessary to support our nuclear powered Naval 
fleet.
    Finally, a permanent geologic repository is vital for 
cleaning up the legacy of our past nuclear weapons production 
at sites throughout the country.
    In the next year, we expect to complete the near-term 
scientific and engineering work for a Secretarial decision on 
whether or not to recommend the Yucca Mountain site for further 
development. We are on schedule to complete the documentation 
required by law.
    A Presidential decision to go forward with Yucca Mountain 
must be based on science, and we are conducting a world class 
scientific and technical program at Yucca Mountain.
    We have had almost 5 years of direct examination of the 
geology underneath Yucca Mountain, and we completed a 2,000 
meter cross-drift tunnel in December 1999 to develop a more 
complete three-dimensional model of the geologic formation.
    We continue to conduct the world's largest thermal tests to 
assess how long-term exposure to heat from waste packages might 
affect the hydrology and near-field environment within the 
tunnels that may be constructed within Yucca Mountain.
    Since the release of the viability assessment in December 
1998, we have focused on reducing uncertainty in the models we 
use to predict repository performance.
    We have refined our repository design to be flexible and 
robust. And we can adjust the period of ventilation, vary fuel 
staging at the waste packages, and adjust waste package 
spacing.
    Let me now turn to the program's current activities. The 
program's focus for early fiscal year 2001 is to complete the 
site recommendation consideration report. This report will be 
made available to the State of Nevada, the Nuclear Regulatory 
Commission, and the public to inform them of our findings and 
to facilitate public comment on a possible recommendation.
    The program issued the draft environmental impact statement 
for a geologic repository in July 1999. More than 2,700 
individuals attended public hearings on the draft statement and 
more than 700 provided comments. We are presently analyzing the 
comments, preparing responses, and continuing the development 
of the final environmental impact statement.
    Under the Nuclear Waste Policy Act, the final environmental 
impact statement must accompany a recommendation from the 
Secretary to the President to develop this site. The Department 
has requested $437.5 million for fiscal year 2001. This funding 
is necessary to complete the activities needed for an informed 
policy decision.
    The full fiscal year 2001 request is also necessary for 
critical work related to the preparation of a license 
application that was deferred in past years due to funding 
levels below those published in the viability assessment.
    Let me address the program's efforts to recompete the 
current management and operating contract. The program's 
current M&O contract was awarded in 1991 and will expire in 
February of 2001. Consistent with the Department's contracting 
policy, we are recompeting our M&O contract. We received three 
proposals on June 8, 2000, at the close of the bidding period. 
We expect to award a follow-on later this year, and after 
awarding the contract, we expect--no, in fact, we will demand 
an orderly transition, and have allocated funds for contractor 
transition in our fiscal year 2001 budget request.
    Both the Environmental Protection Agency and the Nuclear 
Regulatory Commission have proposed regulations for radiation 
dose limits at Yucca Mountain and to license a repository at 
the site. To align our site suitability criteria to the 
proposed regulations, the Department has proposed 10 CFR 963, 
the Yucca Mountain site suitability guidelines. We are hopeful 
that the Environmental Protection Agency will establish 
reasonable standards that are protective of the public health 
and safety and the environment, and that these standards can be 
implemented by the Nuclear Regulatory Commission in a rigorous 
licensing process.
    It is our understanding that the Environmental Protection 
Agency will finalize the radiation protection standard for 
Yucca Mountain this summer.
    Mr. Chairman, members of the committee, we have made 
significant progress. Since we set out to characterize the 
Yucca Mountain site after enactment of the Nuclear Waste Policy 
Act of 1982, we knew we would face many challenges. I believe 
by the end of next year, we will have met the most difficult of 
those challenges. There will likely continue to be additional 
scientific and institutional issues to be addressed during any 
licensing process, but I believe that the program is well 
positioned to move forward.
    Thank you. I appreciate being allowed to present this 
testimony, and I will be happy to answer any questions that you 
may have.
    [The prepared statement of Ivan Itkin follows:]
    Prepared Statement of Ivan Itkin, Director, Office of Civilian 
        Radioactive Waste Management, U.S. Department of Energy
                              introduction
    Mr. Chairman and members of the Subcommittee, I am Ivan Itkin, 
Director of the Department of Energy's Office of Civilian Radioactive 
Waste Management. I appreciate the opportunity to provide an update on 
the status of our Program and to address issues of concern to the 
Committee.
    Over the past few years, the Department has made significant 
progress toward a recommendation on a permanent solution for spent 
nuclear fuel and high-level radioactive waste. We are on schedule to 
make a decision in 2001 on whether or not to recommend the Yucca 
Mountain site as a repository. With sufficient appropriations, and if 
the site is suitable for recommendation and is designated by Congress, 
our current schedule is to submit the license application for 
repository construction to the Nuclear Regulatory Commission in 2002, 
to begin construction in 2005 upon receipt of construction 
authorization, and, if the site is licensed, to begin emplacement of 
the waste in the repository in 2010.
                               background
    The overriding goal of the Federal Government's high-level 
radioactive waste management policy is the establishment of a permanent 
geologic repository.
    Permanent geologic disposal addresses the management of spent 
nuclear fuel from commercial electric power generation and from past 
Government defense activities, and it is essential to advancing our 
non-proliferation goals. A permanent disposal solution will also secure 
highly enriched spent nuclear fuel from foreign and domestic research 
reactors. It will also provide for the disposition of surplus plutonium 
from dismantled nuclear weapons. A repository is necessary for the 
disposition of spent nuclear fuel from our nuclear-powered naval 
vessels. Finally, a permanent geologic repository is vital for cleaning 
up the legacy of our past nuclear weapons production at sites 
throughout the country.
                             program status
    The near-term scientific and engineering work that will be the 
foundation for a Secretarial decision on whether or not to recommend 
the Yucca Mountain site to the President is expected to be completed 
next year. A Presidential decision to develop a repository must be 
based on sound science. It must not only be accompanied by the 
documentation required by law, but also inform our policy makers, our 
regulatory oversight agencies, and the public regarding the scientific 
basis for the decision.
    We are conducting a world-class scientific and technical program at 
Yucca Mountain. Through the Exploratory Studies Facility, we have had 
almost five years of direct examination of the geology underneath Yucca 
Mountain. From this study, our scientists and engineers, including 
experts from our nation's universities and our National Laboratories, 
have advanced our understanding of a potential repository system. This 
understanding led us to further focus our investigations, responding in 
part to the Nuclear Waste Technical Review Board and other experts.
    In response to requests from the Nuclear Waste Technical Review 
Board, we completed a 2000-meter cross-drift tunnel in December 1999. 
This year, we will complete niches and alcoves in the cross-drift 
tunnel that will assist us in developing a more complete three-
dimensional model of that geologic formation. For nearly two years, we 
have gathered and integrated into our performance models data from the 
cross-drift tunnel inside the mountain to refine our predictions of 
repository performance.
    Within the Exploratory Studies Facility, we continue to conduct the 
largest thermal test of a geologic formation in the world. This test, 
commonly known as the drift-scale test, assesses how long-term 
exposures to heat from waste packages might affect the hydrology and 
near-field environment within tunnels that may be constructed within 
Yucca Mountain. This work will help determine the effects of heat on 
waste package performance and assist in the further refinement of 
repository design as we move forward toward licensing a repository, if 
the site is deemed suitable.
    Since the release of the Viability Assessment in December 1998, the 
primary objective of the program's scientific and technical work has 
been reducing uncertainty in our predictions of repository performance. 
Our repository design has been refined to better manage thermal loads 
and reduce uncertainty. It is a flexible and robust design that can 
accommodate various operational modes, including adjusting the period 
of ventilation, varying fuel staging and loading into waste packages, 
and adjusting waste package spacing to manage thermal loads.
    This approach will permit future generations to evaluate actual 
repository performance, learn from the operations and monitoring, and 
close the facility when appropriate. A repository that is flexible to 
accommodate technical advances or future changes in priority is one way 
to address concerns regarding the need for additional information due 
to uncertainty.
                           planned activities
    Let me now turn to the Program's current activities, and the major 
events on the horizon. The culmination of the Program's site 
characterization efforts is to prepare the documentation required under 
the Nuclear Waste Policy Act to support a decision on whether or not to 
submit a site recommendation to the President. The Program's focus for 
early Fiscal Year 2001 is to complete the Site Recommendation 
Consideration Report. This report will present background information 
and descriptions of the site characterization program and the site. It 
will also include descriptions of the repository design, the waste 
form, and waste packages; a discussion of data related to the safety of 
the site; and a description of the performance assessment of the 
repository. The Site Recommendation Consideration Report and its 
supporting documents will be made available to the State of Nevada, the 
Nuclear Regulatory Commission, and the public to inform them and to 
facilitate public comment on a possible recommendation.
    The Nuclear Waste Policy Act requires a final environmental impact 
statement to accompany a site recommendation to the President, if the 
Secretary decides to recommend the site for development as a 
repository. The Department issued the Draft Environmental Impact 
Statement for a Geologic Repository for the Disposal of Spent Nuclear 
Fuel and High-Level Radioactive Waste at Yucca Mountain, Nye County, 
Nevada in July 1999. The draft environmental impact statement provides 
information on potential environmental impacts that could result from 
the construction, operation and monitoring, and eventual closure of a 
repository at Yucca Mountain.
    We conducted a public comment period on the draft environmental 
impact statement from the end of July 1999 through February 28, 2000. 
Twenty-one hearings were held, eleven throughout the country and ten in 
the State of Nevada. More than 2700 individuals attended those hearings 
and more than 700 provided comments. We are presently analyzing the 
comments, preparing responses to be documented in the comment response 
section of the final environmental impact statement, and continuing 
development of the final environmental impact statement.
    Our plan for Fiscal Year 2001 and beyond reflects the evolution of 
the project emphasis from scientific investigations to data synthesis, 
model validation, repository and waste package design, safety analysis, 
and documentation. The Program's near-term priorities upon completion 
of site characterization will be to enhance and refine repository 
design features and to develop the remaining information required to 
continue to a license application if a decision to recommend the site 
is made by the Secretary and approved by the President and Congress.
                        fiscal year 2001 budget
    To support our future activities, the Department has requested 
$437.5 million for Fiscal Year 2001. The funding we have requested is 
needed to complete the activities that are necessary for an informed 
policy decision. In addition to compiling the remaining information 
that is necessary for a possible site recommendation, the full Fiscal 
Year 2001 request is also necessary for critical work, related to the 
preparation of a license application, that was deferred in past years 
due to funding levels below those published in the Viability 
Assessment. The Program has been able to maintain its schedule for 
major milestones over the past years despite significant reductions 
from our request level, but only by deferring critical work that still 
must be completed.
    Regaining momentum with the Fiscal Year 2001 request will enable 
the Program to be more responsive to emerging scientific issues, such 
as those raised during our extensive ongoing interactions with the 
Nuclear Waste Technical Review Board and the Nuclear Regulatory 
Commission. Now, when we are so close to significant milestones, we 
should not allow insufficient resources to be a cause for delay.
                         contract recompetition
    The Program's current management and operating contract was awarded 
in 1991 and will expire in February 2001. Consistent with the 
Department's contracting policy regarding management and operating 
contracts, and in conformance with direction provided in the enacted 
Energy and Water Development appropriations, we are recompeting our 
management and operating contract.
    The Department received three proposals on June 8, 2000, which was 
the close of the bidding period. We have begun to evaluate submittals 
by the three teams, which are led by MK Nevada LLC, Bechtel SAIC 
Company LLC, and TRW Parsons Management and Operations LLC. We expect 
to award a follow-on performance-based contract late this summer or 
early in the fall. After awarding the contract, we expect an orderly 
transition. We have allocated funds for contractor transition in our 
Fiscal Year 2001 budget request.
                         regulatory activities
    We have proposed 10 CFR 963, Yucca Mountain Site Suitability 
Guidelines, for use by the Department in evaluating site suitability. 
This proposal is intended to align the suitability criteria in the 
Department's evaluation process with the standards being promulgated by 
the Environmental Protection Agency and the licensing criteria being 
promulgated by the Nuclear Regulatory Commission. Specifically, the 
Environmental Protection Agency and Nuclear Regulatory Commission are 
each revising the regulatory framework for standards involving 
radiation dose limits at Yucca Mountain and for licensing this site, 
respectively.
    We are hopeful that the Environmental Protection Agency will 
establish reasonable standards that are protective of public health and 
safety and the environment, and that these standards can be implemented 
by the Nuclear Regulatory Commission in a rigorous licensing 
environment. It is our understanding that the Environmental Protection 
Agency will finalize the radiation protection standard for Yucca 
Mountain this summer. Soon afterwards, we expect the Nuclear Regulatory 
Commission to modify its licensing criteria to be consistent with the 
standard.
                               conclusion
    As I noted at the beginning of my testimony, we have made 
significant progress. Since the enactment of the Nuclear Waste Policy 
Act in 1982, our nation has made a substantial investment in permanent 
geologic disposal. Approximately four billion dollars and years of 
cutting-edge science and engineering have brought us to this point. 
When we set out to characterize the Yucca Mountain site through an 
ambitious scientific program, we knew we would be faced with 
challenges. I believe by the end of next year we will have met the most 
difficult of those challenges. There will likely continue to be 
additional scientific and institutional issues to be addressed during 
any licensing process. But, I believe the Program is well positioned to 
move forward.
    Thank you. I would be pleased to answer any questions you may have.

    Mr. Barton. Thank you, Doctor.
    We now would like to hear from another doctor--we are 
getting overwhelmed with Ph.D.'s today--Dr. Debra Knopman, who 
is the board member from the Nuclear Waste Technical Review 
Board, which is tasked with overseeing all the scientific 
analysis on these decisions. Your statement is in the record in 
its entirety and we would welcome you to summarize it for 7 
minutes.

                  STATEMENT OF DEBRA S. KNOPMAN

    Ms. Knopman. Thank you, Mr. Chairman, and members of the 
subcommittee. I am a member of the Nuclear Waste Technical 
Review Board. My full-time job is director of the Center for 
Innovation and the Environment of the Progressive Policy 
Institute. As most of you may know, the Board members serve in 
a part-time capacity. I am pleased to act as the Board's 
representative today. Our Chairman, Dr. Jared Cohon, President 
of Carnegie Mellon University, sends his regrets at not being 
here. I will make summary remarks.
    Mr. Chairman, when Congress created the Nuclear Waste 
Technical Review Board in the 1987 amendments to the Nuclear 
Waste Policy Act, it gave the Board a very important and unique 
mandate. That mandate is to conduct an independent review of 
the technical and scientific validity of activities conducted 
by the Secretary of Energy in implementing the Act, including 
characterization of the Yucca Mountain site and packaging and 
transportation of spent nuclear fuel and high level radioactive 
waste.
    I would like to update the subcommittee this morning 
briefly on some of the Board's most recent recommendations on 
the DOE safety strategy for the Yucca Mountain site, methods 
for predicting repository performance, and scientific studies 
of Yucca Mountain. I would like to make four points.
    Point 1: Representation of uncertainties about the Yucca 
Mountain site will be an important component of a site 
recommendation decision document. The Board continues to 
endorse the use of performance assessment, sometimes called 
TSPA, supplemented by other lines of evidence for making a site 
suitability determination. While the numerical models in a 
performance assessment help us to understand and estimate how a 
repository might perform at Yucca Mountain, the models are 
based on many assumptions. For example, underlying the models 
are assumptions about the natural environment, including 
climate, water movement, chemistry, et cetera, and about the 
engineered system, including corrosion and other processes.
    The Board believes that explaining the uncertainties 
inherent in the PA and the underlying assumptions as clearly 
and fully as possible is essential for technical credibility 
and sound decisionmaking. The board is concerned that a 
performance assessment without such an explanation could 
deprive policymakers of critical information on possible 
tradeoffs between projected performance and uncertainty in 
those projections.
    Let me give you an example. One policymaker might be 
willing to accept development of a repository that would 
release half of the allowable dose and have only a 1-in-1,000 
chance of exceeding that limit. However, that same policymaker 
might decline to develop a repository that is expected to 
release only a 10th of the allowable dose but has a 1-in-4 
chance of exceeding the limit.
    Another policymaker's preferences might be the opposite. 
Because the uncertainties about repository system performance 
may be substantial, estimates of uncertainty about doses are at 
least as important as estimates of performance.
    DOE and the Board have had numerous exchanges on this 
point, and we understand that the program is making an effort 
to respond to the Board's concerns.
    The second point I would like to make: A case for 
repository safety must be built on multiple lines of evidence, 
not just a complex computer model. Although we endorse the use 
of performance assessment modeling, the Board believes that the 
modeling should not be used as the sole source of guidance 
about long-term performance of the repository system. The Board 
supports the DOE's use of multiple and independent lines of 
argument and evidence, including defense-in-depth, safety 
margin, natural analogs and performance confirmation testing to 
supplement the use of TSPA, the total system performance 
assessment, in its case regarding Yucca Mountain site 
suitability.
    In other words, this is a matter of not putting all the 
scientific eggs in one basket of computer modeling. The Board 
believes that the program is making an effort to develop these 
additional lines of evidence. It is unclear at this time how 
far along DOE will be in their development at the time of the 
site recommendation consideration report.
    Third point: There are important connections between 
repository design and uncertainties in the safety case. In 
other words, evaluation of the site's suitability is dependent, 
to a considerable degree, on confidence in the technical case 
made for performance of a proposed repository and waste package 
design. That is the reason why one way to address uncertainties 
in the safety case is to reduce them by modifying repository 
design.
    In particular, the Board has suggested that the DOE 
investigate the effects of heat on the waste packages, 
repository tunnels, and hydrologic and hydrogeochemical 
processes at the site. The Board made this suggestion because 
higher temperatures, especially if water is present in 
repository tunnels, appear to carry additional uncertainties in 
estimating repository system performance in comparison to lower 
temperature below-boiling conditions in the rocks surrounding 
the tunnels.
    In the past, DOE has maintained that above-boiling 
repository designs have the potential to vaporize water in the 
rocks surrounding the repository tunnels, thereby keeping the 
waste packages essentially dry for up to 1,000 years.
    The Board is concerned that the performance assessment may 
not, in its current state of development, capture adequately 
how the thermal, hydrologic and other processes in the mountain 
interact. And if this is the case, then the PA model may not be 
able to accurately represent the uncertainty associated with 
this above-boiling design.
    A below-boiling design may have the potential to reduce 
concerns about these coupled processes, but more thorough 
analysis is needed before any judgment is made about the 
optimal thermal conditions for the repository operation. The 
Board is very pleased that DOE has begun preliminary work in 
this area.
    Fourth point: Important scientific studies are still going 
on at Yucca Mountain. The primary focus of the scientific work 
now in progress at Yucca Mountain is to reduce uncertainties 
through the acquisition and analysis of additional relevant 
data. For example, the Board believes on the basis of current 
knowledge that the DOE has chosen the best materials available 
for the waste package. However, our experience with the 
materials extends only over a few decades a short time relative 
to the tens of thousands of years of their intended life in a 
repository.
    The Board is closely following the DOE's efforts to address 
questions about stress corrosion cracking and about dissolution 
of the passive layer around the waste package that would act as 
a barrier--corrosion barrier in the alloy being proposed for 
the package. The east-west cross-drift recommended by the Board 
and completed in October 1998 by DOE continues to yield 
scientific dividends and will help address some of the current 
questions about the rock where the proposed repository would 
actually be located.
    In conclusion, Mr. Chairman, the Board believes that the 
DOE's efforts to develop the site recommendation consideration 
report have been very useful to identify issues that they would 
need to resolve or clarify in a final site recommendation 
report. At this point, the DOE has not encountered any single 
issue in characterizing the Yucca Mountain site that 
automatically eliminates it from consideration as the location 
of a permanent repository for spent nuclear fuel and high level 
radioactive waste. However important technical questions remain 
about Yucca Mountain, especially about the effects of heat on 
the movement of water in the mountain and on the associated 
transport of radionuclides.
    DOE is taking steps to address these uncertainties, but 
some uncertainty will inevitably continue about predictions of 
repository performance. This may be true to some extent at any 
site. At the time the decision is made onsite recommendation, 
the Board believes it is critical that DOE not only offer 
estimates of performance, but also clarify the extent and 
significance of the scientific uncertainties that are a vital 
part of decisionmaking.
    Thank you very much for this opportunity to provide the 
Board's views. I would be happy to respond to questions.
    [The prepared statement of Debra S. Knopman follows:]
   Prepared Statement of Debra Knopman, U.S. Nuclear Waste Technical 
                              Review Board
    Mr. Chairman and members of the Subcommittee. I am Debra Knopman, a 
member of the Nuclear Waste Technical Board. My full-time job is 
Director of the Center for Innovation and the Environment of the 
Progressive Policy Institute. It is my pleasure to act as the Board's 
representative this morning and to express the views of the Board on 
progress in the Yucca Mountain site-characterization program. The 
Board's Chairman, Dr. Jared L. Cohon, sends his regrets at not being 
able to be here today.
    With your permission, Mr. Chairman, I will make some brief summary 
remarks and ask that my full statement be entered into the hearing 
record.
The Board's Mandate
    Mr. Chairman, when Congress created the Nuclear Waste Technical 
Review Board in the 1987 amendments to the Nuclear Waste Policy Act 
(NWPA), it gave the Board a very important--and unique--mandate. That 
mandate is to conduct an independent review of the technical and 
scientific validity of activities conducted by the Secretary of Energy 
in implementing the NWPA, including characterization of the Yucca 
Mountain site and packaging and transportation of spent nuclear fuel 
and high-level radioactive waste. Congress intended the Board to 
communicate its findings and recommendations to the Secretary and to 
Congress in a timely fashion before important decisions are made, not 
after the fact.
    The Board takes its charge very seriously, Mr. Chairman, and we are 
pleased to have this opportunity to update the Subcommittee on the 
Board's view of the Yucca Mountain program before the release of the 
Department of Energy's (DOE) site recommendation consideration report, 
or SRCR, which currently is scheduled for the end of this year. In 
particular, I would like to update the Subcommittee briefly on some of 
the Board's most recent recommendations on the DOE's safety strategy 
for the Yucca Mountain site, methods for predicting repository 
performance, and scientific studies of Yucca Mountain.
The DOE's Site Recommendation Consideration Report
    As I mentioned, Mr. Chairman, the DOE intends to issue a site 
recommendation consideration report on Yucca Mountain at the end of 
this calendar year. The DOE plans to update the SRCR and use it along 
with other information called for in the Nuclear Waste Policy Act as 
the basis of a site recommendation, currently scheduled for mid-2001.
    According to the DOE, the SRCR will include four elements: a 
comprehensive computer model called the ``total system performance 
assessment,'' or TSPA; a qualitative description of the attributes of 
the Yucca Mountain site; a repository design and safety case; and an 
outline of future research needs. Over the last few months, the Board 
has commented to the DOE on some of these issues. I will briefly 
summarize some of our most recent comments.
    Representation of uncertainties about the Yucca Mountain site. The 
Board continues to endorse the use of performance assessment, or PA, 
supplemented by other lines of evidence, for making a site-suitability 
determination. While the numerical models in a PA help us understand 
and estimate how a repository might perform at the Yucca Mountain site, 
the models are based on many assumptions. For example, underlying the 
models are assumptions about the natural environment, including 
climate, water movement, chemistry, seismicity, and volcanism, and 
about the engineered system, including corrosion and other processes. 
The assumptions may be based on field and laboratory data, on the 
results of expert judgment, or on detailed conceptual and numerical 
analyses.
    The Board believes that explaining the uncertainties inherent in 
the PA and the underlying assumptions as clearly and fully as possible 
is essential for technical credibility and sound decision-making. The 
Board is concerned that a PA without such an explanation could deprive 
policy-makers of critical information on possible trade-offs between 
projected performance and the uncertainty in those projections. For 
example, one policy-maker might be willing to accept development of a 
repository that would release half of the permitted dose and have only 
a 1 in 1,000 chance of exceeding the permitted dose. However, that same 
policy-maker might decline to develop a repository that is expected to 
release only a tenth of the permitted dose but that has a 1 in 4 chance 
of exceeding the permitted dose. Another policy-maker's preferences 
might be the opposite. Because the uncertainties about repository 
system performance may be substantial, estimates of uncertainty about 
doses are at least as important as estimates of performance.
    To help decision-makers better understand estimates of repository 
performance in the PA, the Board recommends that the DOE include in a 
site recommendation document a description of critical assumptions, an 
explanation of why particular parameter ranges were chosen, a 
discussion of data limitations, an explanation of the basis and 
justification for using expert judgments, and an assessment of 
confidence in the conceptual models used.
    In addition, the Board recommends that the uncertainties associated 
with the performance estimates be identified and quantified well enough 
so that the performance estimates can be put in the context of what is 
well known, what is less well known, and what is unknown (or 
unknowable) about Yucca Mountain. The DOE and the Board have had 
numerous exchanges on this point, and we understand that the program is 
making an effort to respond to the Board's concerns.
    Building a case for repository safety. Although we endorse the use 
of PA, the Board believes that PA modeling should not be used as the 
sole source of guidance about the features, events, and processes that 
might affect the long-term performance of the repository system. 
Therefore, the Board supports the DOE's use of multiple and independent 
lines of argument and evidence, including defense-in-depth, safety 
margin, natural analogs, and performance confirmation testing, to 
supplement the TSPA in its case regarding Yucca Mountain site 
suitability. These additional elements, combined with a clear 
description of uncertainty as described above, will present a more 
technically defensible demonstration of repository safety than would 
any element by itself. In other words, this is a matter of not putting 
all the scientific eggs in one basket of computer modeling. The Board 
believes that the program is making an effort to develop these 
additional lines of evidence, but it is unclear at this time how far 
along DOE will be in their development at the time of the SRCR.
    Connections between repository design and uncertainties in the 
safety case. One way to address uncertainties is to reduce them by 
modifying repository design. In early1999, the Board recommended to the 
DOE that it analyze alternatives to the repository and waste package 
designs included in the DOE's 1998 viability assessment. In particular, 
the Board suggested that the DOE investigate the effects of heat on the 
waste packages, repository tunnels, and hydrologic and hydrogeochemical 
processes at the site. The Board made this suggestion because higher 
temperatures, especially if water is present in repository tunnels, 
appear to carry additional uncertainties in estimating repository 
system performance in comparison to lower-temperature, below-boiling 
conditions in the rock surrounding the tunnels. In the past, the DOE 
has maintained that above-boiling repository designs have the potential 
to vaporize water in the rock surrounding the repository tunnels, 
thereby keeping the waste packages essentially dry for up to a thousand 
years.
    Understanding the differences in estimated performance and 
associated uncertainties under different temperature conditions is an 
important component of our overall understanding of potential 
repository performance at the Yucca Mountain site. However, the Board 
is concerned that PA may not in its current state of development 
capture adequately how the thermal, hydrologic, mechanical, and 
chemical processes in the mountain interact. If this is the case, then 
the PA model may not accurately represent the uncertainty associated 
with above-boiling designs. A below-boiling design may have the 
potential to reduce concerns about these ``coupled processes.'' 
Nonetheless, more thorough analysis is needed before any judgment is 
made about the optimal thermal conditions for repository operation.
    In any case, Mr. Chairman, the Board believes that an analysis of 
the tradeoffs between estimates of performance and the uncertainties in 
those estimates is essential before a technically-defensible decision 
can be made on repository design. The Board is pleased that the DOE has 
begun preliminary work in this area.
    Important scientific studies continue at Yucca Mountain. An 
important aspect of reducing uncertainties is obtaining relevant data. 
For example, the Board believes, on the basis of current knowledge, 
that the DOE has chosen the best materials available for the waste 
package. However, experience with the materials extends over only a few 
decades--a short time relative to the tens of thousands of years in 
their intended life in a repository. The Board is closely following the 
DOE's efforts to address questions about stress corrosion cracking and 
about dissolution of the passive layer that acts as a corrosion barrier 
in the alloy that has been selected for the exterior of the waste 
package. Answering these questions should help reduce uncertainties and 
increase confidence in predictions of waste package performance that 
are extrapolated from present-day experience.
    The east-west cross drift recommended by the Board and completed in 
October 1998 by the DOE continues to yield dividends in scientific 
information that help to address some of the current questions about 
the properties of the layer of rock where most of the waste would be 
placed and about how liquid water and water vapor will move within that 
layer. In addition, the ongoing drift-scale heater test, now in its 
third year, should provide important information on the general effects 
of heat on the mountain.
Conclusion
    In conclusion, Mr. Chairman, on the basis of what we know at this 
time, the SRCR will provide an important analysis of key issues that 
are likely to be included in a final technical document accompanying a 
site recommendation. Although the Board cannot say whether the SRCR 
itself will be sufficient for determining site suitability, the Board 
believes that the DOE's efforts to develop the SRCR have been very 
useful in helping the DOE identify issues that would have to be 
resolved or clarified in a final site recommendation report.
    At this point, the DOE has not encountered any issue in 
characterizing the Yucca Mountain site that automatically eliminates it 
from consideration as the location of a permanent repository for spent 
nuclear fuel and high-level radioactive waste. However, important 
technical questions remain about Yucca Mountain, especially about the 
effects of heat on the movement of water in the mountain and on the 
associated transport of radionuclides. The DOE is taking steps to 
address these questions, but some uncertainty will inevitably continue 
about predictions of the performance of a potential repository system. 
This may be true to some extent at any site.
    At the time a decision is made on site recommendation, the Board 
and the scientific community are likely to be asked at least two 
questions: (1) Is the underlying science broadly regarded as 
technically credible and sound? and (2) Are the uncertainties in 
estimates of performance displayed clearly and openly, especially about 
the major factors that may lead to a potential radioactive release? A 
major question for policy-makers at that point may be whether the site 
is suitable, given the level of uncertainty associated with the DOE's 
site-suitability determination. The Board believes it is critical that 
the DOE not only offer estimates of performance but also clarify the 
extent and significance of the technical and scientific uncertainties. 
Understanding uncertainties is vital for sound decision-making.
    Thank you very much for this opportunity to provide the Board's 
views. I will be happy to respond to questions.

    Mr. Barton. Thank you, Doctor. We now would like to hear 
from the director of the Office of Radiation at the U.S. 
Environmental Protection Agency, Mr. Steven Page. Your 
statement is in the record in its entirety and we ask you to 
summarize it in 7 minutes.

                  STATEMENT OF STEPHEN D. PAGE

    Mr. Page. Thank you, Mr. Chairman, and members of the 
subcommittee. I will focus my brief remarks on the issues that 
I understand are of particular interest to you and the 
subcommittee this morning. The Energy Policy Act of 1992 
directed EPA to set site specific public health and safety 
standards for Yucca Mountain. That legislation also required 
the National Academy of Sciences to conduct an analysis of the 
scientific basis for the standards to be applied to Yucca 
Mountain.
    Since then, EPA has finalized its generic high level waste 
standards and certified a deep geological repository that 
complies with those standards. During the past 10 years, EPA 
has been working closely with DOE, NRC, OSTP, and the National 
Academy of Science to apply these standards and to develop site 
specific standards for Yucca Mountain that are technically 
sound and achievable, legally defensible, and above all, are 
protective of public health and the environment.
    In August 1999, we published our proposed Yucca Mountain 
standards. We received approximately 800 public comments from 
70 groups or individuals which we will be responding to in 
writing at the time we issue our final standards. We received 
extensive comments from DOE and NRC as well as other government 
entities, the National Academy of Sciences, industry, and 
environmental groups, tribal organizations, scientific 
associations, and members of the general public.
    Now, I would like to turn to the three main elements in our 
proposed disposal standards: Individual protection, human 
intrusion, and groundwater protection.
    We received more comments on these three issues than on any 
other aspect of the proposed rule. The individual protection 
standard focuses on exposures to an individual whose lifestyle 
is similar to people living today in the Yucca Mountain region 
and who obtains drinking water and food from local sources. The 
human intrusion standard focuses on evaluating the ability of 
the repository to withstand a single intrusion event. And 
third, the groundwater standard protects important natural 
resources by focusing on the quality of the aquifer supplying 
water to downgradient communities.
    As directed by the Energy Policy Act, our proposed Yucca 
Mountain standards are based on and generally consistent with 
the recommendations of the National Academy of Sciences. The 
NAS commented that the individual protection standard of 15 
millirem is within the risk range they recommended, and that 
the human intrusion standard very closely follows their 
recommendations.
    However, there were some differences on the proposed 
groundwater protection standard, which I would like to address 
briefly.
    The NAS said that a separate groundwater standard is 
unnecessary and that it lacks a sound scientific basis. 
However, the NAS also recognized that EPA does have the 
authority to consider policy issues in setting a separate 
groundwater protection standard. They recommended that we 
clearly identify the standard as an implementation of policy.
    Historically, this administration as well as previous 
administrations have had a policy of protecting groundwater 
resources that currently are being used, or that potentially 
could be used as a source of drinking water. More than 50 
percent of the U.S. population draws on groundwater for its 
potable water supply. Proper cleanup of contaminated 
groundwater is often difficult, if not impossible, to achieve 
and it is very expensive if it can be done at all.
    It is important to remember that the aquifer under Yucca 
Mountain currently is used as source of drinking water. 
Therefore, we proposed protection of groundwater at Yucca 
Mountain to the same level as the maximum contaminant levels, 
or the MCLs, for radionuclides that we established under the 
authority of the Safe Drinking Water Act. As you may be aware, 
virtually every State has taken steps to comprehensive 
groundwater protection. Forty-one States have numeric or 
narrative groundwater standards to protect their groundwater 
currently. Groundwater protection is also applied to every 
hazardous waste facility in this country.
    The citizens of Nevada, particularly in a region growing as 
rapidly as the Las Vegas metropolitan area should be extended 
the similar type of protection for the disposal of spent 
nuclear fuel and high-level radioactive waste in the Yucca 
Mountain repository.
    An important question that some commenters raise is the 
need for a separate groundwater protection standard in addition 
to at all-pathways individual protection standard. Our proposed 
rule contains two complementary standards: A 15 millirem all-
pathways individual protection standard and a 4 millirem 
groundwater protection standard. While the 15 millirem proposed 
standard directly protects individuals who may receive exposure 
from radionuclides released from the repository, the 4 millirem 
level protects the groundwater resource, as we mentioned 
earlier. This level of protection is derived from the MCLs that 
are used to define acceptable supplies of drinking water. 
Similarly, should groundwater that is or could be used for 
drinking water be a significant pathway, present and future 
users of the groundwater resource are adequately protected. By 
extension, it provides protection to individuals who now live, 
or may live in the future, in the vicinity of Yucca Mountain.
    We understand that DOE still has to undergo the NRC 
licensing process. However, to date, DOE's ongoing studies show 
compliance with the proposed groundwater standard, although EPA 
is still considering options and alternatives for the final 
rule. DOE's costs for the facilities are driven by many 
external influences, including EPA's proposed standard, all of 
which strive to enhance repository safety. Other more notable 
influences include the recommendations of the Nuclear Waste 
Technical Review Board and the rigorous NRC licensing process.
    Further, EPA's current schedule to issue the final standard 
this summer does not adversely impact DOE's ability to make a 
site recommendation as planned. Thank you again for inviting me 
to testify before the subcommittee today, and I am happy to 
answer any questions that you may have.
    [The prepared statement of Stephen D. Page follows:]
 Prepared Statement of Stephen D. Page, Director, Office of Radiation 
          and Indoor Air, U.S. Environmental Protection Agency
                              introduction
    Good morning Chairman Barton and Members of the Subcommittee. It is 
my pleasure to appear before you today to provide you with an update on 
the Environmental Protection Agency's (EPA) environmental protection 
standards for the proposed geologic repository at Yucca Mountain, 
Nevada. I will update you on the status of our final standards and 
focus on issues of interest to the Subcommittee.
    I would like to begin by reviewing EPA's statutory authority for 
issuing the Yucca Mountain standards and the process that we are 
following in developing the standards. I also will discuss the National 
Academy of Science's (NAS) technical recommendations, and some 
important elements of our proposed standards, including the proposed 
ground water protection standard for Yucca Mountain. Finally, I will 
generally address the expected impact of our proposed standards on the 
cost of the repository.
    We believe that, as a matter of policy, the environmental 
protection standards that EPA ultimately issues should consider four 
primary principles: good science, cost-effectiveness, equity, and 
pollution prevention.
                          statutory authority
    The Energy Policy Act of 1992 [Pub. Law No. 102-486, 106 Stat. 
2776, 42 U.S.C. Sec. 10141 n. (1994)] gives EPA the authority to 
establish public health and safety standards for Yucca Mountain. This 
Act states that EPA shall promulgate ``public health and safety 
standards for protection of the public from releases from radioactive 
materials stored or disposed of in the Yucca Mountain repository'' 
[Sec. 801(a)(1) of the Energy Policy Act]. The Act further states that 
EPA's standards ``shall be the only such standards applicable to the 
Yucca Mountain site.''
    Prior to the enactment of the Energy Policy Act, EPA developed 
generic radioactive waste disposal regulations that applied to all 
radioactive waste disposal sites, including Yucca Mountain, which was 
currently under consideration as the Nation's first geologic repository 
for commercial nuclear waste. These regulations are found at 40 CFR 
Part 191 (50 FR 38066, September 19, 1985). These generic disposal 
regulations were applied to the Waste Isolation Pilot Plant (WIPP) in 
New Mexico, which EPA certified in 1998, and is currently operating as 
the Nation's first geologic disposal facility for transuranic 
radioactive waste produced as a result of our Nation's defense 
programs.
    In 1987, EPA's generic disposal regulations were remanded by the 
U.S. Court of Appeals for the First Circuit [NRDC v. EPA, 824 F 2d 1258 
(1st Cir. 1987)], because, among other things, we had not properly 
considered ground water protection. Also in 1987, the Nuclear Waste 
Policy Act was amended (NWPAA, Pub. L. 100-203), selecting Yucca 
Mountain as the sole site to be characterized for high-level 
radioactive waste and spent nuclear fuel disposal. Then, in 1992, the 
WIPP Land Withdrawal Act (WIPP LWA, Pub L. 102-579) was enacted, which 
directed EPA to finalize the generic disposal regulations at 40 CFR 
Part 191 and certify whether WIPP was a suitable site for transuranic 
waste disposal. The WIPP Land Withdrawal Act also exempted Yucca 
Mountain from the 40 CFR Part 191 generic radioactive disposal 
standards.
    So, in 1992, with the enactment of the Energy Policy Act, EPA was 
directed by Congress to set site-specific environmental protection 
standards for Yucca Mountain. In doing so, EPA was to consider 
technical recommendations from the National Academy of Sciences (NAS). 
The NAS issued its Yucca Mountain report in 1995. Between 1995 and 
1999, when EPA issued our proposed environmental protection standards 
for Yucca Mountain, we held technical discussions with the NAS, as well 
as numerous interagency discussions with DOE, the Nuclear Regulatory 
Commission (NRC), the Office of Management and Budget, the Office of 
Science and Technology Policy, and other federal agencies to discuss 
important technical and policy issues associated with the development 
of the standards.
                     standards development process
    EPA published its proposed standards in the Federal Register on 
August 27, 1999 (64 FR 46976). We are working on developing the final 
rule, and we anticipate promulgating the final rule this Summer. We 
received extensive comments from DOE and NRC, as well as other 
government entities, NAS, industrial and environmental advocacy 
groups,Tribal organizations, scientific associations, and members of 
the general public. We received approximately 800 public comments from 
70 groups or individuals which we will be responding to in writing at 
the time we issue our final standards.
    We have made every effort to consider all sides of the issues that 
have come to our attention. This includes meetings with interested 
parties and discussions within the Administration. A significant amount 
of this time has been spent addressing scientific issues in 
coordination with NAS, the Office of Science and Technology Policy, DOE 
and NRC. EPA has worked diligently with these organizations to resolve 
the many complex issues. We are currently in the final stages of 
drafting the final rule and supporting documents for our internal 
Agency review process. These documents include the preamble and rule, 
extensive technical background information document, economic impact 
analysis, and detailed response to comments document. Once these 
documents have been reviewed within EPA, we will begin the inter-agency 
review process administered by the Office of Management and Budget, in 
which DOE and NRC will participate.
    We are taking the necessary time to ensure that we prepare 
standards that are technically sound, legally defensible, can be 
implemented reasonably, and are protective of public health and safety 
from potential releases from Yucca Mountain. During the public comment 
period, and thereafter, EPA staff traveled to local communities to hold 
public hearings and meetings to discuss the standards, EPA's role with 
respect to the other agencies' roles, and to answer general questions 
about the Agency's process for setting the standards. These meetings 
were held with community and Tribal leaders, as well as with state and 
county representatives.
       national academy of science's recommendations and comments
    The Energy Policy Act required us to contract with the NAS to 
conduct a study to provide findings and recommendations on reasonable 
standards for protection of the public health and safety. On August 1, 
1995, the NAS released its report (``the NAS Report''), titled 
Technical Bases for Yucca Mountain Standards. Since 1995, EPA has 
thoroughly studied the NAS report and the public comments received on 
the report in order to propose the standards for Yucca Mountain. The 
EPA's proposed Yucca Mountain standards are based on and consistent 
with the recommendations of the NAS. Where our proposed rule departed 
from a strict reading of the NAS report, we made a special effort to 
explain our reasoning.
    The development of the proposed rule for Yucca Mountain was guided 
by the findings and recommendations of the NAS because of the special 
role Congress gave the NAS and because of the NAS's scientific 
expertise. We worked very hard to incorporate NAS's comments into our 
proposed rule; and, in some cases we have used NAS's recommendations to 
inform our policy decisions. In its comments on our proposed standards 
for Yucca Mountain, the NAS is supportive of many aspects of our 
proposed rule and provides recommendations for improvement in areas 
where we disagree.
     important aspects of epa's environmental protection standards
    The three main elements proposed in our proposed standards are the 
individual-protection standard, the ground water protection standard, 
and the human intrusion standard. Each standard must be met for DOE to 
be in compliance with our rule. Provided below are some of the issues 
on which NAS and others had important comments.
    The individual-protection standard focuses on exposures to an 
individual whose lifestyle is similar to people living today in the 
Yucca Mountain region, and who obtains drinking water and food from 
local sources. The ground water protection standard protects important 
natural resources by focusing on the quality of the aquifer supplying 
water to downgradient communities. The human intrusion standard focuses 
on evaluating the ability of the repository to withstand a single 
intrusion event.
Individual Protection
    In its proposal, EPA adopted an annual dose of 15 millirem from all 
exposure pathways as protective. This is equivalent to the NAS-
recommended annual risk range of 1 x 10<SUP>-6</SUP> to 1 x 
10<SUP>-5</SUP>, which translates to a dose range of 2 to 20 millirem/
year. The annual risk associated with EPA's proposed 15 millirem 
standard and 4 millirem standard for ground water fall within this 
range. In its comments on the proposed rule, NAS determined that the 
individual protection standard proposed by EPA fell within the range of 
values it suggested. In those comments, the NAS stated that, ``EPA 
appears to recognize that its standard must be written in a way that 
provides appropriate protection to the individuals who have the highest 
potential for exposure . . . while avoiding unrealistic and 
unnecessarily conservative assumptions for individual exposure.''
Human Intrusion
    In our proposed rule, EPA followed the NAS recommendations on human 
intrusion. We did this by including a scenario for inadvertent human 
intrusion that is analyzed using similar methods as the undisturbed 
case (i.e., without intrusion). We were prescriptive in specifying the 
intrusion event in order to make implementation a more reasonable 
process for DOE and NRC.
Regulatory Time Frame
    We proposed that DOE meet numerical standards for 10,000 years 
after repository closure. The 10,000-year limitation was set to reduce 
speculation about the application of a regulation beyond 10,000 years 
and to be consistent with previous regulation of the WIPP geologic 
repository. In its report, NAS recommended that the period of 
compliance should extend to a time when the potential peak risks may 
occur (this could be several tens of thousands years for Yucca 
Mountain). NAS determined that there is likely little difference 
between its recommendation and EPA's proposed standard because although 
EPA's standard applies for only 10,000 years, EPA also proposed to 
require DOE to consider the performance of the disposal system at the 
time of peak dose, whenever that occurs, as part of the environmental 
review process.
                        ground water protection
    The NAS report concluded that an individual protection standard is 
sufficient for the protection of public health from radiation releases 
from the Yucca Mountain repository. The NAS did, however, state that, 
under the Energy Policy Act, EPA has the authority to set a separate 
ground water standard as a matter of policy. EPA has proposed the 
ground water standard as an implementation of policy which we plan to 
articulate more clearly in the final rule.
Ground Water Protection
    Ground water is one of our Nation's most precious resources; more 
than 50 percent of the U.S. population draws on ground water for its 
potable water supply. If radionuclides migrate into this valuable 
resource, there are multiple routes of exposure. In addition to serving 
as a source of drinking water, ground water may be used for irrigation, 
stock watering, food preparation, showering, and various industrial 
processes. Ground water contamination is also of concern to us because 
of potential adverse impacts upon ecosystems, particularly sensitive or 
endangered ecosystems. For these reasons, we believe it is a resource 
that needs special protection. Therefore, we proposed a level of 
protection of ground water at Yucca Mountain at the same level as the 
maximum contaminant levels (MCLs) for radionuclides that we established 
previously under the authority of the Safe Drinking Water Act (SDWA).
    As you know, EPA has a long-standing policy of emphasizing the 
protection of ground water resources in other contexts from all sources 
of pollution. We developed a formal Agency strategy in 1990. Key 
elements of our ground water protection and cleanup strategy in other 
contexts are the overall goals of preventing adverse effects on human 
health and the environment and protecting the environmental integrity 
of the Nation's ground water resources. Ground water should be 
protected to ensure that the Nation's currently used and reasonably 
expected drinking water supplies do not present adverse health risks 
and are preserved to present and future generations. It should also be 
protected to ensure that ground water does not interfere with the 
attainment of surface-water-quality standards that are necessary to 
protect the integrity of associated ecosystems.
    The pollution prevention approach to protecting ground water 
resources avoids requiring present or future communities to implement 
expensive cleanup or treatment procedures. This approach also protects 
individual ground water users. Moreover, absent the protections in our 
proposed rule, EPA believes the ground water in aquifers around the 
repository itself could be subject to expensive cleanup by future 
generations if releases from the repository contaminate the surrounding 
ground waters at levels that exceed the drinking water standards. A 
guiding philosophy in radioactive waste management, as well as waste 
disposal in general, has been to avoid polluting resources that 
reasonably could be used in the future rather than imposing cleanup 
burden on future generations.
    Virtually every state has taken steps toward comprehensive ground 
water protection. Forty-nine states have developed programs to protect 
current ground water sources of drinking water through the Wellhead 
Protection Program. Forty-one states have numeric or narrative ground 
water standards to protect their ground water supplies. As EPA has said 
in testimony to this Subcommittee before, the people of Nevada should 
not be exposed to higher risks than the people in any other state in 
the U.S. EPA believes that ground water in a region growing as rapidly 
as the Las Vegas metropolitan area should be protected from pollution 
``up front,'' rather than becoming polluted, and then forcing the 
residents to bear the cost of the environmental cleanup afterwards.
    An important question that has been raised by some commenters is 
the need for the separate ground water protection standard, in addition 
to the all pathways individual protection standard. Our proposed rule 
contains two standards for disposal of spent fuel and high-level 
radioactive waste in the Yucca Mountain repository: a 15 millirem all-
pathways individual protection standard, and a 4 millirem ground water 
protection standard. It is critical to understand the relationship 
between these two separate, but complementary, standards. We proposed 
an all-pathways individual protection standard and a separate ground 
water protection standard because it was our view that it was 
appropriate to do so in order to comply with our statutory mandate to 
promulgate ``public health and safety standards for protection of the 
public from releases from radioactive materials stored or disposed of'' 
in the Yucca Mountain repository [Sec. 801(a)(1) of the Energy Policy 
Act].
    The 15 millirem standard is an all-pathways standard that directly 
protects individuals who may receive exposure (through any pathway) 
from radionuclides released from the repository. The 15 millirem all 
pathways standard is the same standard that we included previously in 
our generic standards for geologic repositories (40 CFR Part 191). 
Should any pathways including a ground water pathway prove to be 
significant, the all-pathways standard serves to limit radiation 
exposures to affected individuals. However, should the ground water 
pathway be the most significant source of exposure, then an all 
pathways standard would allow groundwater concentrations that exceed 4 
millirem/year.
    The 4 millirem standard is the MCL, promulgated pursuant to the 
Safe Drinking Water Act, and is used to define the allowable level in 
drinking water. If ground water that is or could be used for drinking 
water, among other uses, is a significant pathway, present and future 
users of the ground water resource would be protected at the level of 
the current drinking water standard by a ground water standard. By 
extension, a ground water standard would provide this protection 
(albeit indirectly) to the individuals who now live, or who may live in 
the future, in the vicinity of Yucca Mountain. In its report on the 
technical bases for Yucca Mountain standards, NAS identified ground 
water as the pathway likely to lead to the greatest exposure of the 
public and the environment to releases from the Yucca Mountain 
repository.
    With respect to radioactive waste disposal, we believe the 
fundamental principle of inter-generational equity is important. We 
should not knowingly impose burdens on future generations that we 
ourselves are not willing to assume. Disposal technologies and 
regulatory requirements are developed with the aim of preventing 
pollution from disposal operations, rather than assuming that cleanup 
in the future is an unavoidable cost of disposal operations today. 
Designing a disposal system, and imposing performance requirements that 
avoid polluting resources that reasonably could be used in the future, 
therefore is a more appropriate choice than imposing cleanup burdens on 
future generations. The approach to ground water protection in our 
proposed regulation is consistent with our overall approach to ground 
water protection: it limits the contamination of current and potential 
sources of drinking water in the vicinity of Yucca Mountain.
    In designing our proposed ground water protection standard, EPA 
offered as much flexibility as possible, while still ensuring adequate 
environmental protection. For example, to facilitate implementation of 
the standard, we proposed the concept of a ``representative volume'' of 
ground water in which DOE and NRC would project the concentration of 
radionuclides released from Yucca Mountain for comparison against the 
MCLs. In addition, we proposed the concept of a ``point of compliance'' 
whereby EPA would establish the area where the concentration of 
radionuclides would be measured. Our proposed standards offered several 
options and explained the rationale for each in detail.
    Our proposed standard requires that DOE provide a reasonable 
expectation that, for 10,000 years of undisturbed performance after 
disposal, releases of radionuclides from the disposal system will not 
cause the level of radioactivity from combined beta and photon emitting 
radionuclides in the representative volume at the point of compliance 
to exceed 4 millirem per year to the whole body or to any organ. Put 
simply, under our proposal, DOE must provide a reasonable expectation 
that the Yucca Mountain disposal system will meet the same levels as 
the current MCLs for radionuclides under the Safe Drinking Water Act 
(42 U.S.C. Sec. Sec. 300f to 300j-26). We frequently require compliance 
with the MCLs in our regulations.
    When we developed the current MCLs in 1975, we based them on the 
best scientific knowledge regarding the relationship between radiation 
exposure and risk that existed at that time. In the near future, we 
intend to update the existing MCLs based on a number of factors, 
including the current understanding of the risk of developing a fatal 
cancer from exposure to radiation; pertinent risk management factors 
(such as information about treatment technologies and analytical 
methods); and applicable statutory requirements. Particularly relevant 
statutory requirements, in this context, are the requirements (1) that 
MCLs be set as close as feasible to the Maximum Contaminant Level Goal 
(MCLG) [42 U.S.C. Sec. 300g-1(b)(4)(B)] and (2) that revised drinking 
water regulations provide for equivalent or greater human health 
protection than the regulations they replace [42 U.S.C. Sec. 300g-
1(b)(9)].
    Our preliminary analysis of the current MCLs, which are being 
revised under a separate Agency rulemaking, indicates that, when 
updated for the latest scientific understanding, the radionuclide 
concentrations to meet the current MCLs mostly fall within the Agency's 
range of acceptable risks of 10<SUP>-4</SUP> to 10<SUP>-6</SUP>. This 
means that there will be no more than one in 10,000 to one in 1,000,000 
chance of excess cancer deaths. This is not unique to Yucca Mountain, 
as it is the risk range that has governed the Nation's drinking water 
regulations for the last 25 years. Based on the statutory requirements 
and the factors identified above, we proposed allowable concentrations 
for the radionuclides of concern at Yucca Mountain at levels that are 
comparable to current standards.
    effects of our rule on the repository's costs and doe's schedule
    An EPA draft study (which will be available when the final rule is 
issued) indicates that EPA's proposed standards will not have a 
significant impact on the cost of the repository. We support DOE's 
efforts to design the repository in such a way as to prevent or to the 
extent possible limit any releases from the repository in order to 
avoid passing on the costs of clean up to future generations. We 
understand that DOE still has to undergo the NRC licensing process; 
however, to date, DOE's ongoing studies show compliance with the 
proposed ground water standard, although EPA is still considering 
options and alternatives for the final rule.
    As our economic impact analysis for our final standards will 
illustrate, DOE's costs for the facility are driven by many external 
influences, including EPA's proposed standards, the recommendations of 
the Nuclear Waste Technical Review Board and the rigorous NRC licensing 
process, all striving to enhance repository safety. A primary concern 
relates to minimizing the technical uncertainties of modeling and 
enhancing repository performance through certain engineered 
enhancements to the repository design (e.g., an improved canister, drip 
shields).
                               conclusion
    Thank you again for inviting me to testify before the Subcommittee 
today. I would be happy to answer any questions that you may have.

    Mr. Barton. Thank you, Mr. Page.
    We now would like to hear from Dr. Crowley. Your statement 
is in the record in its entirety and you are recognized for 7 
minutes.

                  STATEMENT OF KEVIN D. CROWLEY

    Mr. Crowley. Thank you very much, Mr. Chairman. Thanks for 
the invitation to testify.
    For the record, my name is Kevin Crowley. I am the director 
of the National Research Council's Board on Radioactive Waste 
Management.
    BRWM was established by the National Academy of Sciences in 
1958 to provide scientific and technical advice to the Federal 
Government on the safe and responsible management of 
radioactive waste. The BRWM recognizes the importance of the 
Yucca Mountain radiation protection standards and has been 
interacting in a cooperative spirit with EPA and the other 
Federal agencies at this table to help ensure that these 
standards are based on sound science.
    As Mr. Page mentioned in his statement, the Energy Policy 
Act of 1992 directed the EPA administrator to obtain advice 
from the NAS on the technical basis for Yucca Mountain 
standards. The NAS's advice to EPA was provided in the 1995 
National Research Council report entitled ``Technical Basis for 
Yucca Mountain Standards.'' That is this report which I will 
refer to as the TYMS report in the remainder of my testimony.
    After EPA issued its draft standards in August 1999, the 
BRWM wrote another report to the EPA administrator that 
compared those standards with the recommendations in the TYMS 
report. The purpose of the comparison was to determine whether 
EPA followed the recommendations in the TYMS report and if not 
to suggest how EPA could modify its draft standards to make 
them consistent.
    The 1999 BRWM report concluded that EPA's draft standards 
were consistent with the TYMS report in several important 
respects, and I have reviewed those in my full written 
testimony. The BRWM also identified several points of 
disagreement, and I would like to focus the remainder of my 
oral testimony on those three points.
    The first significant point of disagreement concerns the 
form of the standard. EPA proposes a standard that is based on 
the dose that an individual may receive from repository 
releases. The TYMS report specifically recommended against 
basing the standard on dose, but instead recommended the 
establishment of what it calls a risk-based standard. A risk-
based standard, a standard that is based on the likelihood of a 
health effect; in this case, the likelihood of contracting a 
fatal cancer from radiation releases from the repository.
    The TYMS report noted that the question, what is an 
acceptable risk, is a societal judgment to be established 
through the rulemaking process. Once a risk level is 
established, then a dose value can be derived using existing 
scientific knowledge.
    The adoption of a risk-based standard as recommended by the 
TYMS report would have several benefits, and I would like to 
list those. First, there would be clear traceability between 
the numerical value of that standard and the public policy 
decision on what is an acceptable risk.
    Second, the standard would be more readily understood by 
nonexperts, which could help promote more meaningful public 
input to rulemaking and greater public confidence in the final 
standards and recommendations for Yucca Mountain.
    Third, this approach would promote consistency between the 
Yucca Mountain standards and regulation for other hazards such 
as toxic chemicals. And fourth, a risk-based standard would not 
have to be revised by subsequent rulemaking as advances in 
scientific knowledge improve our understanding of radiation 
effects on human health.
    The second point of disagreement concerns EPA's inclusion 
of a groundwater standard in addition to an all-pathway 
standard. The all-pathway standard, of course, also applies to 
groundwater. The TYMS report recognized that groundwater is 
likely to be the primary source of individual exposure to any 
radioactive materials that escape from Yucca Mountain. And the 
report found that an adequate set-all-pathways standard could 
protect both individuals living near the repository and 
populations distant from the repository, including those 
populations that would use the groundwater.
    Therefore, the report did not recommend a separate 
groundwater standard. The 1999 BRWM report concluded that the 
imposition of a separate groundwater standard may greatly 
complicate the licensing process for Yucca Mountain and have a 
negative impact on the protection of the public. I have 
provided more extensive comments on this in my written 
testimony. I hope we have a chance during the Q and A session 
to talk about the groundwater standard in a little more detail.
    The third and last point of disagreement concerns the time 
period over which the standard should be applied. The main 
concern identified in the BRWM report is an EPA requirement 
that repository performance be examined beyond 10,000 years to 
see if dramatic changes could be anticipated.
    EPA provides no guidance as to what qualifies as a 
``dramatic change,'' nor does it state the purpose of this 
examination. The BRWM report notes that this aspect of the 
standard will provide no real benefit to protection of the 
public.
    Yucca Mountain repository must isolate waste from the 
environment for many millennia. It is essential that the 
standard for this repository be scientifically sound. The 
overall conclusion of the 1999 BRWM report is that the current 
EPA draft standards fall short of this goal in some important 
respects. The BRWM hopes that EPA will accept the suggestions 
it has made for improvements in the proposed standards. That 
concludes my oral remarks. Again, thank you very much for the 
opportunity to testify.
    [The prepared statement of Kevin D. Crowley follows:]
Prepared Statement of Kevin D. Crowley, Director, Board on Radioactive 
              Waste Management, National Research Council
    Chairman Barton and subcommittee members, thank you for the 
opportunity to appear before the Energy and Power Subcommittee to 
testify on the Environmental Protection Agency's (EPA's) draft 
radiation protection standards for Yucca Mountain. I am the director of 
the National Research Council's Board on Radioactive Waste Management 
(BRWM), which was established by the National Academy of Sciences (NAS) 
in 1958 to provide scientific and technical advice to the federal 
government on the safe and responsible management of radioactive waste. 
My testimony to the subcommittee today will focus on recent reports 
from the BRWM and committees under its oversight that bear directly on 
the question of radiation protection standards for Yucca Mountain. In 
particular, I will discuss the findings and recommendations from two 
reports: Technical Bases for Yucca Mountain Standards, also known as 
the ``TYMS report,'' which was published in 1995, and a 1999 BRWM 
report entitled Comments on Proposed Radiation Protection Standards for 
Yucca Mountain, Nevada by the Board on Radioactive Waste Management.
    As you know Mr. Chairman, the Energy Policy Act of 1992 directed 
EPA to promulgate radiation protection standards specifically for a 
potential repository at Yucca Mountain, Nevada. The Act directed the 
EPA Administrator to obtain advice from the NAS on the technical bases 
for radiation protection standards, and the Act further mandated that 
EPA base its standards on the NAS recommendations.
    To respond to this request, the National Research Council, the 
operating arm of the NAS and National Academy of Engineering, appointed 
a BRWM committee in early 1993 to provide advice to EPA on the 
standards. The committee held a series of information-gathering and 
deliberation meetings (many in Nevada) over a period of about two years 
and issued its recommendations in the 1995 TYMS report.
    In developing its recommendations, the TYMS committee was very 
careful to distinguish between scientific and policy judgments. The 
committee recognized that some elements of the standards could be 
addressed using scientific data and understanding, whereas other 
elements required societal value judgements. For example, the committee 
recognized that there is no basis in science for establishing 
acceptable radiation exposure limits but, rather, ``acceptability'' was 
a societal value judgement that was best established through the 
rulemaking process. Similarly, the TYMS committee noted that the time 
period of applicability of the standards has both scientific and policy 
aspects.
    EPA published its draft radiation protection standards in the 
Federal Register (64 FR 46976-47016) on August 27, 1999. The BRWM, 
acting under its own initiative and with approval of the National 
Research Council's governing board, decided to issue a report that 
compared the draft EPA standards with the recommendations in the TYMS 
report. The purpose of this comparison was to determine whether EPA 
followed the recommendations laid out in the TYMS report and, if not, 
to suggest how EPA could modify its draft standards to make them 
consistent. The BRWM's report was submitted to the public docket during 
the comment period for EPA's draft standards. This report reflected the 
consensus of the BRWM and was approved for release by the National 
Research Council after being subjected to the Research Council's review 
process.
    The BRWM found that EPA's draft standards were consistent with the 
1995 TYMS report in several important aspects, the most significant of 
which are the following:

<bullet> Who is Protected. The TYMS report recommended that the 
        radiation protection standard be applied to representative 
        individuals who have the highest risk from radiation releases 
        from the repository. EPA proposed a standard to protect 
        individuals living near the repository--using a reasonably 
        maximally exposed individual (RMEI)--that is broadly consistent 
        with the TYMS report's recommendation.
<bullet> Level of Protection. The TYMS report concluded that the 
        numerical value for the radiation protection standard was a 
        policy decision to be established through the rulemaking 
        process. EPA has used rulemaking to establish an ``all-
        pathways'' standard. This standard sets an upper limit on the 
        exposure the RMEI can receive from radiation releases through 
        all potential release pathways, including groundwater and the 
        atmosphere. The numerical value of this standard proposed by 
        EPA falls within the range of values suggested in the TYMS 
        report.
<bullet> Human Intrusion. EPA follows the TYMS report's recommendations 
        that the standards should require active and passive 
        institutional controls to prevent human intrusion into the 
        repository in the near term; that the standard should be based 
        on explicitly defined assumptions about how human intrusion 
        could occur in the long term; and that the standard should set 
        limits on radiation exposure to individuals as a result of a 
        human intrusion that are no more stringent than the all-
        pathways standard.
<bullet> Exposure Scenarios. The TYMS report concluded that there is no 
        scientific basis for predicting future scenarios by which 
        humans could be exposed to radiation from a Yucca Mountain 
        repository. Therefore, the report recommended that such 
        scenarios be established through the rulemaking process. EPA 
        has used rulemaking to define exposure scenarios based on the 
        state of society, human biology, and knowledge that exists at 
        the time of submission of the license application for the 
        repository.
    There are also several elements of EPA's proposed standards that 
are inconsistent with the recommendations in the TYMS report. My 
testimony will focus on the three most important elements:

<bullet> risk- versus dose-based standards;
<bullet> the inclusion of a separate groundwater standard; and
<bullet> the time period over which the standard should be applied.
Risk- Versus Dose-Based Standards
    EPA proposes a standard that is based on the dose an individual may 
receive as a result of radioactive releases from the repository. The 
TYMS report specifically recommended against basing the standard on 
dose. Instead, the report recommended that the standard be based on the 
risk to individuals of an adverse health effect from radiation 
releases, and the report further recommended that rulemaking be used to 
establish an acceptable risk level.
    The TYMS committee recommended a risk-based standard for several 
reasons. First, the committee recognized that a risk-based standard is 
more understandable to the public than a dose-based standard and its 
use would therefore promote more meaningful public involvement in what 
truly is a public-policy decision. A risk-based standard can be 
expressed as a simple probability of developing a fatal cancer--for 
example, a standard that has a numerical annual risk value of 
10<SUP>-4</SUP> would mean that an individual living near the 
repository could have no greater than a 1 in 10,000 chance per year of 
developing a fatal cancer from radiation releases from the repository. 
A dose-based standard, in contrast, provides no indication of hazard 
levels and is understandable only by experts. The proposed EPA all-
pathways dose standard of 15 millirems per year, for example, provides 
no indication of the number of fatal cancers that could be expected in 
a given year from repository releases.
    Second, a risk-based standard for Yucca Mountain can be compared 
directly to other risk-based standards, such as EPA's standards for 
toxic chemicals, because they use common units of measurement. Also, 
the magnitude of the risk value corresponds directly to the level of 
hazard. For example, a 10<SUP>-5</SUP> (1 chance in 100,000) risk 
standard for Yucca Mountain would provide the same level of public 
protection as a 10<SUP>-5</SUP> risk standard for regulating a 
particular toxic material, assuming of course that both standards were 
based on the same health effect such as fatal cancers. EPA currently 
regulates hazardous chemicals on the basis of risk, so the adoption of 
a risk-based radiation protection standard for Yucca Mountain would 
promote uniformity across EPA's family of regulations.
    Third, a risk-based standard would not have to be revised by 
subsequent rulemaking as advances in scientific knowledge improve our 
understanding of radiation effects on human health. There have been 
significant improvements in our understanding of radiation effects on 
human health over the past few decades, and dose-based standards have 
had to be adjusted as our knowledge has improved. There is reason to 
believe that these improvements will continue and that adjustments to 
dose-based standards will be necessary in the future. For a risk-based 
standard, the level of acceptable risk would be established during 
initial rulemaking. This level would not have to be changed if new 
science indicated a change in the relationship between dose and health 
effects.
    EPA's use of a dose-based standard not only makes it difficult for 
the public to provide meaningful input to the rulemaking process, but 
it may also lower public confidence in the output from that process. 
Take, for example, the disagreement between the EPA and U.S. Nuclear 
Regulatory Commission (USNRC) over radiological criteria for 
unrestricted use of nuclear sites. The EPA standard (based on 40 CFR 
Part 191) is 15 millirems per year, whereas the USNRC regulation (10 
CFR 20.1402) is 25 millirems per year with ALARA (as low as reasonably 
achievable). Both agencies claim that their release limits are 
protective of public health. What is the public to think when the two 
federal agencies charged with protecting public health cannot agree on 
what the protective limits should be? The reason the EPA's and USNRC's 
limits are different is that each agency has a different starting point 
for establishing the exposure limit values, and neither agency uses 
risk to establish such limits.
    EPA points out in the preamble to its draft standards that it was 
directed by the Energy Policy Act to develop a ``dose-based standard.'' 
The TYMS report's recommendation that the form of the individual-
protection standard be based on risk does not preclude EPA from 
expressing the numeric value of the standard in units of risk and in 
derivative units of dose, so long as the risk value is clearly 
understood as the underlying basis for the proposed dose standard. In 
its 1999 report, the BRWM noted that such an approach ``would achieve 
the aims of the TYMS report's recommendations and it would allow EPA to 
meet its Congressional mandate.''
    To summarize, the use of a risk-based standard in the Yucca 
Mountain rule would have several benefits:

<bullet> there would be clear traceability between the numerical value 
        of the standard and the public policy decision on what is an 
        acceptable risk;
<bullet> the standard would be more readily understood by nonexperts, 
        which could help promote more meaningful public input to 
        rulemaking and greater public confidence in the resulting 
        regulations;
<bullet> this approach would facilitate uniformity of the standard with 
        regulations for other hazards such as toxic chemicals; and
<bullet> if a risk-based approach were implemented for all elements of 
        the Yucca Mountain standard, it would eliminate the current 
        problem with the groundwater element of the standard, which I 
        will discuss next.
    The 1999 BRWM report noted that a risk-based standard would be more 
difficult to implement than a dose-based standard, and that EPA might 
find it far more difficult to ask the public about acceptable risk 
levels than to follow established precedents. Nevertheless, a risk-
based standard was recommended both in the TYMS report and the 1999 
BRWM report because it requires public involvement in what is 
fundamentally a public-policy decision.
Inclusion of a Separate Groundwater Standard
    EPA has included a standard for the protection of groundwater in 
its proposed rule in addition to the all-pathways standard described 
previously. The proposed groundwater standard appears to be designed to 
protect both individuals living near the repository and the general 
public living at some distance from the repository. The groundwater 
standard is a holdover from EPA's 1985 disposal regulations (40 CFR 
Part 191) and is taken directly from the EPA's safe drinking water 
regulations (40 CFR Part 141).
    In incorporating the groundwater standard into the Yucca Mountain 
standards, EPA has made several modifications from the safe drinking 
water regulations. First, the groundwater standard in EPA's safe 
drinking water regulations applies to public water systems. For the 
Yucca Mountain standards, EPA proposes to apply the groundwater 
standard to a groundwater aquifer some 2,000 feet below the Earth's 
surface at the Yucca Mountain site and at some as-yet undetermined 
distance from the repository boundary--the point of compliance for 
alternatives being proposed by EPA range from 5 to 30 kilometers (3 to 
19 miles) from the repository boundary. The Yucca Mountain standard 
also applies to a volume of groundwater in the aquifer rather than to 
water delivered by a public water system--EPA has proposed a value of 
1,285 acre-feet (about 420 million gallons) but has also asked for 
comments on values that range from 10 to 4,000 acre feet (3 million to 
1.3 billion gallons). The numerical value of the standard itself is 
based on 40-year-old dosimetry and does not conform with current 
international standards, and it represents a different level of risk 
than the all-pathways standard of 15 millirems per year.
    The TYMS committee recognized that groundwater is likely to be the 
primary source of individual exposure to radioactive materials that 
escape from Yucca Mountain, and that committee found that the all-
pathways standard would protect both local and distant populations. 
Therefore, the TYMS committee did not recommend a separate groundwater 
standard. The 1999 BRWM report concluded that the imposition of a 
separate groundwater standard ``may greatly complicate the licensing 
process [for Yucca Mountain] and have but a negligible impact on 
protection of the public.''
    The 1999 BRWM report concluded that there was no basis in science 
for establishing a separate groundwater standard and recommended that 
EPA either ``make more cogent scientific arguments to justify the need 
for this standard,'' or if it wishes to establish a separate standard 
as a matter of policy, that it ``explicitly state the policy decisions 
embedded in the proposed standard and ask the public to comment on 
those decisions.'' The 1999 BRWM report did not suggest what scientific 
arguments EPA could use to justify a separate groundwater standard, but 
I would like to close this part of my testimony by suggesting one 
possible approach for resolving the BRWM's objections.
    I believe that EPA could justify a separate groundwater standard by 
adopting the risk-based approach recommended in the TYMS report. If EPA 
based its Yucca Mountain standards on a SINGLE VALUE OF ACCEPTABLE 
RISK, it could express that risk in terms of two elements, one for 
radiation exposures through the groundwater pathway (a groundwater 
standard) and one for exposures through all pathways (an all-pathways 
standard). These two elements would be scientifically consistent so 
long as they are based on a single value of acceptable risk. To 
implement this approach, EPA would have to modify the dose values for 
the all-pathways and groundwater elements that currently exist in its 
proposed rule so that they represent the same value of acceptable risk.
Time Period Over Which the Standard Should be Applied
    EPA proposes that the radiation protection standards at Yucca 
Mountain be applied over a time period of 10,000 years. The TYMS report 
concluded that (1) an arbitrary time limit such as 10,000 years has no 
scientific basis, and (2) peak risks from radiation releases from the 
repository are likely to occur beyond 10,000 years. The report 
recommended compliance be assessed for the site's period of geologic 
stability and noted that a technical assessment of the site should be 
feasible for on the order of one million years. After the TYMS report 
was published, EPA asked for public comment on the timescale issue, and 
the majority of those commenting stated that compliance should be 
assessed at the time of peak risk.
    EPA has nevertheless retained its earlier recommendation for 
quantitative compliance assessment only up to 10,000 years and has 
given a series of policy and technical arguments for this choice. The 
TYMS report excluded policy considerations from its deliberations on 
this issue, but concluded, as noted previously, that ``there is no 
scientific basis for limiting the time period to . . . 10,000 years. 
Clearly, the 10,000-year limit is strictly a policy choice and should 
be acknowledged as such'' by EPA. As the proposed standards currently 
read, the policy origin of the limit is not evident.
    Though compliance is assessed for a period of 10,000 years, EPA 
requires that the repository performance be examined past this point 
``to see if dramatic changes . . . could be anticipated'' (64 FR, p. 
46993). Here EPA provides no guidance as to what qualifies as a 
dramatic change or as to the purpose of the examination. The BRWM 
believes that this aspect of the standard will provide ``no real 
benefits to protection of the public.'' The BRWM noted that EPA ``may 
wish to be more specific in providing guidance on how the analyses 
beyond 10,000 years could be used in determining compliance'' or 
explicitly pass this task to the USNRC.
    In conclusion Mr. Chairman, a Yucca Mountain repository must 
isolate waste from the environment for many millennia. It is essential 
that the standard for this repository reflect the best thinking that 
science has to offer. The overall conclusion of the 1999 BRWM report is 
that the current EPA draft standards fall short of this goal in some 
important respects. The BRWM hopes that EPA will accept the suggestions 
it has made for improvements in the proposed standards.
    This concludes my testimony to the committee. I would be happy to 
clarify my comments or answer committee members' questions. Again, 
thank you for the opportunity to testify.

    Mr. Barton. Thank you. Let's do 7-minute question rounds, 
but we will have numerous rounds. The Chair will recognize 
himself first.
    First, let me say that we cannot have a democracy if we do 
not have debate. So it is good to have this panel here. But I 
want the record to show, because of what our two Nevadans said, 
this is not a hearing that is about politics. There is not one 
member on this dais right now that is going to get any 
political plus of sitting through 3 hours of technical details 
about what the radiation standard or the groundwater standard 
at Yucca Mountain ought to be. The members that will get 
political support and send out press releases have already been 
here--the two Nevadans. And they will send out press releases 
saying they stood up to the Congress and they spoke in no 
uncertain terms about how it shouldn't be Yucca Mountain, and 
that is how should be.
    But none of us are going to send out press releases about 
how we sat through 3 hours of some of the most boring 
information you are ever going to have to listen to because we 
want what is good public policy, and that is why we are here. 
That is why this subcommittee is here is because this is an 
issue that is very important. If you assume that each Member of 
Congress represents about half a million people you have 
members that represent 3 million people, or 3 percent of the 
American population sitting at this hearing. And we are all in 
this together.
    As Congresswoman Berkley said, we are for America, and I 
happen to think that the United States of America should have a 
comprehensive nuclear policy that includes a repository, or a 
depository, where the high level nuclear waste can be safely 
stored. Now, we are not technical experts; you folks are. So we 
have got to ask you some questions, and we have got to have 
this debate. After 18 years, I was a White House Fellow in the 
Department of Energy in 1981 and 1982, and participated in 
policy debates at a minor level about what has come to be known 
the Nuclear Waste Policy Act of 1982. Eighteen years later I am 
the subcommittee chairman and we are basically having the same 
debate, although at, admittedly, a higher technical level. So I 
just want to get that on the record before we get into the 
questions.
    Now, Mr. Page, you represent the Environmental Protection 
Agency. Are you the decisionmaker on this separate groundwater 
standard that is currently pending?
    Mr. Page. No, sir, I am the office director of the Office 
of Radiation Indoor Air. Carol Browner, my boss, will be taking 
the recommendation forward to the administration, and that is 
where that will get resolved.
    Mr. Barton. Who made the decision within the EPA to go to a 
separate groundwater standard?
    Mr. Page. That decision was across EPA looking at what we 
do in the rest of our environmental programs. And it is 
consistent with that.
    Mr. Barton. Did you have any influence in that decision? My 
question is, are you a decisionmaker or are you a message-
giver?
    Mr. Page. I participate in the meetings where the decisions 
are made.
    Mr. Barton. So you are at least high enough in the EPA that 
you have some influence in the decisions?
    Mr. Page. Yes, sir. Yes, sir.
    Mr. Barton. That is good. That is not bad.
    Now, does EPA have a problem with the concept of an all-
pathways standard?
    Mr. Page. No, sir, we recommend an all-pathways standard.
    Mr. Barton. I know there is a disagreement about the level 
of all-pathways standard. I think the Nuclear Regulatory 
Commission recommended 25 millirems and the EPA all-pathways is 
15; is that correct?
    Mr. Page. That is correct. And I would also note that the 
National Academy of Sciences recommended their range, which is 
consistent with ours, with EPA's.
    Mr. Barton. So we could have a real good debate between 15 
and 25, in the spirit of the congressional give-and-take, we 
would agree on 20. But that is a different debate. But there 
appears to be, in the academic community, in the technical 
community, not too much support for the EPA position that there 
should be a separate groundwater standard. And if you look in 
the law, there is no requirement for that. It appears that it 
is an EPA policy decision that, in addition to protecting 
public health and safety, the Carol Browner administration has 
decided to also protect resources. Am I wrong in making that 
last assumption?
    Mr. Page. The protection of groundwater policy is the 
policy of this administration as it was previous 
administrations. Yes, sir.
    Mr. Barton. But it is not a Federal law? You have got to 
protect public health. You do not have to necessarily protect 
resources?
    Mr. Page. Correct.
    Mr. Barton. But you have decided that it is in the public 
good to protect resources, and that is a good public policy.
    Mr. Page. Especially as these resources are being used as 
sources of drinking water, which these are.
    Mr. Barton. Under the Safe Drinking Water Act, la-dee-da-
dee-da, which I think is in the 1970's, the groundwater 
standard has been implemented, so that it is enforced and 
measured at the tap; is that not correct? Whatever the standard 
is, you regulate it and monitor it at the tap where the water 
comes out and people actually get ready to drink it.
    Mr. Page. That is true for drinking water.
    Mr. Barton. Now, the standard that is pending, as I 
understand it, you are setting this 4 millirem not at the tap 
but at the source; is that not correct?
    Mr. Page. That is correct.
    Mr. Barton. Okay. Now, is it not technically possible--
let's assume because it is a big assumption that we agree that 
there ought to be a 4 millirem standard for groundwater, 
wouldn't it be just as defensible to enforce it at the tap as 
opposed to at the source?
    Mr. Page. We believe----
    Mr. Barton. I am not real interested in what you believe 
right now. I am interested though in whether, if we agreed with 
the 4 millirem that we could enforce it, you know, where the 
people are actually getting ready to drink it as opposed to 
wherever it might emigrate from?
    Mr. Page. Mr. Chairman, EPA and many, many states use the 4 
millirem to protect future or current sources of drinking 
water. It is true what you are saying that you can regulate 
that at the tap. That is the bottom line, if you will. But 
prevention in this case very often, especially in the case of 
Yucca Mountain, if you can develop designs that are reasonable 
and can prevent the initial pollution of the resource----
    Mr. Barton. But that is not a technical necessity nor is it 
a Federal law.
    Mr. Page. That is a policy call, sir.
    Mr. Barton. That is an EPA policy call. Does anybody else 
in the Clinton administration, other than EPA, support that 
policy call? Does the Department of Energy? Does the Nuclear 
Regulatory Commission? Does the Department of Agriculture? Does 
the Department of Defense? Do any of them support that EPA 
policy call?
    Mr. Page. I guess I haven't polled all of those agencies 
that you named. I can tell you that many, many States who carry 
out----
    Mr. Barton. I did not ask you about the States, I asked you 
about within the Clinton administration, because we have--I 
shouldn't admit this, but that was kind of a set-up question 
because we can put into the record that all of those agencies, 
I think all of those agencies do not support that.
    Mr. Page. I can tell you that, from the Department of 
Energy and from the Nuclear Regulatory Commission and others 
who comment on the Yucca proposal, they expressed their 
concerns with that policy. And that is what we have up ahead of 
us.
    Mr. Barton. I think they opposed it, other than expressed 
concerns with it, but that is, again, semantics. The Chair 
would recognize Mr. Boucher for 7 minutes.
    Mr. Boucher. Thank you very much, Mr. Chairman. I want to 
commend our witnesses this morning for informing us about these 
technical and policy matters. I agree with the chairman that 
this is where we earn our salary. There is not a lot of 
political benefit in listening to this, but it is 
extraordinarily important information, nonetheless.
    In the rank of importance, I think the budget is fairly far 
up the scale. Dr. Itkin, I would like to engage in a discussion 
with you about that.
    In 1982, in the Nuclear Waste Policy Act, we established 
the Nuclear Waste Fund. It is comprised of a fee of 1 mill per 
kilowatt, which the utilities are required to pay into the 
fund. They pass that charge along to their ratepayers. And in 
the years that this fund has been in existence, that 1 mill per 
kilowatt has accumulated $10 billion in principal for the fund. 
That $10 billion in principal has accrued $4 billion in 
interest. So $14 billion in potentially expendable funds have 
been made available through the Nuclear Waste Policy Fund. But 
of that $14 billion, Congress has appropriated to the DOE only 
$5 billion for your various activities.
    The balance of that fund remains subject to appropriations, 
and in the current state of play under the current law, you 
would only have access to the balance of it through the grace 
of the appropriation process in the Congress.
    Now, if you look at that appropriations process, starting 
in 1996, the administration's requests have not been met by the 
congressional appropriations. In fact, in the year 1996, the 
administration's request was $630 million. Congress provided 
exactly half of that amount, $315 million. And in each 
succeeding year since 1996, Congress has appropriated less than 
the administration has requested for your activities to prepare 
Yucca Mountain.
    And it appears that the trend is continuing even today. We 
are prepared to bring the energy and water appropriations bill 
to the floor of the House next week, and that bill, once again, 
falls short of the administration's request.
    I think Congress has a clear responsibility to meet our 
need to keep this program on track, and I really question 
whether this appropriations history complies with that 
responsibility. I would welcome your comments concerning the 
general subject.
    Let me just phrase a precise question to you. The 
Department of Energy historically has made projections of the 
extent to which it will be able to continue its work in a 
timely fashion, given the appropriations that you receive. And 
you make several assumptions as you make projections of your 
ability to perform. One of those assumptions is that the 
continual trend of appropriations will be pursued, that it will 
continue and that you will get roughly the same level of 
appropriations that you have.
    The other assumption that you have made for purposes of the 
projection is that the balance of the Nuclear Waste Fund will 
not be made available to you. That legislation, such as H.R. 
45, will not be enacted into law, and that you would continue 
to have to get annual appropriations.
    Now, given those assumption, and given the appropriations 
history that we have seen, and given the level of 
appropriations that you might reasonably be able to expect for 
fiscal year 2001, at what point in time would you anticipate 
that the Department of Energy is going to fall behind its 
schedule for the activities that are necessary to finish the 
design and construction of Yucca Mountain, to load Yucca 
Mountain, and then to engage in the sealing of the repository 
under the schedule that you currently have? At what point in 
time do you think if these trends continue that you are going 
to fall behind schedule?
    Mr. Itkin. Thank you very much, Congressman, I am very 
pleased to address the subject. It is a very important one for 
our agency, and you have correctly characterized the lack of 
funding to the office in order to carry out its mission of 
characterizing the Yucca Mountain site.
    In the short term, we are somewhat gratified by at least 
the initial reaction of Congress toward our appropriation. I 
would like to preface that by saying that before we went to the 
Congress, my office went to the department and to the 
administration asking for a budget proposal that was 25 percent 
higher than what we had gotten traditionally. Our current 
budget this year is $351 million. We asked the administration 
for $437.5 million. We made our case and the administration 
did, in fact, recommend to the Congress the full $437.5 
million.
    What that level would do would be allow us to continue and 
to finish the site suitability studies, the scientific work 
necessary for a Presidential decision, and would allow us to 
catch up and to prevent any further delay in the next process 
if there is a positive recommendation. And that is in the 
licensing stage. So in order to ensure that we do not fall 
behind further, we need the full $437.5 million.
    The House Energy and Water Development Appropriations 
Subcommittee did give us a mark which is far higher than the 
House has ever done before of $413 million. I think that they 
were under a misimpression that at $413 million, it would fully 
fund our program. It will fully fund making a decision next 
July. In other words, we will have the resources necessary to 
do the scientific work to inform the Secretary, and if he so 
chooses, to inform the President. And we think that is very, 
very important.
    But it will not allow us to catch back up to the deferred 
work that we have had to do because of these cuts with 
licensing application.
    So if I have an opportunity to get on my soap box, I am 
asking Congress for the full $437.5 million. And I am hoping 
that the other body will, in fact, provide with us a higher 
appropriation and hopefully get this thing resolved in 
conference.
    Mr. Boucher. But you are concerned that if you do not get 
the full appropriation, that fact will result in delay; is that 
correct?
    Mr. Itkin. Yes, if we get the $413 million, we will make 
our fiscal year 2001 milestone, but we will probably have to 
defer perhaps some months, maybe a year, getting our license 
application submitted and approved. Which I think from many 
Members of Congress, it is not these interim points that are 
important, it is a desire by at least 2010 for us to accept the 
waste. And I am trying to keep that schedule, and I will--if I 
get the 437.5, we will be able to do the Presidential 
recommendation and also provide the necessary makeup work that 
is required so that we can get a license application on time.
    Mr. Boucher. Mr. Chairman, if you will indulge me just for 
one additional question.
    Mr. Barton. Sure.
    Mr. Boucher. My really deep concern is that as we approach 
the time and perhaps the year 2003 when construction of the 
facility is scheduled to begin, and your costs are going to 
escalate dramatically, that we are going to really find a 
crunch, and you are going to have difficulty moving forward at 
that time, unless you get access to the full fund. Is that a 
realistic concern or are you less concerned for some reason?
    Mr. Itkin. Congressman, it is a real concern that we have 
to adjust the outyear funding. We are trying to moderate some 
of our needs. I have taken the initiative of trying to develop 
a modular procedure in the construction activities that would 
tend to smooth out the cost so it wouldn't be such a burden or 
spike in certain years. But even doing that, we will need to 
work together, the administration and the Congress, to come out 
with a new funding mechanism to deal with this problem, because 
we will probably need, at the minimum, two to three times our 
current funding levels.
    And having said that, it becomes--you mentioned about 
having full access to the fund. You know as well as I, there is 
approximately $10 billion, $9-, $10 billion sitting there, and 
that it is being used both by the Congress and the 
administration to take care of other matters, to so-call 
balance the budget.
    Mr. Barton. I am sure you are aware that the House-passed 
bill freed the waste depository fund. You are aware of that?
    Mr. Itkin. I appreciate the House doing that. The law of 
the Congress requires both Chambers to act in unison. That did 
not occur. I am a legislator, at least a State legislator for 
26 years. I understand how the legislative process works.
    But having said that, I want to work with you, the 
committee and the subcommittee, and the Congress in general 
because we do have to solve this problem.
    Mr. Barton. Next year, assuming that we are here and that 
you are there, and we are doing this as an early hearing before 
we move another waste depository bill, will the administration, 
if you are still a part of it, put a proposal on the table that 
addresses the issue that my good friend from Virginia has put 
on the table? In other words, we never saw a Clinton 
administration proposal this year that solves the funding 
problem. We got a lot of reports about all the problems they 
saw with our way to solve it. But thankfully, Mr. Dingell, Mr. 
Boucher and Mr. Hall worked with Mr. Bliley and myself, and we 
went ahead and went to the Budget Committee and the 
Appropriations Committee and the Speaker of the House, and our 
bill solved that problem.
    So can we expect to see reciprocal problem solution to this 
funding issue next year if you are still in charge?
    Mr. Itkin. Mr. Chairman, we are working on that problem. We 
recognize for our own future well-being in carrying out our 
mission as directed by the Congress, that we will have to 
resolve this. I cannot speak for the next administration in 
terms of what they----
    Mr. Barton. I said if you are still where you are. I am not 
tying your hands to the future administration. But my guess is 
that you are going to be here next year, even if there is a 
change in political calculus at the White House because it 
takes a while for those transitions to occur.
    Mr. Itkin. Well, I will go on record saying it needs to be 
changed and I want to be part of that solution.
    Mr. Barton. That is mighty big of you.
    Mr. Boucher. Mr. Chairman, thank you for your indulgence 
and I yield back.
    Mr. Barton. In order of appearance, we are going to go with 
Mr. Shimkus unless there is another member that has a pending--
Mr. Shimkus for 7 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. I am shocked that the 
ranking member started at 1996, and I did not have any of the 
numbers from 82 to 95 to be able to evaluate the budgetary 
aspects of the whole program. But I would like to join my 
colleague on the mandatory process of the appropriation bills. 
And if we can find a way to rob Peter to pay Paul to make folks 
better served, understanding budgetary constraints, and look 
for waste fraud and abuse in other areas of the Federal 
Government, then I would be happy to join with him to address 
those issues.
    First of all, I want to ask a question to all of you at 
table. Do any of you have any black helicopters? Do you know in 
your agencies is there any black helicopters? No? Any of the 
roofs painted blue, do you know, on any of the buildings? 
Because of the different agencies involved, and there was a 
statement I think by Dr. Crowley that you are working in a 
cooperative spirit. Does that mean that you are in collusion 
with each other to try to deceive the public and rain bad 
science and ill-gotten gains from those who are participating, 
destroying the health and the welfare of the citizens of this 
great country? No?
    For the record, everybody is shaking their head ``no'' for 
all of these questions. And for all of those conspiracy 
theorists out there, I am glad to say that you are on record 
saying that there is no great conspiracy to game the system for 
whatever organization--nefarious organization that may be out 
there, and that you are all working diligently trying to move 
public policy in a direction that will, in the end, protect the 
safety, health and welfare of all the citizens in this Nation.
    Can I make that assumption to you all? Is that correct? And 
for the record, everybody is shaking their head ``yes,'' and I 
appreciate that.
    That is kind of in response to my colleagues who made some 
implications based upon past practices and current practices 
that--may be current practices. And I think that the fact that 
we have in this debate and the fact that there is disagreement 
and that we have outside people being brought in to review the 
technical aspects, is a good response to my colleagues who may 
not believe that we are attempting to move public policy in a 
scientific manner, and that is probably why it has taken us so 
long to get through this process to begin with.
    I have been told and I tried to confirm this during some of 
the testimony, that if you work in the Library of Congress for 
a year you are subject to 700 millirems in that year. If you 
work in this building for a year, probably 300 millirems. 
Does--because of the millirem standard the EPA is proposing for 
groundwater, wouldn't you think it would be in the EPA's best 
interest to call for the immediate vacation of all the Federal 
buildings in Washington, Mr. Page, based upon those standards?
    Mr. Page. No, sir, I don't think EPA would agree with that.
    Mr. Shimkus. Maybe your building we might agree. No, I am 
just joking. But the--I think that is really the debate, 
especially on this issue of groundwater; and I don't have all 
the terminologies correct, but the other type of water 
evaluations and----
    Mr. Crowley. All-pathway standards.
    Mr. Shimkus. Obviously, that is an area of debate and a 
difference.
    And, Dr. Crowley, can you talk to me about--and I think it 
was the National Academy of Sciences that said the groundwater 
issue raised by the EPA, there is no basis in science. Can you 
elaborate on that?
    Mr. Crowley.  Thank you for asking that question. I can.
    The issue of a groundwater standard, conceptually, it is 
really very difficult to understand, even for experts. So I 
took the liberty of scratching down some notes here so that I 
was very careful in how I answered the question. What I am 
going to do is, I am going to give you a short answer. Then I 
will give you a slightly longer rationale for it.
    The short answer, the reason that the groundwater standard 
is not based in science is that if you adequately protect 
people with an all-pathway standard you protect groundwater as 
a resource. In other words, you do not need a separate 
groundwater standard. Let me explain why that is true.
    Firstly, you should understand that when the National 
Academy undertook its work, the committee that was charged with 
that, the TYMS Committee,was actually charged with asking--it 
was asked to recommend standards to protect people, not 
groundwater. The TYMS Committee concluded that an all-pathways 
standard would protect people if it was set at an adequate 
level and that an additional groundwater standard was not 
needed. The committee reasoned if you protect the people with 
an all-pathway standard then at each leg of the pathway, the 
groundwater leg of the all-pathway standard, the atmospheric 
leg of the all-pathway standard would be protective.
    The phrase groundwater is a resource as EPA uses it in the 
standard. I personally interpret that to mean groundwater for 
future human use. As a resource, we are going to use it either 
now or in the future. EPA notes that future users include both 
individuals living close to and some distance from the 
repository who might use groundwater from Yucca Mountain. In 
other words, the EPA groundwater standard is also designed to 
protect people.
    EPA has proposed, as you know, to establish two standards, 
the all-pathways standard and a separate groundwater standard. 
The important things about these standards is each is really 
based upon a different level of risk. In other words, you are 
providing a different level of protection to people who might 
be exposed to radiation from a particular pathway. This really 
has very important implications because it means that for some 
radionucleides the groundwater standard actually provides more 
protection to the groundwater than an all-pathway standard 
provides to people. But this is illogical because EPA states 
that it is protecting groundwater as a resource for use by 
people. So it really doesn't make sense to provide more 
protection for groundwater than the people who consume that 
groundwater. The TYMS Committee concluded that if you set an 
adequate all-pathway standard you have protected people.
    Mr. Barton. Would the gentleman yield? Is there any 
correlation mathematically between the 15 millirem all-pathway 
standard that EPA recommends and the 4 millirem groundwater 
standard? Is there any way to compare the two standards or are 
they noncongruent?
    Mr. Crowley. I will take a swing at that, and perhaps Mr. 
Page could also take a swing at that.
    The 15 millirem all-pathways standard and the 4 millirem 
groundwater standard really have different pedigrees. They come 
from different parts of EPA. The 15 millirem standard comes 
from 40 CFR 191. The 4 millirem groundwater standard comes from 
the Safe Drinking Water Act. They are related in a very gross 
way but not in a very exact way. If you look at the details of 
the groundwater standards, you find that the different 
radionucleides within that standard provide different levels of 
protection.
    Mr. Barton. Mr. Page, you want to comment on that? I want 
to yield back to Mr. Shimkus if he----
    Mr. Shimkus. That is fine. I just don't know if I had any 
idea what he just said.
    Mr. Barton. That is why I am the chairman and you are not.
    Mr. Shimkus. Thank you, Mr. Chairman. I am done, but I want 
to ask just this one other question.
    Mr. Burr. Mr. Page, then Mr. Paperiello wanted to say 
something.
    Mr. Shimkus. That is fine. Mr. Page.
    Mr. Page. Sure. The 15 millirems all pathways is designed--
it has a risk base to it. And what it is designed to do is land 
where EPA typically carries out environmental regulations for 
hazardous waste, drinking water the 10<SUP>-</SUP>\4\, 
10<SUP>-</SUP>\6\ risk for cancer.
    Mr. Barton. And to convert, 10<SUP>-</SUP>\4\ is 1 in 
10,000 and 10<SUP>-</SUP>\6\ is 1 in a million.
    Mr. Page. Yes, sir.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Page. The 4 millirem as well, if you look at the MCLs 
and look at what they were based on back in 1975 when they were 
developed, what you have there if you look at all the 
radionucleides, all the radioactive materials that could be in 
the drinking water, they also land in that range, in that risk 
range. Most of them do. The 10<SUP>-</SUP>\4\, 
10<SUP>-</SUP>\6\. So there is the correlation that I think 
that you were asking.
    Mr. Shimkus. We are going to let Dr. Paperiello answer, but 
I want to follow up on one question. Four millirems at the 
source, 15 millirem at the faucet, is there any--is there--do 
we see an increase in radioactivity, an increase as the stuff 
gets into the groundwater, the groundwater flows toward the 
faucet? Is there a possibility of more millirems being glommed 
on as it goes downstream to make it obviously more powerful?
    My position is, you would think there would be a higher 
standard at the site because there is going to be some 
dissipation down the stream. But, in this case, you have a 
higher standard at the source and a weaker standard at the 
faucet. Is that--can I make that assumption?
    Mr. Page. Let me respond to your question. I think you are 
raising a point that was raised a lot in the comments that we 
had on our rule, and I think it is a good one.
    First of all, the 4 millirem, again, at the risk of 
belaboring the issue, the 4 millirem is the level of protection 
we offer all across the United States around hazardous waste 
site facilities' wellhead protection, that we don't want that 
amount of more than that amount going into the resource.
    Now, Congressman, you said, what about close to the site? 
How about further away? It is possible that somebody can draw 
up because of how a plume has behaved in moving downgradient 
that it is possible that you could have something show up that 
is higher away from the site than it is close to the site. 
Normally, you would expect it to dilute, et cetera, but these 
travel in plumes; and this is part of the uncertainty that has 
to be taken into account.
    The point that I would make is the--the important question 
I think that you have to ask on the 4 millirem, is it prudent, 
you know, by cost or feasibility to protect at that level? That 
has to be judged by that standard. And is it worthwhile 
offering that amount of prevention? Because as that plume moves 
down and hits the tap, the people at the tap are going to have 
to pay for the cost. If that hits there and it is over the 25 
or the 15 issues, the people have to pay the tap, have to pay 
the cost of the cleanup.
    Mr. Shimkus. I know I am way over, but if Mr. Paperiello--
and I will----
    Mr. Barton. Mr. Paperiello answer. Then we are going to go 
to the long-patient Mr. Burr.
    Mr. Paperiello, if you want to answer the question for Mr. 
Shimkus.
    Mr. Paperiello. Let me talk about the drinking water 
standard, which, of course, the commission objects to. I want 
to make something clear. It is not a 4 millirem standard. The 
MCLs are based on old science which is inconsistent with 
current science. In fact, the current science which EPA has put 
into Federal Guidance 13, the doses vary by a factor of almost 
a hundred. And, in fact, for Yucca Mountain, the MCLs, not 4 
millirem, is the standard, corresponds at the end of 10,000 
years for the most mobile isotope to a dose of two-tenths of a 
millirem per year.
    Congressman you are correct. The average background to a 
citizen of the United States is about 300 millirems from 
natural background. It can vary a lot easily, a factor of 2. 
Our standard is 25. If you use the models, the linear model of 
risk, it is in the right risk range in the National Academy.
    Mr. Barton. Can I ask you, just--if the average around the 
country is 300 millirems, do we know what the average is in the 
Yucca Mountain area? Is it 300?
    Mr. Paperiello. Congressman, we do know that. I don't know 
it off the top of my head.
    Mr. Barton. Whatever it is--and we can get that for the 
record--are these standards that we are debating today, are 
they going to be in addition to the normal background naturally 
occurring radiation that the folks are exposed----
    Mr. Paperiello. They would be additional to the normal 
background.
    Mr. Barton. So is it technically possible--let's--assuming 
that the--if the national average is 300, it is possible that 
the Yucca Mountain average is 200. So if you add 15 or 25 or 40 
or whatever, they are still going to be under the national 
average. It is also possible they could be over if it is in the 
background.
    Mr. Paperiello. Let me give you an example. I am going to 
be in Denver next week. Denver is a mile above sea level. It is 
also in the middle of the Rocky Mountains. That has been the 
typical example in radiation protection, any field of a high 
natural background where the doses are approximately a hundred 
to 150 millirem higher than what I get living in the DC area.
    Mr. Barton. So that is 450.
    Mr. Paperiello. That is right. There is no empirical 
evidence that that represents a risk to the citizens of Denver. 
I am just giving you a perspective. I know all the theory--I 
know theory. I know how to derive the risk from radiation. It 
is my field. I am just giving you a fact that the--empirically 
you don't see an effect.
    Mr. Barton. We would like to have for this subcommittee's 
record what the natural occurring background radiation is in 
Yucca Mountain. I think that is--if we are going to get into 
this millirem debate, that would be a good number to have.
    Mr. Paperiello. I will see what I can do, Congressman.
    [The response had not been received at time of printing.]
    Mr. Barton. Continue on your answer to Mr. Shimkus. Are you 
concluded with it?
    Mr. Paperiello. I just want to point out the fact that the 
groundwater standards if it were 4 millirem would be one thing, 
but it is not 4 millirem. It varies widely because of the old 
science that was used. And, in fact, for Yucca Mountain it will 
translate effectively into a two-tenths of a millirem standard.
    Mr. Barton. Mr. Burr.
    Mr. Burr. I won't even pretend that I understood everything 
that you said, but I believe I heard you to say that there is 
currently new science available, but the EPA, to set the 
standard, used old science because it made it work out in their 
behalf, is that----
    Mr. Paperiello. For a variety of reasons, they have chosen 
to stick with the old science.
    Mr. Burr. Is that common in the scientific community when 
there is new science available to revert to old science to come 
to new conclusions?
    Mr. Paperiello. In the scientific community, no. However, 
when you get into law and regulations, the time that it takes 
to change can allow old science--laws and regulations based on 
old science to remain in effect until somebody can affect a 
change.
    Mr. Burr. Clearly, the EPA is concerned with law because 
Mr. Page said in his opening statement--I didn't catch the 
whole phrase--that it was legally defensible. So, you know, I 
am sure that there is some consideration that has already been 
put to that.
    Let me move to Dr. Itkin real quick, because I am concerned 
and inquisitive on the recompete decision. It is my 
understanding that the policy says you can recompete or extend 
contracts, correct?
    Mr. Itkin. Yes. That is correct.
    Mr. Burr. Tell me where TRW has openly underperformed in 
their 10-year contract.
    Mr. Itkin. I am not going to suggest that TRW did 
underperform. There is Department policy, and also directives 
of the Congress and appropriations act, that we recompete these 
contracts when those contracts expire. And TRW had a 10-year 
contract from 1991, and their contract will expire in February 
of 2001.
    Mr. Burr. But the agency has the ability to extend that.
    Mr. Itkin. We could have extended it. We felt that there 
was no good time to do this----
    Mr. Burr. Was that the recommendation of you and your team, 
that this contract be recompeted?
    Mr. Itkin. It was the recommendation of the Department to 
do that.
    Mr. Barton. Would the gentleman yield on that point?
    Mr. Burr. I would yield.
    Mr. Barton. You gave a very careful answer to that. Now, I 
am told that it was the internal recommendation that it not be 
recompeted, that it actually be extended and that the Secretary 
of Energy overruled that, and it is the Secretary of Energy who 
made the decision against the recommendation internally to 
recompete. Have I been told correctly or have I been told 
incorrectly?
    Mr. Itkin. Let me say that there were differences of 
opinion within the internals of the Department that the--the 
decision was made by the Department, and I interpret that to 
mean the Secretary concurred in that decision.
    Mr. Barton. Was this decision made before you became--you 
obtained the position that you currently hold or----
    Mr. Itkin. No, this decision was made subsequent to my 
appointment.
    Mr. Barton. Subsequent.
    Mr. Itkin. Subsequent.
    Mr. Barton. That means after.
    Mr. Itkin. After.
    Mr. Barton. Let's talk Texan here. Mr. Burr has raised 
this. You know, sometimes we have to be a little pushy. And I 
am going to be a little bit pushy. What was your recommendation 
to the Secretary on recompete or extend?
    Mr. Itkin. I was concerned about it, but I had mixed 
feelings as to which way to go. Because, as a new person in 
this position, I was concerned about what the effects might be 
to the operation of the activity.
    Mr. Barton. You share the concerns that I expressed in my 
opening statement.
    Mr. Itkin. Yes, but I have been now feeling--after managing 
the program through the recompetition, as we go to 
recompetition, I feel that my fears were not called for.
    Mr. Barton. Before the decision was made to recompete, did 
you make a recommendation to the Secretary on recompete or 
extend?
    Mr. Itkin. There were discussions that----
    Mr. Barton. Did you make a recommendation, either verbally 
or in writing?
    Mr. Itkin. I don't remember personally making that 
recommendation to the Secretary, although there were concerns 
about recompetition.
    Mr. Barton. So you made no recommendation.
    Mr. Itkin. We basically made the--entered into discussion 
as to the pros and cons of such recompetition.
    Mr. Barton. You personally--the office that you represent 
made no recommendation. The Secretary of Energy just had to 
take--call these concerns, and then he made the decision. He 
got no recommendations, he got pros and cons, and then he made 
the decision. As opposed to you sending him a decision memo 
initially----
    Mr. Itkin. We did not send him anything in writing, as I 
recall, in terms of a formal recommendation. There may have 
been some internal discussions.
    Mr. Barton. Did anybody within the Department of Energy 
make a written recommendation to the Secretary whether to 
recompete or renegotiate--or extend?
    Mr. Itkin. One moment.
    Not to my knowledge. I am told--I checked with my deputy to 
make sure that he was not--may have been knowledgeable. To the 
best of our knowledge, there was no formal recommendation not 
to recompete.
    Mr. Barton. So there were no recommendations yes or no. It 
was simply a debate, pros and cons, and then the Secretary took 
that debate and he made the decision.
    Mr. Itkin. There was a discussion about the concerns raised 
about what recompetition might do. We also, on the same point 
looked at when we would recompete, what the problems would be 
in the future. And it was the Secretary's feeling that the 
Department should observe the departmental policy and that 
the--and also respond to congressional directives which have 
repeatedly been placed in the appropriations documents about 
going ahead and recompeting.
    Mr. Barton. I guarantee you there is no congressional 
directive to recompete this contract at this time.
    Mr. Itkin. I can't say that.
    Mr. Barton. I can say that. There is no congressional 
directive to recompete this particular contract.
    Now, we have done everything we could to direct the 
Secretary of Energy to recompete the Los Alamos contract with 
the University of California but not on this one. So when the 
Secretary is here next week, if we have a chance--it is going 
to be a broader subject, but I will ask him this question, too.
    But from all of your hemming and hawing and dodging and 
weaving and bobbing and everything, I still take it that you 
would admit if we were under oath, which we are not, this is 
not the oversight subcommittee, that it was the Secretary's 
decision to recompete this contract?
    Mr. Itkin. Let me say this, in our Department the Secretary 
is responsible for the conduct of the operation. Any decision 
made by the Department obviously is something made with his 
concurrence.
    Mr. Barton. Okay. Mr. Burr. We will give you quite a bit of 
time, since I took about 6 minutes on that.
    Mr. Burr. I thank the chairman. I probably am concerned 
more at the conclusion of the answer then I was when I 
originally asked it. Because I think what, in fact, you said to 
me, Dr. Itkin, if you are accurate, is that--do you consider 
this a major contract?
    Mr. Itkin. Oh, yes, it is a major contract.
    Mr. Burr. I consider it a major contract, too. What you 
have told me is that the Secretary didn't ask line management 
for recommendation as to whether a major contract was extended 
or recompeted. Is that an accurate depiction of what you told 
me?
    Mr. Itkin. That he asked--obviously----
    Mr. Burr. The Secretary of Energy did not ask for a 
recommendation from his line management on a major contract as 
to whether it should be recompeted or extended.
    Mr. Itkin. No, we had input in terms of--as I mentioned.
    Mr. Burr. Input is significantly different than a 
recommendation. And I have yet to find through my service as 
vice chair of the oversight committee any major contract where 
there was not paperwork involved for a recommendation.
    Mr. Itkin. Just to reiterate, there is--there was no formal 
recommendation on the part of my office to recompete or not to 
recompete.
    Mr. Burr. And it is not a fault of yours for not making the 
recommendation, but, clearly, great concern as it relates to 
the Secretary's not requesting a recommendation from the line 
management of this project, which we consider to be a major 
contract.
    Let me move to Dr. Crowley, if I could. Let me read from 
your statement and just ask you one question.
    You said, the Energy Policy Act of 1992 directed the EPA 
administrator to obtain advice from NAS on the technical basis 
for radiation protection standards; and the act further 
mandated that EPA base its standard on NAS recommendations. Did 
they base their standard on the NAS recommendations?
    Mr. Crowley.  I think the answer to that question, based on 
the report that the board did in 1999, is no.
    Mr. Burr. So the EPA has not followed the Energy Policy Act 
in its directions to the EPA administrator.
    Mr. Crowley.  That is the judgment of the Board on 
Radioactive Waste Management, yes.
    Mr. Burr. I thank you, Dr. Crowley.
    Mr. Page, your turn. What is your background? Are you a 
scientist?
    Mr. Page. No, sir, general policy background.
    Mr. Burr. You graduated from the University of Southern 
California with a masters degree in public administration.
    Mr. Page. Yes, sir.
    Mr. Burr. Why did everybody else send scientists and the 
EPA sent public relations to this hearing?
    Mr. Page. I am sorry. I didn't----
    Mr. Burr. Why is everybody else up here a scientist, Ph.D.; 
and the EPA on the issue of this technical aspect sends 
somebody with a public administration background?
    Mr. Page. I was sent because I head the Office of 
Radiation, Indoor Air. I am the senior person in the agency who 
makes recommendations to the administrator on radiation policy.
    Mr. Burr. But your background is not such that the 
technical aspects of it are something that----
    Mr. Page. The operation of my office--within the operation 
of my office, we have many people.
    Mr. Burr. I am talking about you. Do you make technical 
recommendations or do you make----
    Mr. Page. Yes, sir.
    Mr. Burr. [continuing] policy recommendations?
    Mr. Page. We are responsible for making----
    Mr. Burr. You. You. Not your office, you.
    Mr. Page. In my position, I am responsible for making 
recommendations to the administrator that are both policy and 
science based.
    Mr. Burr. Based upon what your scientists found out or 
based upon what you determine to be----
    Mr. Page. Based on the work that my scientists do at the 
scientific community. Based on other policy considerations that 
we take into account in addition to the science--cost 
effectiveness, practicality of implementation, things like 
that.
    Mr. Burr. What do you say to Dr. Crowley's statement that, 
in fact, the EPA has not followed the Energy Policy Act of 
1992?
    Mr. Page. As I said in my testimony, in most of the areas I 
think we were generally consistent with the NAS. I think, as 
their testimony pointed out, that on the matter of, for 
instance, groundwater that is a policy call. I think they were 
right in saying that EPA needed to elaborate in its final rule 
if that is where it goes on the policy aspects of that and make 
that clear, that that is a policy, not a scientific judgment.
    Mr. Burr. How many times have you been to Yucca Mountain.
    Mr. Page. One time.
    Mr. Burr. One time.
    Mr. Page. Yes, sir.
    Mr. Burr. And you have been in charge of this area of 
responsibility for how long?
    Mr. Page. A year and a half.
    Mr. Burr. How long was that trip? How long were you at 
Yucca Mountain.
    Mr. Page. We were out there a full day and got a tour of 
the facility.
    Mr. Burr. Full day.
    Mr. Page. Yes, sir.
    Mr. Burr. What was the purpose of that?
    Mr. Page. To be briefed by the Department of Energy at what 
stage they were in the process, to get familiar with the 
facility and to try to--in addition to the studies that I have 
been looking at and studying and hearing from my staff, to kind 
of hear from them directly on any concerns or issues they have 
with the facility.
    Mr. Burr. Could you accomplish that, all of that, in this 
1-day visit?
    Mr. Page. The site visit was to go through the facility and 
match up with things that I have read, diagrams that I have 
seen with the real situation.
    Mr. Burr. And from a standpoint of the individual--and I 
know the University of Southern Cal is a great school, but, 
from your background, 1 day at the Yucca Mountain, you could 
take all of the information that your scientific team has based 
their recommendations on and you could make that evaluation on 
that everything was accurate from a 1-day site visit to Yucca 
Mountain?
    Mr. Page. Mr. Burr, the site visit was intended to 
complement all of the other information that I had been 
presented and been collecting and have done over the last year 
and a half. I think you would probably be more upset with me 
had I not gone at all and sat in Washington behind a desk.
    Mr. Burr. Actually, I think that is the only reason you 
went, so you--if you were ever asked the question you could 
say, yes, sir, I have been to Yucca Mountain.
    Mr. Barton. You have been on 24 minutes, of which I took 
about 6. So I think----
    Mr. Burr. The clock was on the chairman, and he took 12. 
But I will be happy to wrap it up.
    Mr. Barton. We are going to do more than one round.
    Mr. Burr. I appreciate the chairman's indulgence on this. 
One last question.
    Mr. Barton. All right.
    Mr. Burr. Is your policy based on old science or new 
science?
    Mr. Page. Which policy are you referring to, Congressman?
    Mr. Burr. The policy as it relates to what Dr. Paperiello--
--
    Mr. Page. We are in the process right now of updating the 
MCLs, the maximum contaminant levels, for the drinking water. 
It is true that what we used for the purposes of the proposal 
was the best science that was available legally. We are in the 
process--though we were aware that the updated science is out 
there, we are in the process of updating it right now.
    Mr. Burr. I thank all of our witnesses. I am sorry I didn't 
have an opportunity to spend some time with the other ones. I 
yield back.
    Mr. Barton. The gentleman from Virginia is recognized for 7 
minutes.
    Mr. Boucher. Thank you, Mr. Chairman.
    I want to inquire concerning another area; and, Dr. Itkin, 
I suppose this question should be directed to you. In the 1982 
act, a requirement was made that the Federal Government begin 
to accept nuclear waste from the utilities beginning in 1998. 
Obviously, that didn't happen; and the utilities have filed 
suit. The U.S. Court of Appeals has held that the contract that 
DOE entered into with the various utilities pursuant to that 
statute to accept the waste was, in fact, breached; and now the 
Court of Claims is considering the damages that will be 
awarded. And I have got two questions about that.
    First of all, are these damages going to be significant, in 
your opinion? What do you think the size of the damages will 
be? And that question is important because of the second 
question. And that is, from what source will these damages be 
paid?
    The Federal Government has a judgment fund that is 
administered by the U.S. Department of Justice that is 
available for the payment of judgments against the United 
States. However, in the contract that was entered into between 
DOE and the utilities, under the terms of which DOE obligated 
itself to accept this waste, there are specific provisions that 
relate to any penalties that are assessed or damages that rise 
from a breach of the contract. And in those clauses the 
contract says that the utility is entitled to realize its 
damages by deducting its future payments under the waste 
management fund. So, in other words, if the utility is entitled 
to money from the government, it can recover that by just not 
paying its future obligations into the waste management funds.
    So we create a cycle through this. If this becomes the 
means by which the utilities are compensated, you wind up with 
a worsened problem with the perpetual inability of DOE to 
prepare the site and--because it doesn't have the funding to do 
it and then further claims by the utility being filed with 
that. I think that is a troubling potential scenario.
    So my two questions to you are, first of all, how 
significant are these damages likely to be? And, second, given 
the two potential funds that the government might use to pay 
those damages, what is your prediction of which it is going to 
be? Will it be the government's judgment fund or it will be 
this precise clause in the contract that would result in the 
waste management fund being reduced as a consequence of the 
damages?
    Mr. Itkin. Congressman, I will try to answer that question.
    The first question that you asked was on our failure to 
realize the provision of the contract on starting to accept the 
waste in 1998 if--and this is just very, you know, back of the 
envelope calculations in terms of what it might cost in the 
aggregate, you know. Looking at every utility, not just the 
ones that have sued us or utility by utility, it is going to be 
significant. It will probably run in the range of--for every 
year delay it probably could range a few hundred million 
dollars, which can add up, as you know, into substantial sums 
of money, into billions.
    Mr. Boucher. This is the total of all of the claims.
    Mr. Itkin. The total. We assume that whatever judgment is 
awarded, whatever claim is awarded to one will probably be 
replicated to the others in a similar fashion. So----
    Mr. Boucher. All of those taken together would be----
    Mr. Itkin. All of those taken together, we are talking 
about a few hundred million dollars a year. Which means to me, 
as I have characterized it, as rent. It is almost where we have 
bought the new home, and we are paying the mortgage, but we 
can't get into the new home, and we are still paying the 
landlord rent.
    It is an unfortunate circumstance which I would like to 
correct, and the easiest way of correcting it is to move as 
expeditiously as possible. We can, using--you know, making good 
determinations; and that is why I have asked Congress to fully 
fund our program this year. And with respect to an earlier 
comment, by 2003 is when we have to ramp up substantially in 
terms of the dollars we need. So that will have to be done.
    The second question, about who will pay or where will the 
money come from, you have correctly, I guess, determined that 
there are two possible sources. One is the nuclear waste fund, 
and the other one is the judgment fund. Since the Department of 
Justice will be making that decision, allow me the liberty of 
assuming that--out of whose pocket the Department would want 
that--Justice Department would want to take the money from. I 
am assuming that whatever liability we have will come out of 
the nuclear waste fund, not the judgment fund, although that is 
not a determination that I will be making. I am just assuming 
the bias that might occur on the part of the agency that will 
make that decision.
    Mr. Boucher. Well, if the funding comes out of the nuclear 
waste fund in any manner----
    Mr. Itkin. What will probably happen is that if there is an 
adverse ruling, the judgment fund will pay it first, and then 
the Department of Justice will seek to have the waste fund 
repay the judgment fund for the amount of money that the 
judgment--the check will be originally cut from the judgment 
fund, and the judgment fund will seek recompense from the 
nuclear waste fund.
    In order to probably deal with this in an orderly and 
responsible fashion, we will probably seek to work with the 
utilities in terms of offering credits on what is to be paid up 
in the future.
    Mr. Boucher. Well, then do you get yourself into this 
syndrome that I described earlier where this rent that you then 
deduct from their future payments into the fund winds up 
diminishing even further your ability to prepare the site and 
therefore multiplies the number of claims in the damages and 
eventually you find yourself without the financial ability to 
go forward? I mean, is that a potential outcome?
    Mr. Itkin. Well, yes, it is a concern but--and we have 
looked at the projected income to the fund, and we have made 
some, you know, obviously some assessments as to what this 
might cost us, and we feel at this particular time we can 
accommodate it. But, obviously, I am not privy to, you know, a 
court of claims determination. I don't know what they will do. 
We are seeking to work with utilities in terms of arranging to 
deal with this problem out of court if we can.
    Mr. Boucher. Have all of the utilities that have nuclear 
facilities and with regard to whom you are currently under 
contract to accept their waste filed claims against you?
    Mr. Itkin. No, that is--they have not, not all have.
    Mr. Boucher. Are you anticipating that those that have not 
will eventually file claims? When you characterize this as 
basically a rent, it is kind of an open invitation for them, 
isn't it?
    Mr. Itkin. I would think that every utility would want to 
adjudicate its additional costs either with the Department 
directly or, as you indicated, by suing us in court. But we are 
hoping that we can be able to sit down and work with the 
utilities. After all, we--utilities want us to get along with 
our business. It is in their best interest for us to move this 
whole process along expeditiously, and I think they recognize 
that some of--some of them recognize, at least the operating 
ones, the ones that have a future, recognize that this is 
something that they would like to work out with us 
collectively.
    Mr. Boucher. So to summarize this discussion, your opinion 
is that the nuclear waste fund is going to have the ultimate 
financial liability for the damages that the utilities are 
claiming, even if the judgment fund has the first 
responsibility, is that correct? That ultimately the 
responsibility will rest with the nuclear waste fund.
    Mr. Itkin. It has been an opinion of mine. It is not 
legally binding. It is just you asked for my thoughts, and I 
presented you as I honestly believe the way it could happen.
    Mr. Boucher. My concern then is that at the time that the 
fund was structured and this one bill per kilowatt fee that 
creates the fund was established, I don't think that it was 
contemplated that the fund was going to have to be responsible 
for several hundred million dollars per year in payments to 
utilities because of the breach of the government's contract to 
accept the waste in a timely way. And if this fund is going to 
have to bear that financial responsibility, I really would 
question whether the fund is going to be adequate.
    Even if you get the whole thing--if Mr. Barton and I are 
eventually successful in having the Congress that grants the 
fund to you, I question whether it is going to be sufficient, 
given the fact that these costs are going to multiply. They are 
going to reach more than a billion dollars by that arithmetic, 
easily. Aren't you concerned?
    Mr. Itkin. I am concerned. I mean, I don't want to move 
over this lightly. Obviously, if we could have prevented this 
from happening, we would. Simply, we could not pick up the 
spent fuel from these commercial facilities because we had no 
place to put it.
    Mr. Boucher. I think, at minimum, this discussion 
underscores the importance of getting the full fund into your 
hands and making sure that you have access to it at the 
earliest possible time.
    Mr. Chairman, I think it is yet another argument in support 
of legislation that we are trying to process that would achieve 
that result.
    Mr. Itkin, thank you. I appreciate your responses.
    Mr. Barton. The chairman is going to recognize himself for 
7 minutes. Before Mr. Boucher leaves, I want to get this on the 
record.
    We have had informal discussion up here. The Energy and 
Water appropriation bill is going to be on the floor next week. 
Under the rules that we operate in the House, any Member can 
offer an amendment. It is an open rule. And I am prepared and 
Mr. Boucher is at least prepared to discuss the possibility of 
an amendment that would restore your $26 million request to get 
you full funding for the coming Fiscal Year.
    But--and I am just speaking for myself--I am not willing to 
do that unless the Department of Energy is willing to work with 
us to find an offset within the Department's budget. In other 
words, so it is in order under our rules. I can say to add 
$26.6 million to this particular program, but I have to have an 
offset for it. I am willing to do that, and I think Mr. Boucher 
is willing to at least consider doing that in a bipartisan 
fashion. But at least I am willing to do that if you call me 
pretty quick and say we want the $26 million to come from A, B, 
C or A or A and B or an across-the-board cut in the 
discretionary programs under the Department's permission.
    Mr. Boucher. Would the gentleman yield to me?
    Let me say that I think it is a worthwhile endeavor, and 
what we are offering to you today is an opportunity, and that 
is our shared willingness to go to the floor of the House and 
offer this amendment. But we are going to need the help of the 
Department of Energy in suggesting to us the offset for the $26 
million that would bring your appropriation up to the level of 
your request. I am not sure it is actually 26. It looks like--
is it 26?
    Mr. Barton. It is 413, 437.
    Mr. Boucher. So it is an opportunity. What you might do as 
a practical matter is go back and have some other conversations 
with DOE about it and just see if it is the policy of DOE to 
fully fund this program perhaps at the expense of some others. 
And if a consensus can be arrived at that to do that, we are 
happy to help. But we are going to have to hear back from you. 
We are going to need to hear from you pretty soon if you want 
to do it.
    Thank you, Mr. Chairman.
    Mr. Barton. Do you understand what we are saying? We are 
going to get you $26 million if you can show us where to get it 
from.
    Mr. Boucher. He has had more years in the legislative body 
than you or I.
    Mr. Itkin. Somebody has to pay within the Department for 
the $26 million we need. I can certainly inquire, but I am not 
in a position to make the call. But thank you very much for 
your offer to help. I wish it was more encompassing than just 
the Department.
    Mr. Barton. We have to work within the framework of the 
appropriations cycle. We want to get you your money. But since, 
you know, this is Energy and Water we think it is only fair 
that it come from other Department of Energy funds. At least, I 
think it is only fair. But think about it. If you want to 
pursue that, let my personal staff or committee staff know. We 
will get to work on it.
    Mr. Itkin. Thank you very much for, at least, the help.
    Mr. Barton. With the offer.
    Mr. Itkin. The offer to help.
    Mr. Barton. Let's be honest. We have not helped.
    Mr. Itkin. I understand your offer, but there is no 
commitment that it would work. You would offer an amendment.
    Mr. Barton. I think if Rick Boucher and Joe Barton offered 
the amendment in a bipartisan way and we would say that the 
Department of Energy supported it, I think it would pass.
    Mr. Boucher. I agree with that.
    Mr. Itkin. I understand. Thank you.
    Mr. Barton. Now I am going to ask my questions.
    Mr. Page, I hate to belabor this, but I am going to belabor 
it a little bit. I am going to read you some statements and 
tell me if you have ever heard of the statement and, if you 
have heard of it, who made it. These are direct quotes.
    This is on the proposed EPA groundwater standard. ``It is 
redundant and unnecessary for the protection of public health 
and safety.'' Have you ever heard of that?
    Mr. Page. I have heard of that.
    Mr. Barton. Do you know who said that, what agency said 
that?
    Mr. Page. Might have been the National Academy of Sciences.
    Mr. Barton. That is a pretty good guess, but if that is 
your final answer, that is not the right guess. That was made 
by the Department of Energy. I don't know if Dr. Itkin made 
that.
    Now let me read you another one, again on the EPA proposed 
groundwater standard: ``Would result in non uniform risk 
levels. They misapplied the maximum contaminant levels for 
radionuclides and they far exceeded what is needed for the 
protection of public health and safety.'' Have you heard that?
    Mr. Page. I have heard that.
    Mr. Barton. You want to make a guess?
    Mr. Page. I am not going to take that bait. I know somebody 
made that----
    Mr. Barton. That is the Nuclear Regulatory Commission that 
went on the record in a comment period and said that.
    One more. ``EPA's proposal to include a separate 
groundwater standard lacks a sound scientific basis and will 
add little, if any, additional protection to individuals or the 
general public from radiation releases from the repository.'' 
Have you heard that?
    Mr. Page. I have heard that. Yes, sir.
    Mr. Barton. That comes from the National Academy's Board on 
Radioactive Waste Management.
    [The material referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5916.001
    
    [GRAPHIC] [TIFF OMITTED] T5916.002
    
    [GRAPHIC] [TIFF OMITTED] T5916.003
    
    [GRAPHIC] [TIFF OMITTED] T5916.004
    
    [GRAPHIC] [TIFF OMITTED] T5916.005
    
    [GRAPHIC] [TIFF OMITTED] T5916.006
    
    [GRAPHIC] [TIFF OMITTED] T5916.007
    
    [GRAPHIC] [TIFF OMITTED] T5916.008
    
    [GRAPHIC] [TIFF OMITTED] T5916.009
    
    [GRAPHIC] [TIFF OMITTED] T5916.010
    
    [GRAPHIC] [TIFF OMITTED] T5916.011
    
    [GRAPHIC] [TIFF OMITTED] T5916.012
    
    [GRAPHIC] [TIFF OMITTED] T5916.013
    
    [GRAPHIC] [TIFF OMITTED] T5916.014
    
    [GRAPHIC] [TIFF OMITTED] T5916.015
    
    [GRAPHIC] [TIFF OMITTED] T5916.016
    
    [GRAPHIC] [TIFF OMITTED] T5916.017
    
    [GRAPHIC] [TIFF OMITTED] T5916.018
    
    [GRAPHIC] [TIFF OMITTED] T5916.019
    
    [GRAPHIC] [TIFF OMITTED] T5916.020
    
    [GRAPHIC] [TIFF OMITTED] T5916.021
    
    [GRAPHIC] [TIFF OMITTED] T5916.022
    
    [GRAPHIC] [TIFF OMITTED] T5916.023
    
    [GRAPHIC] [TIFF OMITTED] T5916.024
    
    [GRAPHIC] [TIFF OMITTED] T5916.025
    
    Mr. Barton. So it doesn't appear to me that there is a lot 
of support out there among the groups that have shared 
responsibility or have at least an interest in this issue, 
supporting the separate standard. And in the face of this, I 
mean, this isn't a Congressman that is out to make a political 
statement. These are on-the-record comments by official 
agencies of the U.S. Government that have the scientific and 
technical background to comment on this proposed separate 
groundwater standard. Given that, wouldn't it be at least 
possible for EPA to consider going back to an all-pathway 
standard and to back away from this separate groundwater 
standard?
    Mr. Page. Mr. Chairman, we will be discussing that in the 
interagency process. I think you have in this hearing correctly 
identified the scientific concerns with the groundwater 
protection policy that EPA proposed. There are other reasons, 
other policy issues. That is coming up in terms of discussion 
across the agencies as to why that was done, what the rationale 
is for it; and, yes, it will be considered or reconsidered, 
yes.
    Mr. Barton. Now, Mr. Burr talked about in his questions 
that the science on which the 4 millirem groundwater standard 
is based is old science. Sometimes old is good. Old is not 
necessarily bad. I am 50, and I think old is good. But 
sometimes, in the scientific arena, old is not automatically 
good. You mention that there is a revision under way in the 
science. When do you think that might actually come to 
fruition, that you will have new data on which to look at 
groundwater standards?
    Mr. Page. That is handled by another office. I can't say 
exactly when.
    Mr. Barton. Within EPA.
    Mr. Page. Yes, sir, within EPA. My sense is that this would 
be looked at and revised prior to any final decisions on Yucca, 
the licensing.
    Mr. Barton. Within the next year, next 6 months? Give us 
some--you are not under oath.
    Mr. Page. I understand that.
    Mr. Barton. No danger here.
    Mr. Page. I know in discussions that we have had internally 
that the Office of Water is aware of the need to update this. 
They are aware of what the concern is as--specifically as it 
pertains to Yucca Mountain, and they have committed to getting 
that under way. I have not seen it, I am sorry to say. I can 
get back to you as to when that might be, but I have not seen 
what their schedule is.
    Mr. Barton. Dr.--I may say your name wrong--Knopman. I got 
it right then. You have been very quiet in this whole thing. 
But you represent the Technical Review Board, and you actually 
have a background, as I understand it, in some of this 
scientific area that is under discussion. What would your 
committee's recommendation be that you serve on today as to the 
need for a separate groundwater standard at Yucca Mountain? I 
think you all are on record that you don't need that separate 
standard, but I want to give you a chance to correct me if I am 
wrong about that.
    Ms. Knopman. Thank you, Mr. Chairman. I didn't mean to be 
quiet; nobody called on me.
    Mr. Barton. In this kind of a group, you have got to stand 
up. You can't just be shy and retiring or they will never let 
you talk.
    Ms. Knopman. I am not shy and retiring.
    The Board is very careful to stay on the side of technical 
judgment as opposed to policy judgment. So the Board has not 
made a statement on the appropriateness of including a separate 
groundwater standard. The Board, however, from a technical 
perspective, does believe that we need a better understanding 
of what the background levels are at the Yucca Mountain site.
    Mr. Barton. The natural background.
    Ms. Knopman. The natural background levels. And it is also, 
I guess, somewhat a matter of debate now as to what kinds of 
levels of dilution might occur in the saturated zone, the 
groundwater that would be likely to be tapped into as a 
resource. The assumptions made about how much dilution there 
might affect whether or not that standard--how that standard 
might be met or not. However, the Board has stayed out of this 
question as it is, in the end, a policy judgment.
    Mr. Barton. But doesn't the Board, if not have an 
obligation, wouldn't they want to take a position? Because, you 
know, some of these things are political. I mean, the Nevada 
delegation, they are going to be against it for political 
reasons. The industry--the private utility industry that has 
the waste stored all over the country, they are generally going 
to want to be for it just to get it solved. But it is the 
technical--the country, you know, puts faith in the technical 
experts. When we talk about science, it is assumed that 
scientists are not political, that scientists are purely 
objective, that scientists only make decisions based on hard 
facts. And you know that is not true. Scientists can be very 
political.
    But in this case the Technical Review Board is tasked with 
being the least political of the group. So if we are going to 
have a scientific debate about separate groundwater versus all 
pathways, I would think the Technical Review Board position 
would be listened to and given great credibility by all sides.
    Ms. Knopman. The Board is, I would say, is most concerned 
about what is the practical difference between an all-pathways 
standard and a separate groundwater protection standard. In the 
context of the overall uncertainty of our estimates, we are 
talking about a 10,000 year compliance period. The difference 
between 25 millirem, for example, on the individual pathways 
standard and the 15 millirem is insignificant relative to the 
overall uncertainty in our estimate.
    Mr. Barton. I agree with that.
    Ms. Knopman. So the question is, how close does a 4 
millirem separate groundwater standard end up coming within 
that same range of or order of magnitude as the individual 
pathways? The Board will need to, I think, do further analysis 
to understand better the point that Dr. Paperiello made about 
how that standard in fact translates at the 10,000 year level, 
but we have not at present undertaken such analysis.
    Mr. Barton. Let me ask you one more question. Then I will 
go to Mr. Shimkus.
    Has the Technical Review Board taken a position on whether 
you should have a repository that cannot be reopened, that the 
material cannot be retrieved, versus a repository that if the 
technology changes, if there is a scientific breakthrough, you 
could go in and a hundred years from now or 200 years from now 
or 500 years from now use the best science available at the 
time to control this material?
    Ms. Knopman. I think the board has operated on the 
assumption that virtually any kind of repository will be--waste 
would be retrievable. It is just a matter of the degree of 
difficulty.
    Mr. Barton. The current proposal, though, is that it is 
not.
    Ms. Knopman. It is a matter of difficulty. You would mine 
it out. It might be very hard.
    But the Board has spoken before on the need for flexibility 
in designs and the need for performance confirmation testing, 
which means that even if a decision is made to proceed with 
this, with construction and with placement of waste, that there 
be continuous monitoring, particularly in the time----
    Mr. Barton. You see, I have made comments to local 
officials in Nevada that I think we should have the flexibility 
that if we can find better science, find better ways to 
monitor, whatever we can do that, build that in. So the bill 
that is going to come out of the subcommittee next year, if I 
am the chairman still, is going to put that flexibility back 
in, as opposed to the current situation where we put in there 
we lock it up, we post it and we walk away from it. So that 
might be something to have your board take a look at.
    Ms. Knopman. It continues to be an open question as to how 
long the repository would stay open. I believe the document did 
assume a 50-year closure period or that the repository would be 
closed after 50 years. I am not sure that----
    Mr. Barton. We want to limit--don't misunderstand me. We 
want to limit the amount of material that is in this 
repository. We don't want to leave it open-ended that you could 
put more material. But to satisfy the concerns that 
Congresswoman Berkley had, you know, you can't have absolute 
certainty for 10,000 years, but you should be able to build in 
flexibility so if we could figure out a better way to maintain 
it, dispose of it, to control it, we ought to have the ability 
to use the best available technology a hundred years from now, 
200 years from now, whatever. That is my only point.
    The gentleman from Illinois.
    Mr. Shimkus. Thank you, Mr. Chairman.
    I just stepped out of the room to call my chief of staff to 
see if it was--to get his recommendation whether I would be 
able to stay around for a second period of questioning. He gave 
me a recommendation. He said yes. The schedule looks like you 
can do it. No one is at the door.
    And, Dr. Itkin, you need to get better at this business. I 
think most of us find it very incredulous that something as 
important as a humongous, large contract--that the person in 
charge did not give a yes or no, I support this. And I don't 
know--and I don't think anybody in this room believes that you 
did not give a yes or no--yes, I support them; or, no, I don't. 
So, I would just respectfully request next time, when we review 
this again, that we fully vet out this and--and there is 
responsibility.
    It was just a very bad display of the worst problems of 
bureaucracy is no one wants to be held accountable or 
responsible.
    Mr. Itkin. Congressman, if I may respond, because since 
we--I gave my response, I have since learned that, in fact, 
there was a memorandum written prior to my----
    Mr. Shimkus. We thought there would be.
    Mr. Itkin. What I am saying is I did not know. I learned 
now there was a memorandum written several months before my 
arrival that was from my office and my deputy, recommending a 
10-month delay in the recompete. And if I could yield, if it 
would be appropriate, I could yield to the person who served as 
the acting director during that time period.
    Mr. Shimkus. I will let the chairman--I have some important 
questions that I want to get on to for the record. That 
satisfies my line of questions and I am glad that we were able 
to go through the paperwork and get an answer to that question, 
unless the chairman wants to jump in here.
    Mr. Barton. I was actually in a staff consultation.
    Mr. Itkin. I just want to advise the Chair that since we 
had that conversation on the decision on the recompete, I have 
been told that prior to my arrival at the Department, that--in 
this position--that there was a memo written to the Secretary 
from the previous director, acting director, to recommend a 10-
month delay.
    Mr. Barton. Ten month delay in recompeting the contract?
    Mr. Itkin. Yes, recompeting the contract. As a matter of 
fact, if I might, may I allow my deputy who served as the 
acting director to comment at this time?
    Mr. Barton. I tell you what, let's let Mr. Shimkus get all 
of his questions. I will come back on that because I have a few 
more questions on that point. So if we will just delay until 
Mr. Shimkus gets his questions in, and you will have more than 
adequate opportunity, and I will give you some other 
opportunities to comment on that.
    Mr. Shimkus. Thank you, Mr. Chairman. The scientific 
community that is present here, do we accept the initial 
premise of the storage site that it would be a permanent 
geological repository? And if we could go down the table. 
Obviously, that was put into question by our previous panel. I 
would like for you all representing the different agencies and 
scientific community--is the premise still a permanent 
geological repository?
    Mr. Paperiello. That is the Commission's position, a 
permanent geological repository.
    Mr. Shimkus. Thank you. Dr. Itkin?
    Mr. Itkin. That is the position of this administration.
    Mr. Shimkus. Great. Dr. Knopman?
    Ms. Knopman. The Nuclear Waste Board oversees the work of 
the Department of Energy, and if they are working on a 
permanent repository, so are we. And I would just add, though, 
that a permanent geologic repository is largely an 
international consensus among many other countries that have 
nuclear waste and are also pursuing this.
    Mr. Shimkus. Thank you. And again, that is the importance 
of coming and that is new information that I did not know. Mr. 
Page?
    Mr. Page. Yes, sir, the standard that EPA will be 
developing will be assuming that it is a permanent repository.
    Mr. Shimkus. Dr. Crowley?
    Mr. Crowley. The Board of Radioactive Waste Management has 
looked at aspects of the Yucca Mountain repository in the past 
and it is the Board's understanding that the DOE is working 
toward a permanent repository.
    Mr. Shimkus. If I have time I may go back to that, but I 
want to ask another question. Based upon the history of the 
transportation of nuclear waste currently, is it the scientific 
community's view that it can be done safely today?
    Mr. Paperiello. Yes.
    Mr. Shimkus. Dr. Itkin?
    Mr. Itkin. Yes.
    Mr. Shimkus. Dr. Knopman?
    Ms. Knopman. Yup--yes, there have been.
    Mr. Shimkus. I like ``yup.'' That is a better one.
    Ms. Knopman. There have been numerous analyses that have 
showed low levels of risk under both normal and accident 
conditions. The safety record has been good to date and 
corroborates the low risks. And there has been fuel shipped 
safely for many decades.
    However, that does not mean the transportation problem is 
done with. There are lots of issues relating to emergency 
response and management and coordination and some further 
testing that the Board has recommended.
    Mr. Shimkus. Before I go to Mr. Page, I would have a little 
comment. I think Congress understands the need to help local 
communities be prepared to respond, and this whole 
appropriation issue and the transportation issue is up for 
debate. But I appreciate that response. Mr. Page?
    Mr. Page. We believe it can be done safely with the 
proper----
    Mr. Shimkus. Dr. Crowley.
    Mr. Crowley. The national academy doesn't have a position 
on that, but in fact it is being done safely today.
    Mr. Shimkus. Mr. Chairman, I would like to go one more, but 
I will defer if we are out of--Dr. Knopman, in the discussion 
you mentioned about the science and the possibility of the 
dilutions of the rem standard, but I did not hear you talk 
about what Mr. Page had mentioned was a possibility of a re--my 
terminology is poor and I apologize for that--but the 
reconcentration of that, of a larger millirem than the initial 
position. Is that scientifically possible? Is that a criteria 
that is accepted in the scientific community?
    Ms. Knopman. What is--the dilution is the direction in 
which the plume and the concentration of radionuclide would 
proceed. However, what Mr. Page was referring to is that 
depending on how the radionuclides are transported in the 
groundwater system, they may remain in fairly concentrated 
plumes even at significant distances from the repository 
itself. So if you happen to stick a well right into one of 
these concentrated areas of the plume downstream, you would get 
a higher concentration than you might closer to the repository, 
but where there has been more dispersion.
    Mr. Shimkus. I will finish up with this. Is the real 
debate, Dr. Itkin, on this millirem standard, the fear of 
because of the higher standard, there is going to be an 
increased cost to the facility which, based upon all the 
budgetary constraints that the ranking member mentioned, could 
astronomically increase the already tremendous cost burden to 
the taxpayers, that through the rates have done to provide this 
location?
    Mr. Itkin. Well, that is a concern, that anytime you have a 
very difficult standard to meet, that you have to provide 
additional barriers, additional protections to guarantee that 
to occur. And so, yes, there are additional costs associated 
with very demanding standards.
    But more of a concern, or at least equal or a greater 
concern, is the fact that if we have a zero tolerance for 
leakage, we probably cannot succeed here with the licensing 
process. And so it would be a killer.
    Mr. Shimkus. Thank you, Mr. Chairman, I yield back.
    Mr. Barton. Thank you. This is going to be the last 
question period because we have two pending votes on the floor 
and you all have been here for 3\1/2\ hours, so we will let you 
go pretty quick. The first thing I will do is ask unanimous 
consent to include in the record a letter from the Health 
Physics Society dated November 24, 1999, and it is to the 
United States Environmental Protection Agency. And I am told 
this has been cleared by the minority. So I am the only one 
here so I am not going to object. But obviously, we are not 
going to do anything that is not in good faith with the 
minority.
    [The information referred to follows:]

                                     Health Physics Society
                                                  November 24, 1999
United States Environmental Protection Agency
Central Docket Section (6102)
ATTN.: Docket A-95-12
U.S. Environmental Protection Agency
401 M Street, SW
Washington, D.C. 20460-0001

SUBJECT: The Health Physics Society's Comments on Environmental 
        Radiation Protection Standards for Yucca Mountain, Nevada; 
        Proposed Rule

    Dear Sir or Madam: On behalf of the Health Physics Society (HPS), 
of which I am President, I am writing with comments and recommendations 
regarding Environmental Radiation Protection Standards for Yucca 
Mountain, Nevada, 40 CFR Part 197, promulgated in Federal Register Vol. 
64, No. 166, August 27, 1999. These comments and recommendations were 
prepared by the Society's Legislation and Regulation Committee.
    The HPS is a professional organization of approximately 6,000 
scientists, educators, engineers, and operational health physicists who 
are dedicated to developing, disseminating, and applying scientific 
knowledge of, and the practical means for, radiation safety. The 
primary objective of the Society is to protect people and the 
environment from potentially harmful exposure to ionizing radiation. 
The Society concerns itself with understanding, evaluating and 
controlling the potential risks from radiation exposure relative to the 
benefits derived.
    The Society's working principle is to keep radiation exposures from 
justified ``beneficial'' practices as low as is reasonably achievable. 
This basic tenet of radiation safety has resulted in an exceptional 
history of safety and will continue to do so as we address the 
important issue of high level radioactive waste (HLW) in the Yucca 
Mountain repository.
    In this context, the HPS appreciates the opportunity to comment on 
the United States Environmental Protection Agency's (EPA) ``Standards 
for Yucca Mountain, Nevada; Proposed Rule''. The HPS believes that 
these standards are precedent-setting and likely to have profound 
impacts on future activities and standards, not only for radioactive 
waste, but also for non-radioactive hazardous materials. The HPS also 
believes that promulgation of the Yucca Mountain Standard (40 CFR Part 
197) is fundamental to helping resolve some of the public safety issues 
being encountered at our nation's nuclear power reactors. With the 
operation and decommissioning of commercial nuclear reactors, a final 
repository for spent fuel and other HLW is vital to the public safety 
and health from existence of the nuclear fuel cycle. Numerous 
stakeholders have proposed that allowing indefinite storage of spent 
nuclear fuel at operating and decommissioned facilities is an option. 
However, the HPS believes that such an option avoids, rather than 
offers a solution to the HLW disposal issue. In addition, it ignores 
the legal obligation of the federal government to take possession of, 
and provide for safely disposing of spent nuclear fuel, not only from 
nuclear power reactors, but also from our national defense program.
    For these reasons, the HPS encourages the EPA to move forward 
expeditiously with issuing 10 CFR 197 as a final rule. However, we urge 
the EPA to consider changes to its proposed rule, as discussed below, 
to ensure that the final rule is:

1. focused on protection necessary for public health and safety;
2. consistent with applicable recommendations of relevant national and 
        international scientific advisory organizations; and
3. in full compliance with statutory requirements.
    The HPS believes that the proposed use of a separate ground-water 
protection requirement is: 1) not necessary to ensure protection of 
public health and safety, 2) inconsistent with applicable 
recommendations of scientific advisory bodies, and 3) contrary to 
statutory requirements.
    Including a separate ground-water provision will detract from the 
rule's primary purpose and focus on public health and safety. A limit 
on dose received by an individual from all exposure pathways, as 
included in the proposed rule, is fully protective of public health and 
safety. The EPA's stated purpose for use of a separate ground-water 
provision, i.e., to protect ground water as a resource, does not meet 
the purpose of the regulation, which is ``protection of the public from 
releases to the accessible environment from radioactive materials 
stored or disposed of in the repository.'' \1\
---------------------------------------------------------------------------
    \1\ From Section 801 of the Energy Policy Act of 1992.
---------------------------------------------------------------------------
    The proposed provision for groundwater protection utilizes maximum 
contaminant levels (MCLs) from EPA regulations implementing the Safe 
Drinking Water Act. The MCLs for radionuclides proposed for use in the 
rule are generally based on an outdated and superceded scientific 
understanding of radiation risk. The MCLs implied in this rule equate 
to a wide range of dose values (ranging over more than two orders of 
magnitude), that will be considerably more restrictive in some cases, 
and considerably less restrictive in others cases, than the proposed 
all-pathways individual dose standard. Therefore, the use of the MCLs 
will effectively over-ride the individual dose standard that is the 
essential element of the proposed rule.
    The use of a separate ground-water provision is not consistent with 
the recommendations of the relevant national and international 
scientific advisory organizations, including the National Council on 
Radiation Protection and Measurements (NCRP), the International 
Commission on Radiological Protection (ICRP), and the International 
Atomic Energy Agency (IAEA). As endorsed by the EPA's Presidential 
Guidance of 1987, these organizations unanimously endorse the use of 
individual dose limits, taking into account all exposure pathways, to 
assure protection of public health and safety. Further, the use of a 
separate groundwater provision ignores the recommendations of the 
National Academy of Sciences (NAS) committee that was established by 
statute to make recommendations on the scientific basis for a 
protective radiation standard for the Yucca Mountain repository. The 
NAS committee specifically did not use a separate groundwater provision 
because the committee ``based our recommendations on those requirements 
necessary to limit risks to individuals.'' \2\
---------------------------------------------------------------------------
    \2\ ``Technical Bases for Yucca Mountain Standards,'' National 
Research Council Committee on Technical Bases for Yucca Mountain 
Standards, National Academy Press (Washington, DC 1995)
---------------------------------------------------------------------------
    Finally, the proposed use of a separate groundwater provision is 
contrary to statutory requirements. The Energy Policy Act of 1992 
requires that the EPA ``shall, based upon and consistent with the 
findings and recommendations of the National Academy of Sciences, 
promulgate, by rule, public health and safety standards for protection 
of the public [that] . . . shall prescribe the maximum annual effective 
dose equivalent to individual members of the public . . . and shall be 
the only such standards applicable to the Yucca Mountain site.'' The 
NAS committee found that a health standard based upon doses to 
individual members of the public will provide a reasonable standard for 
protection of the health and safety of the general public. Therefore, 
the use of a separate groundwater standard, as proposed by the EPA, 
would be in direct conflict with the statutory requirement that an 
individual dose standard be the only such standards applicable to the 
Yucca Mountain site.
    The HPS believes that a 250 <greek-m>Sv (25 mrem) all-pathways 
individual dose standard will be fully protective of public health and 
safety and is consistent with recommendations of relevant scientific 
advisory organizations and national and international regulations.
    In its request for public comment, the EPA has noted that ``. . . 
some countries have individual protection limits higher than we have 
proposed [and] other Federal authorities have suggested higher 
individual dose limits with no separate protection of ground water.'' 
The EPA has requested comments specifically on the use of an annual 
Committed Effective Dose Equivalent (CEDE) limit of 250 <greek-m>Sv (25 
mrem), rather than the proposed annual CEDE limit of 150 <greek-m>Sv 
(15 mrem).
    International and national scientific advisory organizations, 
including the NCRP, ICRP, and IAEA, have recommended an annual limit of 
1,000 <greek-m>Sv (100 mrem) Effective Dose Equivalent (EDE) as 
suitably protective to members of the public from exposure to all non-
medical, man-made sources combined. (The EDE is inclusive of the CEDE). 
As stated earlier, this recommendation has been endorsed in 
Presidential Federal guidance as proposed by the EPA, and has been 
adopted in federal regulations.
    A 250 <greek-m>Sv (25 mrem) CEDE standard for Yucca Mountain would 
represent a small fraction of the nationally and internationally 
accepted annual limit of 1,000 <greek-m>Sv (100 mrem) EDE and is 
consistent with the source-specific limits in other Federal 
regulations, as well the regulations of many other countries. It also 
represents a small fraction of the average exposure of 3,000 
<greek-m>Sv (300 mrem) per year received by members of the general 
population in the U.S. from background radiation. For these reasons, 
the HPS believes that a 250 <greek-m>Sv (25 mrem) standard for Yucca 
Mountain is fully protective.
    The justification provided by the EPA for proposing an annual CEDE 
limit of 150 <greek-m>Sv (15 mrem) is not convincing. The EPA states 
that it is based upon a review of various guidance, regulations and 
standards, as well as the NAS report. However, the majority of the 
references cited include an EDE of 25 mrem. Further, the EPA compares 
the proposed standard for Yucca Mountain with the 10 mrem per year 
limit in the National Emission Standards for Hazardous Air Pollutants 
(NESHAPS). However, the NESHAPS are used to regulate emissions from a 
large number of existing sources that represent actual exposures to the 
general population of the U.S., while the Yucca Mountain standard will 
be used to set an upper bound for analysis and assessment of 
hypothetical exposures to a postulated group of individuals over the 
next 10,000 years.
    The EPA clarifies that the existing 25 mrem per year limit for the 
Uranium Fuel Cycle (40 CFR 190), based on ICRP-2 dose methodology, ``is 
essentially equivalent to the risk associated with [the] proposed limit 
of 150 <greek-m>Sv (15 mrem) . . . [which] corresponds approximately to 
an annual risk of 7 chances in 1,000,000.'' There is an implication 
that there a is risk-based distinction between a 25 mrem per year and 
15 mrem per year limit. The HPS has taken the position that this type 
of risk assessment should not be used at the levels of exposure being 
considered in this proposed rule. We believe that at these levels there 
is not a scientifically-validated basis for reaching conclusions about 
differences in implied risk. A copy of the HPS Position Statement, 
``Radiation Risk in Perspective,'' is enclosed.
    Finally, the EPA has not provided any analysis of the costs 
associated with meeting a 150 <greek-m>Sv (15 mrem) versus a 250 
<greek-m>Sv (25 mrem) standard as balanced against an expected increase 
in health and safety benefit. Even at the 250 <greek-m>Sv (25 mrem) 
standard, a number of conservatisms will necessarily have to be 
introduced in the licensing application to address the uncertainties 
and limitations in modeling for predicting potential exposures over 
such long time periods (e.g., 10,000 years). However, the incremental 
difference in costs associated with incorporation of additional 
conservatisms for a 40% lower limit could be enormous, without any 
demonstrated benefit to health and safety.
    The HPS believes that the final rule should employ the use of the 
concept of the ``average member of a critical group'' for applying the 
individual dose standard, because it is more consistent with national 
and international regulatory practice, as well as with specific 
recommendations of the NAS committee, and will help avoid unnecessary 
conservatism in dose analysis and assessment for the licensing process.
    The NAS committee recommended use of an ``average member of a 
critical group'' for applying the individual dose standard. The 
critical group concept is consistent with the recommendations of the 
ICRP and reflects standard national and international practice in the 
area of radiation protection. The EPA justifies its proposed 
alternative approach, the 44 reasonably maximally exposed individual 
[RMEI],'' as an agency preference that is consistent with its practices 
in other EPA programs. However, this concept has not been incorporated 
in an NRC licensing process, which is where the final rule will 
ultimately be implemented. The HPS believes that it is neither prudent, 
nor necessary, to invoke this application in this rule, especially when 
the EPA has noted that the RMEI ``provides a level of protection 
substantially equivalent to that which would be achieved by the 
[critical group concept].''
    The extensive explanation provided by the EPA in the proposed rule 
regarding how the concept is to be applied goes well beyond the 
statutory authority assigned the EPA in the Energy Policy Act, since 
the implementing authority is reserved exclusively for the NRC. 
Accordingly, we recommend that the EPA limit the approach provided in 
the final rule to endorsing the ICRP-based critical group concept as 
recommended by the NAS committee.
    In summary, the HPS believes that adopting these recommended 
changes will result in a rule that will be more effective in ensuring 
protection of public health and safety. The HPS also believes it will 
be more suitable in supporting implementation of the national policy 
for safe disposal of spent nuclear fuel and high-level waste in a deep 
geologic repository.
            Sincerely yours,
                      Raymond H. Johnson, Jr., C.H.P., P.E.
                                                          President

    Mr. Barton. The Health Physics Society is a professional 
organization of 6,000 scientists, educators, and engineers and 
operational health physicists who are dedicated to developing 
and disseminating scientific knowledge of and the practical 
means for radiation safety. The Society's principle is to keep 
radiation exposures from justified--and I quote--beneficial 
practices as low as is reasonably achievable. So this is 6,000 
scientists, educators, and engineers. And they sent this letter 
to the EPA on November 24th, 1999.
    I will put the entire letter in the record but I am going 
to read the key paragraph. It says the HPS believes that the 
proposed use of a separate groundwater protection requirement 
is, one, not necessary to ensure protection of public health 
and safety; two, inconsistent with applicable recommendations 
of scientific advisory bodies; and three, contrary to statutory 
requirements.
    So it would seem to me, Director Page, that this is yet one 
more indication that this policy of EPA to have a separate 
standard is not supported in the scientific community. Do you 
have any comment on this--you have not--we did not give you a 
chance to look at this letter before the hearing. So I am not 
going to ask you to comment on the specifics of it. But I mean, 
I would assume that your people are generally aware of this 
letter. Okay.
    You testified earlier in a question, in response to a 
question that I asked you, that EPA is in the process of 
updating the science on the maximum contaminant level for the 
Safe Drinking Water Act requirements, and I thought you told me 
that EPA was not going to issue a radiation standard for Yucca 
Mountain until that new science has been assimilated within the 
EPA. But I want to give you another chance to say that. Did you 
say earlier that you were going to wait until you get the new 
science in place before you--if you are going to continue to 
propose a groundwater standard? Or is the agency going to go 
ahead and try to promulgate a groundwater standard sooner than 
that?
    Mr. Page. Thank you for the opportunity to clarify that. 
Mr. Chairman, what I did say is that we were in the process of 
updating the science behind the MCLs. What I also said, which 
is different from what you were asking----
    Mr. Barton. That is why--I thought I heard you say one 
thing and the staff heard you say another.
    Mr. Page. What I said was that I believed that the--when 
you were asking me a specific time when it was going to be 
done, it was my confidence that that process would conclude 
prior to any final decisions, licensing decisions by the NRC, 
that they would make so that process would not get in the way.
    Can I make one more clarification that I think is important 
for you to know? Using the only sciences, which is what we did 
when we developed our proposals, and using certain scenarios 
that we proposed in the groundwater or in the proposed rule, 
the assessments that the Department of Energy has done and the 
viability assessments and subsequent analysis that they have 
done shows that they can make the licensing. So I think that is 
an important clarification.
    We do intend to update those MCLs and do intend to have 
larger discussions on groundwater across the Federal agencies, 
but I just want to tell you--I am getting a sense that you are 
concerned that we might be in the way or driving costs up 
unnecessarily and based on the analysis done to date, we are 
not one of the more important factors in there in terms of what 
we are----
    Mr. Barton. There was only a veto threat on the bill for 
this particular standard. I would think that certainly could be 
construed as being in the way, or at least being a factor, 
since the President of the United States said if you did not 
have this 4 millirem groundwater standard he was going to veto 
the bill. I kind of think that is a factor.
    Mr. Page. What I understood the veto was, there is an 
objection taken, among other things, to eliminating the role 
that the Environmental Protection Agency would play, or a 
delay. That is my understanding. I don't remember the 4 
millirem being part of the Presidential veto.
    Mr. Barton. Well, maybe I misunderstood that. There were 
only three Presidential veto threats on the House-passed bill. 
This is one of them.
    I want to go back to Dr. Itkin. The dialog that we had 
about recompete, it would be helpful if the Department of 
Energy could give to the committee all documents that were 
prepared before the Secretary of Energy made the decision to 
recompete. You mentioned one document that the acting director 
made. If there are other documents--now, we will send you a 
letter and we are real good in drafting our letters, any and 
all, la-dee-da-dee-da. I used to be oversight chairman, so I 
guarantee you that I can get you a letter that covers the 
bases. Just--you generally said that most of the debate within 
the Department was more of a verbal nature between the 
Secretary and various people on the issue. But to the extent 
there were written documents--you mentioned one--we would like 
to have that one, plus any other documents before the Secretary 
made the decision. Is that understood?
    Mr. Itkin. That is understood.
    [The response had not been received at time of printing.]
    Mr. Barton. Now, on that point, it is not generally a bad 
thing to recompete contracts. Competition is good. It is not 
bad. In this particular contract, since the critical path is 
critical, it really seems inconsistent to, if you are trying to 
meet your milestones, to go into a recompetition mode right 
when it is time to make some of those decisions.
    Now, I understand that there are three groups competing. 
One is the existing group, TRW in conjunction with Parsons 
Brinckerhoff, I think. You are----
    Mr. Itkin. No, that is true.
    Mr. Barton. I am getting--one the gentleman behind you is 
shaking his head and you are doing this. There is a little 
dichotomy there, but that is understandable. Hopefully it will 
not delay the decision. But--the decision on whether to go 
ahead or not go ahead and meet these critical path requirements 
that you have got to meet in the next year and a half.
    But I want to be on the record explicitly, if we get some 
song and dance next year that they are going to have to slip 
the milestone because of the recompetition, this subcommittee 
is going to be very, very upset. And I know you share that 
concern. I know you share that concern; you are just being a 
real team player here and not being as open as you could be if 
this was a private conversation as compared to a public 
conversation.
    Here is what I want the Department of Energy to do between 
now and next year, if at all possible. The subcommittee would 
like to see a proposal on funding to fully fund the 
construction phase of the depository. Not just that it needs to 
be done, but work with the minority, work with the majority, 
come up with a proposal that we can put into a bill that the 
Department will support. Okay?
    I would like for the entire scientific community, if it is 
at all possible between NRC and EPA and the technical review 
committee and everybody else, to let's solve this separate 
versus all pathways. The average citizen does not understand 
that from Adam. If, in fact, the scientific community wants to 
be scientific, we ought to be able to resolve whether you need 
an all-pathway standard or you need a separate groundwater 
standard, and it would be very helpful to have a meeting of the 
minds on that.
    And then we would obviously like to make sure that--this is 
on the technical review board--any outstanding issues that have 
not been addressed in the review board's opinion, we need to 
get those explicitly put forward so that the Congress can 
demand the Department of Energy and EPA and the various Nuclear 
Regulatory Commission address those issues.
    We have been messing with this for 18 years. It is really 
time to make a decision one way or the other on this. And the 
timeframe is the next 18 months, which means the next 6 months 
of the next Congress we are going to have a new President; 
maybe President Gore, maybe President Bush, but we are going to 
have a new President. Now is the time to really bring all of 
this to fruition, make these decisions, and go forward.
    And so with that, I am going to adjourn the hearing. I want 
to thank our witnesses. These are productive. I want to alert 
our EPA, NRC, and DOE folks we are going to have a very 
extensive list of written questions and we are going to ask 
that we get answers within a month of when you get the 
questions. Okay?
    Thank you, gentlemen, and thank you, lady, and this hearing 
is adjourned.
    [Whereupon, at 1:25 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

                             The National Academies
                      Board on Radioactive Waste Management
                                                    August 18, 2000
The Honorable Joe Barton
Chairman
Subcommittee on Energy and Power
Committee on Commerce
U.S. House of Representatives
Room 215 Rayburn House Office Building
Washington, D.C. 20515-6115
    Dear Chairman Barton: In response to your letter dated July 20, 
2000, I am enclosing responses to your follow-up questions from the 
June 23, 2000 hearing on radiation protection standards for Yucca 
Mountain. Please do not hesitate to contact me if you need additional 
information.
            Sincerely yours,
                                           Kevin D. Crowley
                        Director, Board on Radioactive Waste Management
  Response to Questions Regarding the June 23, 2000 Hearing on Yucca 
                Mountain Radiation Protection Standards
    note: the following three references are cited in this document:
    1. Environmental Protection Agency [EPA], 1999: Environmental 
Radiation Protection Standards for Yucca Mountain, Nevada, Proposed 
Rule: 64 Federal Register 46976-47016 (August 27, 1999). This document 
contains EPA's proposed radiation-protection standard for Yucca 
Mountain.
    2. National Research Council [NRC], 1995: Technical Bases for Yucca 
Mountain Standards: Washington, D.C., National Academy Press. This 
report was written for EPA at the request of the U.S. Congress and 
contains the National Academies' findings and recommendations on 
radiation-protection standards for Yucca Mountain. This report is 
referred to as the ``TYMS report'' in this document.
    3. National Research Council [NRC], 1999: Comments on Proposed 
Radiation Protection Standards for Yucca Mountain, Nevada by the Board 
on Radioactive Waste Management: Washington, D.C., National Academy 
Press. This report provides a comparison of the proposed EPA standards 
with the findings and recommendations in the TYMS report. It is 
referred to as the ``BRWM report'' in this document.
    Question 1: Please elaborate on the reasons for the Board's 
opposition to EPA's proposed separate 4 millirem groundwater protection 
standard.
    Response: The Board on Radioactive Waste Management [BRWM] has not 
taken a position either in favor of or in opposition to EPA's proposed 
groundwater standard for Yucca Mountain. Rather, the BRWM has stated 
(NRC, 1999, p. 11) that it ``does not believe there is a basis in 
science for establishing such limits'' to protect public health. The 
TYMS report (NRC, 1995) concluded that an individual-protection 
standard would be sufficient to protect public health from a repository 
at Yucca Mountain.
    In my written testimony to the subcommittee, I explained why there 
is no scientific basis for the proposed groundwater standard. EPA made 
what appear to be several arbitrary modifications in applying its safe 
drinking water regulations (40 CFR 141) to Yucca Mountain. In 
particular, the groundwater standard in EPA's safe drinking water 
regulations applies to water delivered at the tap through a public 
water system, whereas the proposed groundwater standard for Yucca 
Mountain will be applied to a volume of groundwater in an aquifer some 
2,000 feet below the Earth's surface at some as-yet undetermined 
distance from the repository. Second, the groundwater standard is based 
on a different level of risk than the individual-protection standard 
and, for some radionuclides, may actually provide more protection to 
groundwater than the individual-protection standard provides to people.
    In my written testimony I also suggested how EPA could justify a 
separate groundwater standard for Yucca Mountain based on science: 
namely, by adopting the risk-based approach recommended in the TYMS 
report (NRC, 1995). I noted that if EPA based its Yucca Mountain 
standards on a single value of acceptable risk, it could express that 
risk in terms of two elements, one for radiation exposures through the 
groundwater pathway (a groundwater standard) and one for exposures 
through all pathways (an all-pathways standard). These two elements 
would be scientifically consistent so long as they are based on a 
single value of acceptable risk. To implement this approach, however, 
EPA would have to modify the dose limits for the all-pathways and 
groundwater standards that currently exist in its proposed rule so that 
they represent the same value of acceptable risk.
    Question 2: I understand that one of the first radionuclides that 
could be released from the repository would be iodine-129. What is the 
health risk associated with a 4 millirem dose from iodine-129? Is this 
within the risk range recommended by the National Academy of Sciences? 
Are there other radionuclides that would fall outside the NAS's 
recommended risk range under EPA's proposed groundwater standard?
    Response: I cannot provide the subcommittee with a direct answer to 
this question. The BRWM has not performed a detailed examination of the 
health risks associated with a 4 millirem dose from iodine-129 or any 
other radionuclides associated with EPA's groundwater standard. 
Moreover, given that the groundwater standard proposed by EPA is based 
on outdated dosimetry, as noted in the BRWM report (NRC, 1999, p. 12) 
and in my written testimony (p. 10), the risk values calculated by EPA 
may not be representative of actual risks.
    Question 3: The Conference Report accompanying the 1992 Act read as 
follows: ``The Conferees do not intend for the National Academy of 
Sciences, in making its recommendations, to establish specific 
standards for protection of the public but rather to provide expert 
scientific guidance on the issues involved in establishing those 
standards.'' The National Academy was not intended to usurp the EPA's 
rulemaking authority, but the direction to EPA is very clear in the 
1992 law--the EPA Administrator is to set generally applicable 
standards for the Yucca Mountain site ``based upon and consistent with 
the findings and recommendations of the National Academy of Sciences.'' 
Mr. Page suggested in his testimony the ``EPA was to consider technical 
recommendations from the National Academy of Sciences.'' However, the 
law says ``based upon and consistent with.'' In your view, are the 
proposed EPA standards based upon and consistent with the findings and 
recommendations of the National Academy of Sciences?
    Response: As noted in NRC (1999) and in my written testimony to the 
subcommittee, many important elements of EPA's proposed standards are, 
either in design or implementation, based upon and consistent with the 
findings and recommendations contained in the TYMS report (NRC, 1995). 
These are discussed on pages 4-5 of my written testimony to the 
subcommittee and include who is protected, the level of protection for 
the individual-protection standard, human intrusion, and exposure 
scenarios. My written testimony also identified three elements of EPA's 
proposed standards that are not based upon and consistent with the 
recommendations in the TYMS report: (1) use of a dose-based standard; 
(2) the inclusion of a separate groundwater standard; and (3) the time 
period over which the standard should be applied. My written testimony 
explains the nature of these inconsistencies (see especially pages 6-
13). The BRWM considers the first two of these inconsistencies to be 
very significant. The third inconsistency is less significant, as 
explained in my response to the last question in this document.
    Question 4: The National Academy recommended that EPA adopt a risk-
based standard for the protection of individuals, yet EPA proposed a 
dose-based standard. I recognize that the 1992 Act directed EPA to 
``prescribe the maximum annual effective dose equivalent to individual 
members of the public. That statutory language could be interpreted to 
merely dictate the final form of the standard, and certainly does not 
prevent EPA from using risk, as the National Academy recommended, to 
derive a final dose equivalent. Is EPA, in fact, using a risk level to 
determine the final dose?
    Response: The BRWM noted (NRC, 1999, p. 4) that EPA did not use 
risk to establish dose limits for its individual-protection standard. 
Instead, EPA used dose-based standards that were carried over from 
existing regulations (40 CFR 191 and 40 CFR 141) and derived equivalent 
risk values through arithmetic conversion.
    As noted in both the TYMS (NRC, 1995) and BRWM (NRC, 1999) reports, 
there is no scientific basis for setting a level of protection for 
either a dose- or risk-based standard. Rather, protection levels are a 
public policy decision, best established through rulemaking, based on 
the risk the public is willing to bear from radiation releases from a 
repository at Yucca Mountain. The TYMS report recommended (NRC, 1995, 
p. 64-65) that the Yucca Mountain standard be based on risk because (1) 
it would not have to be revised in subsequent rulemaking as scientific 
knowledge advances, and (2) risk is more readily understood by the 
general public than dose, and it provides a convenient way to compare 
hazards to public health from different sources.
    The BRWM recognized (NRC, 1999, p. 6) that establishing a risk-
based standard would be a major departure from current EPA practice and 
that it would be far more difficult for EPA to ask the public about 
acceptable risk than follow established precedents. Nevertheless, the 
BRWM strongly recommended (NRC, 1999, p. 7) that EPA adopt a risk-based 
individual-protection standard precisely because it requires public 
involvement in what is, fundamentally, an important public-policy 
decision.
    Question 5: Could you please elaborate on the Board's concerns 
about the time period over which the radiation standard must be 
applied?
    Response: In its proposed rule, EPA has asked for comments on two 
alternative standards for the period of compliance. The first 
alternative is essentially that proposed in the TYMS report (NRC, 1995) 
in which the period of compliance extends to the time of peak risk from 
repository releases. The BRWM has no concerns about this alternative, 
and in fact believes that its adoption would be consistent with the 
recommendations in the TYMS report (NRC, 1995).
    The second alternative applies a quantitative dose limit for a 
period of 10,000 years, but it also imposes an additional requirement 
that repository performance be examined after 10,000 years to see if 
dramatic changes could be anticipated. The BRWM recognizes that EPA can 
choose, as a matter of policy, to adopt the 10,000-year limit in the 
second alternative. Nevertheless, the BRWM is concerned about this 
alternative because EPA provides no guidance on how the required 
analyses are to be carried out beyond 10,000 years or how the results 
are to be used in judging the acceptability of the repository. The BRWM 
noted (NRC, 1999, p. 13) that ``to mandate that these results become 
`part of the public record' but to give no indication of how they will 
be taken into account seems to postpone rather than solve problems 
associated with licensing and provide no real benefits to protection of 
the public.'' This is especially true given that peak doses from 
repository releases are likely to occur after 10,000 years.
    The BRWM recommended (NRC, 1999, p. 13) that EPA either be more 
specific in providing guidance on how the analyses beyond 10,000 years 
should be used in determining compliance, or else explicitly pass the 
task for developing such guidance to the U.S. Nuclear Regulatory 
Commission, which is responsible for establishing regulations 
consistent with the final EPA rule.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.026
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.027
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.028
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.029
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.030
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.031
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.032
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.033
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.034
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.035
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.036
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.037
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.038
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.039
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.040
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.041
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.042
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.043
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.044
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.045
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.046
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.047
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.048
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.049
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.050
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.051
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.052
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.053
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.054
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.055
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.056
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.057
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.058
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.059
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.060
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.061
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.062
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.063
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.064
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.065
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.066
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.067
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.068
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.069
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.070
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.071
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.072
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.073
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.074
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.075
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.076
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.077
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.078
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.079
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.080
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.081
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.082
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.083
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.084
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5916.085
                                 

</pre></body></html>
